App. 1
BEFORE THE COMMITTEE ON
CHARACTER AND FITNESS
SUPREME COURT OF ILLINOIS
FIRST JUDICIAL DISTRICT
FINDINGS AND CONCLUSIONS
OF THE HEARING PANEL
IN RE:

Application of Thomas
Joseph Skelton

HEARING PANEL:

Eileen L. Furey, Chair
Jonathan B. Amarilio
Mary Clare Spencer
John R. Storino
Vickie Voukidis

HEARING DATE:

July 15, 2019

COUNSEL FOR
PETITIONER:

James A. Doppke, Jr.

COUNSEL RETAINED
TO PRESENT ADVERSE
MATTERS:

Stephen Fedo

RECOMMENDATION:

Not Recommended for
Admission

BACKGROUND FACTS AND
PROCEDURAL HISTORY
(Filed Oct. 19, 2019)
Thomas Joseph Skelton (the “Applicant” or “Mr.
Skelton”) applied for admission to the Illinois Bar,
submitting a Character and Fitness Questionnaire
(“CFQ”) on March 19, 2017. He received his Juris

App. 2
Doctor from The John Marshall Law School (“JMLS”)
on June 11, 2017. Tab 1, Illinois Board of Admissions
to the Bar (“IBAB”) Certificate of Dean of Law School
dated June 28, 2017, p. 1. Mr. Skelton passed the July
2017 Illinois Bar Exam. Tab 2, IBAB Character and
Fitness Final Report dated April 29, 2019, p. 1. He
amended his CFQ on October 3, 2017.
As discussed below, an Inquiry Panel met with the
Applicant on March 20, 2018, reporting thereafter a
unanimous vote against recommendation of certification to practice law. Tab 3, Inquiry Panel Report dated
March 26, 2018, pp. 1-4. The Applicant then sought review by a Hearing Panel. Tab 4, Letter from J. Doppke,
Jr. to V. Williams dated November 8, 2018. He submitted a Character and Fitness Update on November 16,
2018.
Matters of Concern
Incidents at JMLS
Certification of the Applicant’s law school graduation included documentation of four incidents which
JMLS deemed adverse to the Applicant. Tab 1, supra,
p. 1. The incidents included:
(i) April 16, 2015 – Student overheard Applicant in
JMLS library being loud and vulgar. She asked him to
quiet down but he did not. Applicant was then asked
by security officer to leave the building until class began.
(ii) October 13, 2015 – Applicant was heard yelling at
himself at various times throughout the day. When

App. 3
security officer went to ask him to leave, Applicant was
already preparing to do so and admitted he had been
yelling.
(iii) February 18, 2016 – As Applicant was exiting
through turnstile of the law school lobby, security officer observed him acknowledge the presence of an administrator in a nearby office and yell a curse at the
administrator. Applicant then exited the building.
(iv) April 8, 2016 – Student heard another student
yelling and swearing in the JMLS library and asked if
he was all right. He ignored her and left the building.
On reviewing camera footage, security officer noted
that student causing the disturbance was Applicant.
Tab 1, supra, pp. 2-8.
In a letter dated May 26, 2016, JMLS Dean Powers
noted a meeting on February 22, 2016 between himself
and the Applicant in which the Dean asked the Applicant to cease the conduct noted in paragraphs (i) – (iii)
above. Tab 1, supra, p. 10. The letter then referenced
the incident noted in paragraph (iv) above and informed the Applicant that the letter constituted his final warning before initiation of disciplinary action. Id.
The Dean stated further that in the event there were
a medical explanation for the conduct, the law school
would require documentation from a health care provider including suggestions on how the conduct could
be controlled. Id. No disciplinary action was taken. Tab
2, supra, p. 2.

App. 4
Nondisclosures to JMLS
On July 7, 2017, at IBAB’s direction, the Applicant
amended his JMLS application to include two previously undisclosed incidents of undergraduate discipline for possession of alcohol in a dormitory at St.
Louis University. Tab 2, supra, p. 2. The law school accepted the amendments with no further action taken.
Tab 1, supra, p. 11.
Emails During the Character and Fitness Process
During the five-month period approximately midOctober 2017 through mid-March 2018, the Applicant
sent over 40 emails to recipients including Committee
on Character and Fitness Member Ellen Mulaney
(“Ms. Mulaney”) and IBAB staff in Springfield. Tab 3,
supra, p. 2. The Applicant variously attacked the integrity of JMLS, IBAB, the Inquiry Panel and the legal
system, using charged language in much of his communication. Id. at 2-3.
Examples of the Applicant’s language include:
. . . Any juror, state court judge, or federal
court judge could tell that the only reason
John Marshall Law School disclosed these incidents in 2015 and 2016 was to use the legal
system to harass me. What kind of attorney
plays dumb while people abuse the legal system to harass him or his clients? What kind of
attorney would let their client waive their privacy rights to respond to a request that is a
complete abuse of the legal system? I do not
want to play dumb while a bunch of white

App. 5
nationalist sympathizers abuse the legal system to harass me. Tab 5, Email from Applicant
to D. Schuster, N. Vincent and V. Williams
dated November 30, 2017.
My concern is that the hearing is retaliation
for my vocal criticism of organized corruption
in the legal field and organized crime. Specifically, in my experience, the Bar acts like a protection racket when anyone has the courage
to notice organized corruption within the Bar.
When anyone notices organized corruption,
the Bar looks for any little loophole to discredit that person. The Character and Fitness
Committee’s nebulous standards concerning
fitness to practice law and the applicant’s burden are the ideal environment for this protection racket to operate. I am concerned that no
matter what I do, the Inquiry Panel will look
for any reason to deny my application, then
state it is my fault afterwards because the
burden is on the applicant even if I could have
met the Panel’s concerns if they were communicated before the hearing. . . . Tab 6, Email
from Applicant to V. Williams, E. Mulaney, D.
Schuster and N. Vincent dated February 6,
2018, pp. 1-2.
. . . This Inquiry Panel is the result of John
Marshall efforts to continue their ongoing
scheme of fraud, including mail and wire
fraud among other obvious RICO predicates.
No number of anger management classes or
therapy is going to change the Ideptocratic
and corrupt nature of this Inquiry Panel
hearing. Tab 7, Email from Applicant to V.

App. 6
Williams, E. Mulaney, D. Schuster and N.
Vincent dated February 8, 2018.
. . . I do not believe this Inquiry Panel will actually apply the law. I believe that you do not
like me, and no matter what I do you will manipulate the rules to deny my application after the hearing because you personally do
not like me. Tab 8, Email from Applicant to
D. Schuster, V. Williams, N. Vincent and E.
Mulaney dated February 16, 2018.
. . . This Inquiry Panel is nothing but punishing me because I can’t sit silently and tolerate
the insane illegal garbage JMLS does to benefit conservative bullies. Tab 9, Email from
Applicant to V. Williams and E. Mulaney
dated February 18, 2018.
And I want to schedule this hearing as soon
as possible. I am sick of wasting more of my
life playing corrupt games with the corrupt
justice system in this state. . . . Tab 10, Email
from Applicant to V. Williams and E. Mulaney
dated February 21, 2018.
. . . Winston Churchill’s “We shall fight on the
beaches” speech is particularly relevant here.
I am never going to surrender to these Nazis.
Tab 11, Email from Applicant to V. Williams
and E. Mulaney dated March 1, 2018.
As you can see, I asked the Stasi for my records in January 2017. They responded by
sending me only my application. They kept secret records on me that they compiled over the
years. These people have absolutely no right

App. 7
to compile secret records about me. Tab 12,
Email from Applicant to V. Williams and E.
Mulaney dated March 1, 2018.
And I undertand why you people are trying to
GitMo me. If you give me a law license, I will
spend the rest of my life exposing your ongoing patterns of fraud. . . . Tab 13, Email from
Applicant to V. Williams and E. Mulaney
dated March 18, 2018.
Inquiry Panel
The Inquiry Panel met with the Applicant on
March 20, 2018, subsequently voting unanimously
against recommendation of certification based on the
Applicant’s failure to demonstrate present fitness for
admission by clear and convincing evidence. Tab 3,
supra, pp. 1, 4.
The Inquiry Panel recounted the history of the Applicant’s interactions with the Committee on Character and Fitness as follows:
(a) Applicant first met with Ms. Mulaney on October
9, 2017. At that meeting, the Applicant acknowledged
the four campus incidents described in paragraphs (i)
– (iv) above and explained that he was suffering from
stress and anxiety at that time, had subsequently received counseling at JMLS and was taking anti-anxiety
medication prescribed by a psychiatrist. Asked by Ms.
Mulaney to provide a letter from the counselor that the
issues leading to the incidents had been resolved, the
Applicant agreed. Supervising psychologist J. BurrellSmith verified the Applicant’s counseling sessions at

App. 8
JMLS with a psychology graduate student but provided no professional opinion. Tab 14, Letter from J.
Burrell-Smith to E. Mulaney dated October 18,
2017.
(b) In mid-October 2017, the Applicant began sending emails attacking their credibility to Ms. Mulaney
and IBAB staff in Springfield.
(c) Later in October 2017, Ms. Mulaney requested
that the Applicant obtain records from his prescribing
psychiatrist Dr. Ann Sarpy (“Dr. Sarpy”) including an
opinion regarding remediation of his misconduct. Ms.
Mulaney also requested a new evaluation from a psychiatrist including an opinion regarding remediation.
(d) The Applicant complied with both requests,
providing documentation from Dr. Sarpy and an evaluation made by Dr. Joy Ryba (“Dr. Ryba”). Dr. Sarpy
verified prescribing medication since 2012, stated her
diagnoses and noted she did not provide psychotherapy. Tab 15, Letter from Dr. A. Sarpy to V. Williams
dated November 27, 2017. Dr. Ryba noted that the Applicant had been undertreated, posited her diagnoses
and recommended psychotherapy and reassessment of
the Applicant’s medication. Tab 16, Psychological Evaluation Report dated December 19, 2017, pp. 1-3.
(e) During the time that the Applicant was complying
with these requests, he continued to send email to Ms.
Mulaney and IBAB staff containing increasingly disturbing language. In February 2018, the Applicant’s
emails began to attack the integrity of the Inquiry
Panel in particular. By mid-March 2018, the Applicant
had sent over 40 messages, attacking JMLS, IBAB and

App. 9
the legal system, including allegations against JMLS
and IBAB of retaliatory persecution.
Tab 3, supra, pp. 1-3.
On meeting with the Applicant on March 20, 2018,
the Inquiry Panel noted positively the Applicant’s honesty and his work as a FOIA officer for the City of Chicago. Id. at 3. The Inquiry Panel also noted that the
Applicant had recently met with new psychiatrist Dr.
Yu, had just begun a new anti-psychotic medication
and was seeking a psychotherapist. Id. The Inquiry
Panel commended the Applicant for taking these steps.
Id. at 4.
Although the Applicant acknowledged to the Inquiry Panel that the four incidents in law school had
occurred, he stated that by reporting the incidents, the
law school was persecuting and trying to destroy him.
Id. at 3-4. When asked his thoughts on sending the numerous emails attacking JMLS, IBAB and the legal
system, the Applicant said he knew he would not be
admitted and might as well be honest. Id. at 4. The Inquiry Panel concluded that the Applicant had not
clearly and convincingly demonstrated fitness for admission as the emails sent in recent months evidenced
seriously impaired judgment. Id.
Notified of the Inquiry Panel’s decision, the Applicant requested hearing before a Hearing Panel. Tab 4,
supra. A Hearing Panel convened to meet with him on
July 15, 2019.

App. 10
EVIDENCE PRESENTED AT THE
JULY 15, 2019 HEARING
Testimony of Charles Turk, M.D.
Charles Turk (“Dr. Turk”) testified that he is a
psychiatrist and psychoanalyst who has practiced in
Illinois during the last 40 years with a focus on schizophrenic patients. Tr. 13-15, 28. In September 2018, Dr.
Leslie Wolowitz (“Dr. Wolowitz”) referred Mr. Skelton
to Dr. Turk for independent evaluation in connection
with this Hearing. Tr. 15-16, 34, 38. Dr. Turk saw Mr.
Skelton twice in September 2018 and has seen him
monthly thereafter. Tr. 15-17, 31-33, 39. Prior to September 2018 and up until approximately a month ago,
Mr. Skelton was in treatment with psychiatrist Dr. Yu.
Tr. 15-16, 33, 38. In the last month, Dr. Turk became
and is now Mr. Skelton’s treating and prescribing psychiatrist. Tr. 17, 21, 33.
Mr. Skelton chose to make Dr. Turk his treating
and prescribing psychiatrist because Mr. Skelton felt
that Dr. Turk was accessible and more supportive of a
prognosis for a healthy life than Dr. Yu had been. Tr.
21, 59-60. The nature of Dr. Turk’s monthly sessions
with Mr. Skelton have not changed since Dr. Turk became the treating psychiatrist. Tr. 33. He monitors Mr.
Skelton’s progress and medication, while Dr. Wolowitz
provides talk therapy. Id.
In September 2018, Mr. Skelton was on the medication Seroquel prescribed by Dr. Yu and gradually increased by him from 25 milligrams to the current daily
dosage of 500 milligrams. Tr. 16-17, 39, 52. Dr. Turk

App. 11
concurred with and has maintained both Dr. Yu’s prescription of that medication and the 500-milligram
dosage. Tr. 16-17, 24, 33.
Seroquel is an anti-psychotic which helps to organize the personality, ensure stability and suppress
symptoms including the hearing of voices. Tr. 17,
23-24. Dr. Turk seeks to prescribe the lowest possible
effective dose of Seroquel as it can have serious side
effects including interference with metabolism, predisposing to diabetes, increasing cholesterol and causing
movement disorders of the face or tongue. Tr. 24, 46,
56. Mr. Skelton has tolerated Seroquel well, experiencing only an increase in cholesterol which has since
come down. Tr. 26. He has been taking Seroquel for
about 10 months. Tr. 46. In some patients, the efficacy
of the medication diminishes over time and alternatives can be tried. Tr. 57-58.
In connection with his own evaluation, Dr. Turk
reviewed Dr. Ryba’s evaluation. Tr. 16. Dr. Turk understood that Mr. Skelton had first received a diagnosis of
a mental health condition while in college. Tr. 41.
Within a month of first seeing Mr. Skelton in September 2018, Dr. Turk diagnosed him with delusional
disorder. Tr. 17-18, 29, 40. Delusional disorder involves
an elaborate construction of thought departing from
reality and accounting for disturbed feelings, fears and
behaviors. Tr. 18. Paranoid thoughts are a part of delusional disorder and Dr. Turk has observed those in Mr.
Skelton. Id

App. 12
Mr. Skelton sought treatment after law school during which he had become outraged by a perceived conspiracy against others. Tr. 18-19. That had been a
delusional perception of events which led Dr. Turk to
consider the diagnosis delusional disorder. Tr. 19-20. A
hallmark of delusional disorder, also exhibited by Mr.
Skelton, is a sense of being personally selected as the
target of a conspiracy. Tr. 21.
Delusional disorder and schizophrenia are both
psychoses. Tr. 29. Dr. Turk was aware that Mr. Skelton
had previously been diagnosed with schizoaffective
disorder, which could have been accurate at the time
of that diagnosis. Tr. 40. Dr. Turk does not find Mr.
Skelton to be schizophrenic because he does not exhibit
the inability to construct coherent thoughts or the
shifts in mood from mania to depression seen in schizophrenia. Tr. 29, 40-41.
In delusional disorder, the patient has a sense of
being persecuted for having a solution to a problem for
humanity. Tr. 29-30. In Mr. Skelton, this sense of persecution generated outrage while at JMLS. Tr. 29. A
schizophrenic patient believes he is selected to sacrifice himself, a belief which Mr. Skelton does not exhibit.
Id. His desire to assist clients does not approach the
grandiosity seen in schizophrenics. Tr. 30. Although associated with schizophrenia, the hearing of voices in
Mr. Skelton’s case is consistent with persecutory delusional disorder. Tr. 30-31.
Dr. Turk was also aware of Mr. Skelton’s previous
diagnosis of intermittent explosive disorder (“IED”).

App. 13
Tr. 41-42. That diagnosis could have been considered
at the time it was given but Dr. Turk does not find Mr.
Skelton to have IED. Tr. 42.
The emails sent by Mr. Skelton to IBAB were consistent with the delusional disorder diagnosis. Tr. 2223. The emails expressed Mr. Skelton’s feeling that
IBAB had already determined to deny him admission
and it would be futile to fight that. Tr. 22. Mr. Skelton
has expressed to Dr. Turk that the emails were inappropriate and that he regrets having sent them. Tr. 37.
At the time he sent the emails, Mr. Skelton was undertreated and not on Seroquel although he may have
been on other medication. Tr. 44-45.
Delusional disorder could cause a patient to lash
out maliciously toward others. Tr. 20, 42. If Mr. Skelton
were involved in a personal exchange and consumed in
delusional thinking, he could become angry and yell.
Tr. 42. Although this could occur in Mr. Skelton’s practice of law, it is unlikely because he has increasingly
been able to distinguish between delusion and reality
and to control his emotions. Tr. 32, 43. During the time
Dr. Turk has known Mr. Skelton, he has not lashed out
or been consumed in delusional thinking. Tr. 60-61.
A high-stress situation could exacerbate Mr. Skelton’s condition. Tr. 56-57. Conceivably, confrontational
situations could also do so. Tr. 57. Taking employment
that is often high stress or confrontational would not
be best for Mr. Skelton’s mental health. Id.
Mr. Skelton is a cooperative patient. Tr. 21-22. He
is fully compliant with the medication. Tr. 23, 35. He is

App. 14
consistent with his visits. Tr. 23. He is forthright, has
insight into his condition and is becoming able to reflect on incidents and see that they are not indicative
of conspiracy against him. Tr. 23, 32. Mr. Skelton’s
hearing of voices or misinterpreting conversations is
now almost nonexistent. Tr. 24.
During their sessions, Mr. Skelton has recounted
events which provoked anxiety. Tr. 32. In October 2018,
a delusional incident occurred at work when Mr. Skelton thought someone was yelling at him, but he was
able to reconsider. Tr. 50. In that incident, Mr. Skelton’s
delusional thinking lasted about half an hour. Id.
In December 2018, during a class at work, Mr.
Skelton thought something that was said had been
meant for him, but then realized it had not been. Tr.
51. That delusional thinking passed within the hour
and did not affect what he was doing. Id.
In February 2019, a delusional incident was triggered by someone in Mr. Skelton’s family abusing or
taking advantage of someone else. Tr. 49-50. This delusional thinking lasted no more than a day. Tr. 49.
In June 2019, as he was falling asleep Mr. Skelton
had strange thoughts and grandiose ideas of how to
cure the problem after reading about police misconduct. Tr. 47-48. This delusional thinking probably
lasted less than an hour without residual effect. Tr. 4849.
According to Dr. Turk, none of these incidents
would indicate Mr. Skelton being consumed with

App. 15
delusion or cause Dr. Turk to change the medication.
Tr. 52, 61. He would consider increasing the dosage if
Mr. Skelton were having thoughts disruptive of his
work, causing anxiety or preventing sleep. Tr. 52-53.
Dr. Turk did not know how long it takes Mr. Skelton to
process a delusion and to conclude it is not reality. Tr.
43-44. Dr. Turk was aware not of the frequency but of
the intensity of some incidents. Tr. 47.
Mr. Skelton may not need Seroquel for the rest of
his life. Tr. 25-26. He could cease taking it if he were
functioning and sleeping well, not beset by delusional
thinking, able to distinguish between delusion and reality, and had a low level of anxiety. Tr. 25. Dr. Turk
could continue treating Mr. Skelton if he were off the
medication. Tr. 25-26. Mr. Skelton himself has not
asked to stop taking Seroquel or cease psychiatric
treatment. Tr. 53.
Asked whether a patient suffering from delusional
disorder would need lifetime treatment, Dr. Turk
stated that such a patient would have a fairly high
probability of requiring treatment over an extended
period. Tr. 34. In Mr. Skelton’s case, Dr. Turk would
think in terms of years of treatment, possibly five or
ten years. Tr. 55. It is hard to prognosticate because it
depends on what Mr. Skelton is able to resolve in the
future. Tr. 55-56. He needs to work on a past trauma
through psychotherapy. Tr. 58.
In Dr. Turk’s opinion, the misconduct at JMLS and
the emails sent to IBAB were caused by Mr. Skelton’s
delusional disorder. Tr. 26-27. Dr. Turk opined that

App. 16
psychiatric treatment works to prevent such misconduct by helping Mr. Skelton discern between delusion
and reality. Tr. 27. Dr. Turk further opined that with
continued treatment including Seroquel or other medication, Mr. Skelton would be able to practice law. Id.
Dr. Turk opined also that if Mr. Skelton remained in
treatment over the course of a Conditional Admission
period of two years he would remain appropriate to
practice law. Tr. 28.
Testimony of Leslie Wolowitz, Ph.D.
Dr. Wolowitz testified that she is a psychodynamic
psychotherapist in private practice who has been
treating teenagers and adults for over 30 years. Tr. 62.
While on faculty in a psychology graduate program,
she reviewed graduate students when there were questions regarding their competence or mental health. Tr.
62, 124-125. Dr. Wolowitz has treated patients with
schizophrenia, schizoaffective disorder and delusional
disorder. Tr. 63. She views diagnoses as complex but
did not disagree with Dr. Turk’s diagnosis of delusional
disorder. Tr. 67. She has been treating Mr. Skelton for
1 ½ years. Tr. 120.
Mr. Skelton first called Dr. Wolowitz in April 2018
after consulting his health insurance company’s provider list and she has seen him weekly since then. Tr.
63-64, 67, 87, 136. When he started seeing Dr. Wolowitz, Mr. Skelton had been seeing psychiatrist Dr. Yu
for three or four months. Tr. 72, 91, 136. Dr. Wolowitz
twice spoke with Dr. Yu and came to believe that

App. 17
treatment would be better coordinated with Dr. Turk,
who had more experience. Tr. 72, 92, 127-129. Dr. Yu
had not before treated anyone with delusional disorder. Tr. 72, 129-130. Dr. Yu is a biological psychologist,
meaning he was trained to view psychotic symptoms
as coming from a broken brain which can never be
cured and that the symptoms can only be suppressed
by medication. Tr. 130.
Mr. Skelton was on his current dosage of Seroquel
when he began treatment with Dr. Wolowitz. Tr. 70,
128, 136-137. He told her the medication was helpful.
Tr. 71. She questioned whether he would need antipsychotic medication over time because he has demonstrated insight and commitment to therapy. Id. She
also expressed concern about the medication’s possible
serious side effects such as blunted affect and tardive
dyskinesia. Tr. 71, 139-140.
When Dr. Wolowitz initially saw Mr. Skelton, he
seemed skittish, anxious, articulate, kind, bright and
authentic about seeking help. Tr. 64. He needed help
with a problem that led to misconduct in law school
and some issues before that. Id. Dr. Wolowitz concurred
with Dr. Turk’s testimony that Mr. Skelton needs to resolve his past which will help to cure him of the present
disorder. Tr. 138. She and Mr. Skelton are working on
that resolution in treatment. Id.
Mr. Skelton told Dr. Wolowitz that he had become
very depressed in college. Tr. 89-90, 118-119. He was
hospitalized for about a week. Tr. 119. Dr. Wolowitz was
not aware of the cause of the depression. Id. She

App. 18
thought he had taken an anti-depressant for awhile
and received counseling in college for about six
months. Tr. 119-120. Dr. Wolowitz understood that
Mr. Skelton had never received counseling for more
than 1 ½ years prior to treating with herself. Tr. 120.
She was unaware of any time other than during college
when he had suicidal ideation. Id
In law school, Mr. Skelton acted out inappropriately as a result of emotional reactivity with paranoid
ideation, depression and anxiety. Tr. 64-65. Paranoid
ideation is delusional thought that something is aimed
at you which in reality is not. Tr. 65. With respect to
those incidents in law school, Mr. Skelton told Dr.
Wolowitz that he might have been hearing voices and
was yelling in the library and another time near a security guard. Id. With respect to the emails to IBAB,
he voiced his suspicions of JMLS and feelings of being
misunderstood and persecuted. Tr. 66.
They have talked at length about the incidents at
JMLS, Mr. Skelton’s mental state at that time and
what was then happening in reality. Id. He was under
a lot of stress. Tr. 89. In the absence of treatment, the
stress led to growing mental health issues that culminated during law school where Mr. Skelton perceived
corruption and injustice. Tr. 90.
Shortly after their first meeting, Dr. Wolowitz
learned about the Inquiry Panel’s denial. Tr. 87. Mr.
Skelton was frustrated and hoped that he would be
able to prove that with therapy and medication he
would be able to practice law. Id. At that time he knew

App. 19
his conduct was inappropriate but was confused as to
why his conduct had been alarming to the Inquiry
Panel. Tr. 88.
Mr. Skelton has attended sessions with Dr. Wolowitz on a regular weekly basis. Tr. 67, 123-124. He is
an extremely cooperative, communicative patient. Tr.
67-68. They discuss his family relationships, work issues, past history, thoughts, feelings and conduct. Tr.
68, 80. Mr. Skelton has described stress at work caused
by onerous or boring assignments and she has encouraged him to communicate about that clearly. Tr. 81, 85.
Since being in treatment with Dr. Wolowitz, Mr.
Skelton has not acted out. Tr. 69, 79-80, 96. He is now
more comfortable in their sessions and seems less anxious and more self-aware. Tr. 69. He reality-checks
with her spontaneously. Tr. 69-70. Dr. Wolowitz makes
suggestions to help him gain self-awareness. Tr. 86.
Mr. Skelton reports positive work relationships
and occasionally feeling not part of the group. Tr. 82,
85-86. His work colleagues provide some degree of support. Tr. 82. Only his supervisor has some awareness of
Mr. Skelton’s mental and emotional issues. Id. Dr.
Wolowitz is unaware of any adversarial situation at
work where Mr. Skelton has been beset by delusional
thinking or acted out. Tr. 85.
Mr. Skelton has a long-standing group of friends
outside the workplace. Tr. 83. Dr. Wolowitz thought a
few of those friends were aware of his mental health
issues. Id.

App. 20
On approximately 10 occasions Dr. Wolowitz and
Mr. Skelton have discussed an instance involving delusional thoughts. Tr. 68, 92. These incidents did not give
rise to the type of conduct exhibited at JMLS. Tr. 6869. Except for two of the instances noted by Dr. Turk,
Dr. Wolowitz was aware of the instances to which Dr.
Turk testified. Tr. 120-122.
This summer, Mr. Skelton talked about a frightening incident on the “L.” Tr. 92-93. He was on the train
late at night and a man approached him asking for
money. Tr. 93. Mr. Skelton responded to the man appropriately. Tr. 94-95. Dr. Wolowitz and Mr. Skelton talked
about his sense of fright and powerlessness, and he
checked his responses against what Dr. Wolowitz
would have done. Tr. 93-95, 123. This incident was not
a delusion but there may have been some delusional
thinking during the incident that the conduct was
aimed at Mr. Skelton in particular. Tr. 122-123.
In one reported incident, Mr. Skelton felt he had
purposely been given an A-instead of an A in his graduate school program. Tr. 70, 95. He then realized the
grade had probably been given because he had not
completed a task. Tr. 70, 95.
If he has a disturbing thought, Mr. Skelton can
sometimes talk about how he understands the distortion in his own thinking. Tr. 74. The frequency of disturbing thoughts has decreased and can continue to
decrease with treatment. Tr. 74-75. He has never exhibited malicious behavior either physically or emotionally. Tr. 74-75.

App. 21
Dr. Wolowitz and Mr. Skelton discuss stress management every week, including the importance of
sleep, exercise, social support and reflective alternate
thinking. Tr. 75-76. Risk factors would be lack of sleep,
high-stress situations, disappointments and life crises.
Tr. 133, 142. They have discussed the stress caused by
this Hearing and uncertainty about his future career
direction. Tr. 79, 84. Dr. Wolowitz raised the issue that
the Hearing Panel might deny recommendation of admission. Tr. 130-131. A denial could cause Mr. Skelton
to feel some depression and anger, but he has the potential to respond maturely and not in a way harmful
to himself or others. Tr. 131.
Dr. Wolowitz and Mr. Skelton have also continued
to discuss anger management but most important is
the focus on distorted thinking. Tr. 134-135. Mr. Skelton is learning to identify the early signs of distorted
thinking. Tr. 142-143. A support group for professionals dealing with mental health issues could be beneficial. Tr. 135.
Mr. Skelton is interested in policy and immigration law. Tr. 124. Asked if she agreed with Dr. Turk that
it would not be best for Mr. Skelton to work in a highstress job, Dr. Wolowitz said yes and no. Tr. 126. Mr.
Skelton thrives on challenge and has a strong sense of
justice usually well-placed, but certain stressful situations would not be good for him. Tr. 126-127. He has a
growing capacity to modulate himself if he were practicing law and received an adverse ruling in a meritorious case. Tr. 133-134. He is able to handle the stress
in his current job, although in that job he is not an

App. 22
advocate. Tr. 134. Experience of stressful situations
and handling disappointment helps. Tr. 137-138.
Dr. Wolowitz opined that Mr. Skelton has the capacity to work out of his delusional disorder. Tr. 71-72,
96. This would mean that he would become more selfaware, develop social support and coping mechanisms
supporting his mental health, and trust in others such
that he would not act out. Tr. 96. There is a fair chance
that Mr. Skelton could many, which would be protective. Tr. 144-145.
The condition that led to his acting out in law
school is not gone but is mitigating. Tr. 135-136. Mr.
Skelton’s coping mechanisms and insight are increasing. Tr. 136. His past created a vulnerability and the
manifestation of the vulnerability can be controlled by
increasing insight. Tr. 138-139.
In the future, Mr. Skelton might be able to use a
different medication or do without medication entirely.
Tr. 138-139. Three to five years of additional therapy
will result in more progress in self-awareness with
some vulnerability to distorted thinking but little likelihood of backsliding to instances of misconduct such
as those under consideration here. Tr. 140-141.
Mr. Skelton feels fairly confidant that with enough
support, therapy and medication if needed, he would
be able to cope with the stresses associated with the
practice of law. Tr. 84. Dr. Wolowitz opined that with
continued treatment, his prognosis is good. Tr. 76. She
opined further that with continued treatment Mr.
Skelton would be competent to practice law although

App. 23
he might not want to be in an adversarial practice.
Tr. 76-77. Asked how long he would need treatment,
Dr. Wolowitz opined that it would take a range of about
five to ten years. Tr. 97, 141-42. Mr. Skelton would need
three to five years of therapy for robust adaptation and
up to five years thereafter to ensure that he remained
well-adapted. Tr. 142.
Testimony of Amber Ritter
Amber Ritter (“Ms. Ritter”) testified that she is an
attorney, licensed in Illinois for 20 years. Tr. 99-100.
She has been Chief Assistant Corporation Counsel at
the City of Chicago for 4 ‘A years and has worked for
the City for a total of sixteen years. Tr. 99.
Ms. Ritter is in charge of the City of Chicago law
department group which handles Freedom of Information Act (“FOIA”) requests and FOIA litigation for
the City. Id.
For about two years, Mr. Skelton has been a FOIA
officer for the City of Chicago’s law department. Tr.
100, 108, 111. Ms. Ritter is now and has been his direct
manager during that time. Tr. 100-101. A FOIA officer
receives requests for information from the public and
the media, and then compiles, redacts and produces
documents responsive to the requests within five to ten
business days. Tr. 100, 103, 114.
Initially Ms. Ritter interviewed Mr. Skelton. Tr.
109. She knew he had a law degree but did not ask if
he was licensed because licensing is not required for

App. 24
the job. Id. About a quarter of the 30 City of Chicago
FOIA officers are licensed but no FOIA officer is practicing law for the City. Id.
Mr. Skelton works from a cubicle directly outside
Ms. Ritter’s office. Tr. 101. He checks with her on a regular basis about the decisions he makes as a FOIA officer. Id. Ms. Ritter works with FOIA officers from
every City of Chicago department and Mr. Skelton is
one of the best. Id. He is very intelligent. Tr. 102.
In his job, Mr. Skelton interacts with law department and other personnel including attorneys, paralegals and the City’s prosecutor who is Ms. Ritter’s
supervisor. Tr. 111-112. In addition to obtaining responsive documents from attorneys across the departments, Mr. Skelton interacts with the staff attorneys
in Ms. Ritter’s FOIA group to draft FOIA response letters. Tr. 112-113.
Mr. Skelton understands the legal issues although
it is not necessary to be an attorney to be a FOIA officer. Tr. 102, 105. The job is very stressful but Mr. Skelton has no problem handling it. Tr. 102. The first source
of stress is the constant stream of FOIA requests which
must be handled in a short timeframe. Tr. 102, 114. The
second source of stress comes from the task of obtaining responsive documents from the 270 attorneys in
the City law department who are busy with their own
calendars. Tr. 103-104, 112. Also, FOIA requesters can
be very critical. Tr. 104. Working hours are from 9:00
to 5:00 and Mr. Skelton generally does not work beyond

App. 25
5:00 or 5:30. Tr. 116. The job requires organization and
Mr. Skelton keeps a spreadsheet of his requests. Id.
Mr. Skelton always acts appropriately both with
requesters and law department personnel. Tr. 104-105,
108. When he has a question, he calmly presents Ms.
Ritter with options which many other FOIA officers
are unable to do. Tr. 105. Members of the media can be
repeat requesters and Mr. Skelton interacts well and
has positive relationships with them. Tr. 106. Based on
good relationships, repeat requesters may grant him
extra time when they have requested voluminous material. Tr. 115. Mr. Skelton has never said he cannot
handle the workload. Id. On occasion, he has come forward to say he has extra time and would like to help
with legal research or redactions of records. Id. He has
successfully completed those projects. Tr. 115-116. If
called on to review Mr. Skelton, Ms. Ritter would give
him a very good review. Tr. 117.
About six months ago, Mr. Skelton came into Ms.
Ritter’s office and asked if she would be willing to be a
witness on his behalf in regard to his employment. Tr.
110. He eventually told her enough to make her comfortable doing that. Id. She was satisfied that he had
not committed a crime or victimized someone, which
was verified by counsel. Tr. 110-111. Ms. Ritter was
aware of his outbursts in law school and emails to
IBAB but was not aware at the time he asked her to be
a witness. Tr. 107, 111. She was advised of those matters by counsel. Tr. 111.

App. 26
A few times a year, Ms. Ritter’s division goes out
for dinner. Tr. 113. Other than that, she does not socialize with Mr. Skelton. Id. People in the office are all
friendly but Ms. Ritter is unaware whether he socializes with others from the office. Tr. 114.
Ms. Ritter would be comfortable with Mr. Skelton’s
admission to the Bar of Illinois. Tr. 106-108. She has
never seen him engage in misconduct. Tr. 104-105, 108.
She would recommend Mr. Skelton for a job in the
City’s litigation division. Tr. 116.
Testimony of Thomas J. Skelton
Mr. Skelton testified that he is 31 years old and
grew up in Oak Park, Illinois. Tr. 146. He went to St.
Louis University where he majored in history and philosophy, graduating in 2010. Id.
Prior to college, Mr. Skelton had never sought or
received mental health treatment. Tr. 194, 215. During
college, Mr. Skelton experienced depression and was
hospitalized in March 2009 for five days after expressing suicidal ideation to his roommate. Tr. 149, 193-194,
214. He went into the hospital voluntarily on the recommendation of his building manager and a college
social worker. Tr. 149, 194-195. The treatment he received helped at the time but the feelings of depression
did not end after the hospitalization. Tr. 150, 194. Until
graduating, Mr. Skelton continued to meet with a social worker weekly and took anti-psychotic and antidepressant medications prescribed by a doctor. Tr. 150,

App. 27
194, 215. He did not recall the names of the medications. Tr. 150.
Mr. Skelton graduated college in May 2010. Tr.
146, 215. For six months following college, he worked
in construction. Tr. 147, 196. In October 2010, Mr. Skelton joined AmeriCorps VISTA where he worked in a
Champaign legal aid office for about a year and a half.
Tr. 147-148, 196, 215. His experience at the legal aid
office led him to want a law degree which he could use
to help people. Tr. 147. Mr. Skelton could not recall if
he had counseling in the interval May 2010 to October
2010. Tr. 197, 215-216. He recalled still having issues
of depression at that time. Tr. 197.
Prior to law school, Mr. Skelton returned to Oak
Park. Tr. 151. He began seeing Dr. Sarpy, a psychiatrist
at a clinic there. Tr. 150-151, 216. Mr. Skelton applied
to six law schools and chose JMLS because he was offered financial assistance and also wanted to remain
in the Chicago area near his family. Tr. 147-148.
On entering law school in the fall of 2014, Mr.
Skelton found it stressful. Tr. 148, 216. Early in his tenure at JMLS, Mr. Skelton began experiencing faulty
perceptions that he was being persecuted, was disliked
and that information he had disclosed was getting out
to others. Tr. 148-149, 197. The feelings of persecution
seemed then to be a new experience not connected to
his earlier depression. Tr. 198. Looking back on those
feelings now, Mr. Skelton would acknowledge that they
were a product of mental illness and a misperception
on his part. Tr. 151-152, 154.

App. 28
Mr. Skelton had friends at JMLS. Tr. 198. He did
not feel comfortable talking to them about these matters as he and fellow students were all seeking to join
the legal profession. Id.
When feelings of agitation beset him, Mr. Skelton
would generally leave the law school building and go
to the Harold Washington Library. Tr. 157, 201-202. On
a few occasions, his feelings of persecution were propelling him toward vocalization and he was able to control himself by leaving the building, but on other
occasions he could not do so. Tr. 202-203. Mr. Skelton’s
outbursts at JMLS were not spontaneous but would
happen after building up. Tr. 206. There may have been
incidents of uncontrolled behavior arising from misperceptions outside of the law school but they would
not have been as intense as the incidents at JMLS. Tr.
203.
In 2015 during his second semester, Mr. Skelton
was in the library at JMLS. Tr. 152-153, 198-199. He
was having trouble studying and was hearing things.
Tr. 152. He lost control of himself and began yelling to
himself in the study room. Tr. 152-153, 199-200. During this incident, Mr. Skelton experienced adrenaline
and tunnel vision. Tr. 199. This was the first time this
had ever happened to him. Id. He did not know if he
could have controlled himself, although in the moment
he knew his conduct was uncontrolled. Tr. 200-201.
That is why he left the premises without argument. Tr.
201.

App. 29
Mr. Skelton had no idea who was around him at
that time and had no intention of yelling at anyone in
particular or disrupting the school environment. Tr.
152-153. He regretted having caused a disturbance or
offense. Tr. 153. He also regretted not seeking counseling at JMLS immediately after that incident. Tr. 153,
219. At the time, he knew it was not his normal behavior. Tr. 220.
In 2016, Mr. Skelton was feeling very overwhelmed and agitated following a class. Tr. 157-158,
203-204. He experienced adrenaline and tunnel vision.
Tr. 157, 206. He determined to leave the building. Tr.
203-204. On his way out of the law school, Mr. Skelton
made inappropriate comments to an administrator. Tr.
157-158, 205-206. This was a mistake that Mr. Skelton
regrets. Tr. 158.
In the spring semester of 2016, Mr. Skelton began
weekly counseling at JMLS with Alexandra Cara and
went for six to eight sessions. Tr. 153-154, 218-219,
221-222. On returning in fall 2016, he continued
weekly counseling with Collin Shotts (“Mr. Shotts”). Tr.
154, 222. It was helpful to discuss the stresses of law
school. Tr. 154.
Throughout law school, Mr. Skelton was seeing
Dr. Sarpy but was not receiving psychotherapy. Tr. 217.
Although not seeing Dr. Sarpy regularly and once during the course of treatment not seeing her for a period
of six months, he took the medication Wellbutrin prescribed by her throughout law school. Tr. 150-151, 154155, 180, 217-219. He did not speak with Dr. Sarpy

App. 30
about the outburst at JMLS in 2015. Tr. 219. He continued treatment from time to time with Dr. Sarpy until November 2017. Tr. 217, 221, 223.
During law school, Mr. Skelton had various jobs.
Tr. 177. He externed for Judge Jeffrey Cole. Id. He interned at the Environmental Law and Policy Center.
Id. He interned at the Chicago Transit Authority
(“CTA”). Tr. 177-178. The experiences were positive and
he was told his work was good. Tr. 178. Mr. Skelton had
a 711 license and did legal research for the CTA appellate department. Tr. 179. Under supervision, he wrote
and argued a summary judgment motion for the CTA.
Tr. 179-180.
After applying for admission to the Bar of Illinois,
Mr. Skelton received an inquiry from IBAB pertaining
to alcohol violations while he was in college. Tr. 156. He
then disclosed those violations to JMLS, explaining
that he had forgotten about them on application to law
school. Id. The law school accepted the explanation
with no further action. Id. In connection with those college violations, Mr. Skelton recalled taking a class and
possibly a fine or community service, but no criminal
charges. Tr. 156-157.
At JMLS, Mr. Skelton saw a posting for the job of
FOIA officer at the City of Chicago. Tr. 181. He applied
and went through two rounds of interviews. Id. Mr.
Skelton was hired by the City of Chicago in September
2017. Id.
Mr. Skelton received an inquiry from IBAB regarding the incidents at JMLS. Tr. 158. In the fall of

App. 31
2017, he met with Ms. Mulaney. Tr. 158, 223. Her summary of their meeting is accurate. Tr. 158. Mr. Skelton’s
paranoia grew over time but he already felt then that
denial of certification was inevitable. Tr. 160.
Ms. Mulaney requested that he obtain a letter
from Mr. Shotts with an assurance that Mr. Skelton’s
condition had mitigated. Tr. 159. Mr. Shotts had been
a graduate student at the time of the counseling and
was unable to provide a letter. Id. Julia Burrell-Smith
of Sankofa Psychological Services provided a letter to
Ms. Mulaney confirming Mr. Skelton’s counseling at
JMLS but not opining with respect to his condition. Tr.
160-161.
In 2017, Mr. Skelton began to email Ms. Mulaney
and IBAB. Tr. 162. While he was a law student, someone had drawn Nazi graffiti at JMLS and Mr. Skelton
had been questioned at the end of April by security
about whether he had done it. Tr. 163, 165-166. He told
them he had not and nothing further happened in that
regard. Tr. 166. He initially emailed Ms. Mulaney because of concern that the law school had accused him
of drawing the graffiti. Tr. 162.
Mr. Skelton’s email communications during the
period November 2017 to March 2018 became colored
by the misperceptions that had been building during
law school. Tr. 162, 227. He felt persecuted and he also
felt that the law school did not want him to become a
lawyer. Tr. 162. Those emails were inappropriate, grandiose and deranged. Tr. 163, 227. They were sent at
different times of day and night, on weekdays and

App. 32
weekends, and sometimes while he was at work. Tr.
227.
Acknowledging that his emails were not spontaneous outbursts and some had the shape of argument,
Mr. Skelton explained he was not trying to argue a position. Tr. 206-208, 213-214. Over time he had come to
believe that he had nothing to lose because of the overwhelming force against him, so he should at least express himself genuinely. Tr. 163, 208-209. Mr. Skelton
acknowledged that he was unhinged during that period of time and the communications were not based in
reality. Tr. 163, 166. At the time, he was too consumed
in his own delusions to consider how the emails would
impact the recipients. Tr. 208, 228. During most of the
period that he was writing the emails, he was no longer
being treated by Dr. Sarpy. Tr. 223-224. He took responsibility for his misperceptions and failure to take his
delusional thoughts seriously. Tr. 224. Mr. Skelton
acknowledged that he failed to consider the consequences of the emails during a five-month period. Tr.
228.
The Inquiry Panel requested an evaluation, and
the Illinois Lawyers’ Assistance Program (“LAP”) referred Mr. Skelton to Dr. Ryba. Tr. 168. Dr. Ryba evaluated Mr. Skelton in December 2017 but did not have
availability for treatment. Tr. 168-169.
Through a series of referrals, Mr. Skelton began
treatment with Dr. Yu. Tr. 169. Their first meeting was
a few days before the Inquiry. Id. At the first meeting
Dr. Yu prescribed Seroquel which Mr. Skelton began

App. 33
taking and has since taken regularly. Tr. 169-170. Dr.
Yu provided psychiatry, not psychotherapy. Tr. 170. Dr.
Yu has said he would take Mr. Skelton back as a patient if the need arose. Tr. 170-173, 189.
Once he met with the Inquiry Panel, Mr. Skelton
realized that they were not trying to persecute him. Tr.
164. He had reread the emails recently and expressed
his embarrassment and remorse. Tr. 164. Mr. Skelton
understood the Inquiry Panel’s decision. Tr. 166-167.
He knew that his emails must have been frightening
and offensive to the recipients. Tr. 167, 191. He would
not write such emails today. Tr. 166. He apologized to
both the Inquiry Panel and JMLS for his misconduct.
Tr. 191-192. With treatment he would have handled
those situations differently. Tr. 192. Today he is able to
control his fears or delusions. Id.
Mr. Skelton searched for a psychotherapist in his
insurance company’s database and found Dr. Wolowitz.
Tr. 170. He began psychotherapy with her. Id. Dr.
Wolowitz is very supportive; Mr. Skelton can confide in
her and she is a resource for him. Tr. 174. He does not
think about suicide. Tr. 209. His focus in therapy is on
delusional thinking which can be triggered when he
experiences stress. Tr. 209-210. Mr. Skelton finds that
with medication, having a negative commentary running through his mind has become the exception, not
the standard. Tr. 210. He can control the exceptions. Id.
Dr. Wolowitz had professional connections with
Dr. Turk and she referred Mr. Skelton to Dr. Turk for
evaluation, while Dr. Yu continued as the prescribing

App. 34
psychiatrist. Tr. 171-172. As a psychiatrist, Dr. Yu
worked on a biological model which seemed limiting
to Mr. Skelton. Tr. 171. Mr. Skelton came to value Dr.
Turk’s expertise and also saw him monthly. Tr. 171172. Dr. Turk understands Mr. Skelton’s perspective.
Tr. 173.
Mr. Skelton described the incident in which he unjustly received an A- on a paper in his graduate school
program, but he believed he deserved an A. Tr. 177. He
raised this incident with Dr. Wolowitz to test his thinking. Tr. 176-177. He was able to laugh about it and realize that A- is a good grade. Tr. 177.
Mr. Skelton described the incident involving the
man on the “L” who followed him into another car.
Tr. 174-175. Mr. Skelton could see a knife in his
pocket. Tr. 175. This was in reality a frightening incident. Id. Afterwards, for a few hours Mr. Skelton dealt
with a feeling of being targeted because he had projected vulnerability. Tr. 175-176, 209. Dr. Wolowitz
helped him work through his feelings about the incident. Tr. 176.
Mr. Skelton was asked what would be different today after 14 months of treatment with Drs. Yu, Turk
and Wolowitz. Tr. 224-225. One difference is that now
he is on a relatively strong dosage of anti-psychotic
medication which controls agitation. Tr. 225-226. Mr.
Skelton has accepted that he has a psychotic disorder.
Tr. 226. His depression while in college may have been
the result of the underlying disorder. Id. He has
learned to monitor his thinking for delusions. Id. He

App. 35
did not know how to do that during law school. Tr. 226227. Unlike the five-month period when he was sending numerous disturbing emails without considering
the consequences, today he knows those consequences.
Tr. 228. He understood that if he were representing a
client and emotionally committed to the matter, losing
control would not help the client or himself. Tr. 229230.
In his job at the City of Chicago, Mr. Skelton has
done legal research and document production outside
the FOIA group. Tr. 182-183. He enjoys the job as FOIA
officer and likes the challenge of the other assignments. Tr. 183. As a FOIA officer, he has a good relationship with the press. Id. He can handle the stresses
of the job which can be substantial. Tr. 183-184. Mr.
Skelton likes his colleagues. Tr. 184. If a stressful situation is developing, he discusses it with Ms. Ritter or
other attorneys in the group. Tr. 184-185. He has never
lashed out at anyone at work. Tr. 185.
Mr. Skelton has applied for a position as asylum
officer with the U.S. Citizenship and Immigration Service. Tr. 185-186. This job does not require a law license. Tr. 185. He has a job offer pending security
clearance review. Tr. 185-186. He would be making asylum decisions in tandem with senior staff Tr. 186-187.
It is a high-volume job with a large backlog. Tr. 187.
The position would be in Chicago and Mr. Skelton
would continue treating with his current doctors. Id.
His current employer has been involved in the interview process for the asylum position and has also said

App. 36
he can remain in his job at the City as long as he
wishes. Tr. 231-232.
Mr. Skelton intends to continue treatment for as
long as his doctors recommend. Tr. 188-189. He does
not consider remaining in treatment a negative. Tr.
188. He will also continue taking medication as recommended. Id. He is tolerating it well after an elevated
cholesterol. Tr. 210. He is eating well, exercising and
sleeping Well. Tr. 210-211.
Today the people in Mr. Skelton’s life are his parents, friends, colleagues and doctors. Tr. 211. He would
feel comfortable seeking support from some of his
friends whom he has known since middle school. Tr.
211-212. His friends do not know about his difficulty
becoming licensed but none of them think he is licensed. Tr. 212, 231. They are all successful and he does
not like appearing as the underachiever of the group.
Tr. 212. Full disclosure of his diagnosis would not be
smart professionally. Tr. 231. Mr. Skelton’s parents are
fully aware of the Character and Fitness process and
of this Hearing today. Tr. 212-213. They have been supportive throughout. Tr. 213. Looking back, Mr. Skelton
has realized that isolation had a negative impact and
he would talk to his parents or Dr. Wolowitz if he needs
help. Tr. 213. Dr. Wolowitz in particular is a life resource. Tr. 189. Mr. Skelton acknowledged that only his
parents and doctors know everything. Tr. 231.
Asked why he wants to be a lawyer given the
stresses of the profession, Mr. Skelton felt he could
handle the stress. Tr. 234. He is able to manage his

App. 37
condition. Id. He can help people and make a difference
as a government or public interest lawyer. Id.
Mr. Skelton would cooperate with Conditional Admission if that were recommended. Tr. 189-190. If the
Hearing Panel declined to recommend him for certification, Mr. Skelton would be disappointed. Tr. 190. In
that event, he would focus on his University of Illinois
graduate school program in public administration
while continuing to work for the City of Chicago. Tr.
190-191. He would consider reapplying for admission
in two years. Tr. 190-191. Over the past year, Mr. Skelton has felt very healthy and is committed to maintaining that level of well-being. Tr. 192.
Other Evidence Received at Hearing
At Hearing, the Applicant’s Exhibits curriculum
vitae of Dr. Turk and Dr. Wolowitz were offered and admitted into evidence. Tr. 13. Post-Hearing, the Applicant provided Affidavits of Dr. Turk and Dr. Wolowitz,
also admitted into evidence.
QUESTION PRESENTED TO THE COMMITTEE
Has Thomas Joseph Skelton met his burden of
demonstrating by clear and convincing evidence that
he embodies the requisite character and fitness to be
admitted to the Illinois Bar?

App. 38
STANDARDS TO BE APPLIED
As an applicant for admission to the Illinois Bar,
Mr. Skelton has the burden to prove by clear and convincing evidence that he has the requisite character
and fitness for admission to the practice of law. The
Illinois Board of Admissions to the Bar and the Committees on Character and Fitness of the Supreme
Court of Illinois Rules of Procedure (the “Committee
Rules”) Rule 6.1; In re Glenville, 139 Ill. 2d 242, 252,
565 N.E.2d 623, 627 (1990); In re Childress, 138 Ill. 2d
87, 100, 561 N.E.2d 614, 619-20 (1990); In re Loss, 119
Ill. 2d 186, 195-96, 518 N.E.2d 981, 985 (1987).
The essential eligibility requirements for the practice of law include: (1) the ability to learn, to recall
what has been learned, to reason, and to analyze; (2)
the ability to communicate clearly and logically with
clients, attorneys, courts, and others; (3) the ability to
exercise good judgment in conducting one’s professional business; (4) the ability to conduct oneself with
a high degree of honesty, integrity, and trustworthiness
in all professional relationships and with respect to
all legal obligations; (5) the ability to conduct oneself
with respect for and in accordance with the law and
the Illinois Rules of Professional Conduct; (6) the ability to avoid acts that exhibit disregard for the health,
safety, and welfare of others; (7) the ability to conduct
oneself diligently and reliably in fulfilling all obligations to clients, attorneys, courts, creditors, and others;
(8) the ability to use honesty and good judgment in financial dealings on behalf of oneself, clients, and others; (9) the ability to comply with deadlines and time

App. 39
constraints; and (10) the ability to conduct oneself
properly and in a manner that engenders respect for
the law and the profession. Supreme Court of Illinois
Rules on Admission and Discipline of Attorneys, Rule
708(c); Committee Rule 6.3.
Essential eligibility requirements (3), (4), (6) and
(10) above are at issue with respect to Mr. Skelton’s application to the Bar.
In assigning weight and significance to the Applicant’s prior misconduct, the Committee considers: (a)
age at the time of the conduct; (b) recency of the conduct; (c) reliability of the information concerning the
conduct; (d) seriousness of the conduct; (e) factors underlying the conduct; (f ) cumulative effect of the conduct; (g) ability and willingness to accept responsibility
for the conduct; (h) candor in the admissions process;
(i) materiality of any omissions or misrepresentations;
(j) evidence of rehabilitation; and (k) positive social
contribution since the conduct. Committee Rule 6.5.
The Hearing Panel weighed the foregoing mitigating or aggravating factors, noting that factors (b), (d),
(e), (g) and (j) above are of particular relevance here.
DECISION OF THE HEARING PANEL
Upon consideration of all the testimony, and based
upon the entire record, the Hearing Panel finds by vote
of 3 to 2 that Thomas Joseph Skelton failed to demonstrate by clear and convincing evidence that he satisfies all of the eligibility requirements and presently

App. 40
possesses the character and fitness to be admitted to
the practice of law in Illinois. The Hearing Panel carefully reviewed the record including documentation
from JMLS, email communications from Mr. Skelton
to IBAB staff and Ms. Mulaney, the testimony of Mr.
Skelton’s supervisor and two doctors, and the lengthy
testimony of Mr. Skelton himself. Having failed to
demonstrate his present fitness for admission, Mr.
Skelton is not a candidate for Conditional Admission
under Committee Rule 7.
On application to IBAB and to JMLS, Mr. Skelton’s
failure to disclose two undergraduate alcohol violations bore on his ability to conduct himself with honesty. Then while a student at JMLS, on four occasions
Mr. Skelton was observed by students or security personnel creating a disturbance and on one of those occasions cursing at a school administrator. These
incidents cast doubt on Mr. Skelton’s abilities to conduct himself properly and with good judgment, and additionally with respect to the outbursts, on his ability
to avoid acts exhibiting disregard for the welfare of
others.
At the direction of IBAB, Mr. Skelton petitioned
JMLS to amend his application with respect to the
omitted undergraduate violations, and the law school
accepted the amendment without further action. After
Mr. Skelton’s fourth outburst, the law school sent him
a letter of admonition, instituting no discipline and
taking no further action. The Hearing Panel is satisfied
that these matters even cumulatively are not so serious as to preclude a recommendation of admission.

App. 41
It is the Applicant’s recent conduct during and in
connection with the Character and Fitness process on
which this Hearing Panel must focus. During a fivemonth period approximately mid-October 2017
through mid-March 2018, Mr. Skelton wrote and sent
numerous emails variously to IBAB’s Deputy Director,
Counsel and Director as well as to Committee Member
Mulaney. These multiple acts occurred during daytime
and evening hours, on weekdays and weekends, and
some were written and sent while Mr. Skelton was at
his job as FOIA officer for the law department of the
City of Chicago.
Mr. Skelton’s emails frequently took the form of
argument and used charged and ugly language, examples of which are set forth above. Mr. Skelton assaulted
the integrity of JMLS, IBAB, the Committee on Character and Fitness and the legal system by alleging organized corruption within the Bar and an Inquiry
which would fail to apply the law and instead deny him
based on dislike. He referred to JMLS using terms
such as Nazis and Stasi, and accused IBAB and the
Committee of trying to “GitMo” him. The misconduct
was comprised of multiple individual acts transacted
at various times over a term of months and occurring
one and a half to two years after his outbursts at JMLS
when the stress of law school had presumably eased.
At any point during that five-month period Mr. Skelton
could have reconsidered this conduct and changed
course, but he failed to do so. On denial by the Inquiry
Panel, Mr. Skelton acknowledged his inappropriate

App. 42
conduct, but still could not understand why that conduct was alarming to the Inquiry Panel.
The misconduct contravened Mr. Skelton’s abilities to exercise good judgment, to avoid acts exhibiting
disregard for the welfare of others, and to conduct himself properly and in a manner engendering respect
for the legal profession. As an applicant for admission
to the Bar of Illinois, Mr. Skelton bears the burden to
demonstrate by clear and convincing evidence his rehabilitation from the singular lack of good judgment
evidenced by his communications with IBAB staff and
the Committee on Character and Fitness.
Witness Amber Ritter testified that Mr. Skelton is
an excellent FOIA officer who has been under her direct supervision for two years. Until just before Hearing, however, she was unaware of the incidents at
JMLS and Mr. Skelton’s emails. While Ms. Ritter testified that she had never seen Mr. Skelton engage in misconduct, he had actually written and sent some of
those emails while on the job. Thus, while positively
describing Mr. Skelton’s work as a FOIA officer, Ms.
Ritter’s testimony could not clearly and convincingly
corroborate his abilities either to take responsibility
for his misconduct or to use good judgment in a professional setting.
Mr. Skelton presented witness evidence to the
Hearing Panel from two doctors currently treating him
who linked his misconduct to a medical condition. Pursuant to Committee Rule 6.5(e), the Hearing Panel
considered the doctors’ testimony as it pertained here

App. 43
to underlying factors. While both doctors attested to
Mr. Skelton’s progress, each noted recent instances of
delusional thought during non-stressful circumstances
and both recommended long-term treatment. Dr. Wolowitz testified that certain stressful situations would
not be good for him but noted that experiences would
help Mr. Skelton continue to improve his ability to respond to stress appropriately and testified that a support group could be beneficial. Both doctors provided
affidavits opining as to Mr. Skelton’s appropriate mental competency and capacity to practice law; neither
doctor, however, provided clear and convincing evidence of the present character and fitness requisite for
admission.
To be clear, the Hearing Panel would not and is
not here denying Mr. Skelton’s application for admission on the basis of status, diagnosis or treatment. Mr.
Skelton is not approved for admission at this time due
to his recent misconduct during the Character and
Fitness process with an insufficient passage of time
clearly and convincingly corroborative of his acceptance of responsibility and demonstrative of rehabilitation from that misconduct. The Hearing Panel
encourages Mr. Skelton to continue treatment for his
well-being as recommended by his doctors and being in
treatment in and of itself could not constitute a bar to
admission in the future.
Mr. Skelton testified that, other than his doctors,
only his parents are fully aware of his situation. Neither parent testified in person, by telephone or affidavit which might have provided corroboration of family

App. 44
support. In fact, evidence failed to demonstrate a robust support network in addition to therapists, such as
friends, colleagues, or a group such as might be found
at LAP. The Hearing Panel understands that Mr.
Skelton does not wish to publicize his situation, and
while his doctors opined that disclosure of his situation
in social settings would not be beneficial they also
noted the importance of social relationships. Mr.
Skelton’s apparent social isolation, unrebutted by corroborating evidence of strong social relationships with
family, friends or colleagues, remains a serious concern.
The Hearing Panel notes that Mr. Skelton credibly
demonstrated progress in taking responsibility for his
actions. The Hearing Panel trusts that going forward
Mr. Skelton will conduct himself as set forth in the essential eligibility requirements noted above and
demonstrate rehabilitation from misconduct.

DISSENT
Mr. Skelton provided evidence convincing to the
Dissent of the requisite character and fitness for admission to the Bar of Illinois.
Extremely candid in his testimony to the Hearing
Panel, Mr. Skelton credibly demonstrated to the Dissent full acceptance of responsibility and sincere remorse for disturbing or offending the recipients of his
email correspondence.

App. 45
Mr. Skelton’s supervisor, Amber Ritter, is the Chief
Assistant Corporation Counsel for the City of Chicago.
Ms. Ritter testified that if Mr. Skelton were certified to
practice law in Illinois and sought a position as a litigator with the City, she “certainly would” recommend
him. She testified that Mr. Skelton conducts himself
properly and in fact exemplarily in employment as the
FOIA officer for the City of Chicago law department.
Ms. Ritter described the job as a stressful position both
because of the unending flow of FOIA requests with a
short turn-around period and also because of the next
frequently difficult step of obtaining responsive material from City attorneys engaged on other matters. Her
evidence was persuasive to the Dissent that Mr. Skelton has conducted himself properly and respectfully of
others in the context of his two-year employment and
that he would be able to do so in a stressful environment as a practicing attorney.
The evidence reflected the accuracy of Dr. Ryba’s
prognosis that “proper medicinal and psychotherapeutic intervention” would bring a major change in Mr.
Skelton’s functioning. By September 2018, Mr. Skelton
had secured the services of a qualified and compassionate psychotherapist, and his medication had been increased significantly from 25 miligrams daily to the
current dosage of 500 miligrams. With the psychotherapy provided by Dr. Wolowitz and the increased medication, Mr. Skelton’s delusional incidents declined
dramatically and, in the opinion of the Dissent, to a
level that does not adversely affect his ability to practice law, provided he continue to receive counseling

App. 46
and medication. Evidence reflected Mr. Skelton’s conscientious and regular participation in on-going treatment and compliance as to prescribed medication. To
the Dissent, both doctors provided credible evidence
that Mr. Skelton has gained insight and the ability to
discern between delusion and reality and to respond to
stressful situations appropriately.
Proper conduct following his denial by the Inquiry
Panel demonstrated Mr. Skelton’s rehabilitation from
misconduct during the Character and Fitness process.
The Dissent was further persuaded by Mr. Skelton’s
credible testimony that he has accepted his disorder,
has learned to monitor his thinking and considers the
consequences of his conduct.
For these reasons, the Dissent posits that Mr.
Skelton demonstrated the essential eligibility requirements necessary for admission to the Bar of Illinois.
Noting the applicability to Mr. Skelton’s circumstances
of Committee Rule 7.3, Limited Circumstances under
which Conditional Admission may be Considered, the
Dissent would have recommended Mr. Skelton’s Conditional Admission to the Bar of Illinois. Further, the
Dissent would have recommended to the Supreme
Court of Illinois that the conditions of admission be extended beyond the regular two-year period, in keeping
with the medical evidence presented.

App. 47
CONCLUSION
The Hearing Panel has carefully considered the
entire record. For the reasons stated above, the Hearing Panel finds by vote of 3 to 2 that Thomas Joseph
Skelton has not met his burden of proof by clear and
convincing evidence demonstrating that he presently
possesses the requisite character and fitness to practice law in the State of Illinois.
Dated: October 9

, 2019

/s/ Vickie Voukidis
Vickie Voukidis
Senior Member of the Majority

App. 48
[SEAL]
SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721
Filed January 07, 2020
CAROLYN TAFT GROSBOLL FIRST DISTRICT
Clerk of the Court
OFFFICE
160 North LaSalle
Street, 20th Floor
Chicago, IL 60601-3103
(217) 782 2035
(312) 793-1332
TDD: (217) 524-8132
TDD: (312) 793-6185
James A Doppke
321 S. Plymouth Drive, 14th Floor
Chicago, IL 60604
In re:

In re: Thomas J. Skelton,
M.R.030118

Today the following order was entered in the captioned
case:
Petition by petitioner, Thomas J. Skelton, pursuant to Supreme Court Rule 708(h). Denied.
Order entered by the Court.
Burke, C.J., took no part.

App. 49
Very truly yours,
/s/ Carolyn Taft Grosboll
Clerk of the Supreme Court
CC:

Illinois Board of Admissions to the Bar

App. 50
AMERICANS WITH DISABILITIES ACT OF 1990,
AS AMENDED
Following is the current text of the Americans with
Disabilities Act of 1990 (ADA), including changes
made by the ADA Amendments Act of 2008 (P.L. 110325), which became effective on January 1, 2009. The
ADA was originally enacted in public law format and
later rearranged and published in the United States
Code. The United States Code is divided into titles and
chapters that classify laws according to their subject
matter. Titles I, II, Ill, and V of the original law are codified in Title 42, chapter 126, of the United States Code
beginning at section 12101. Title IV of the original law
is codified in Title 47, chapter 5, of the United States
Code. Since this codification resulted in changes in
the numbering system, the Table of Contents provides
the section numbers of the ADA as originally enacted
in brackets after the codified section numbers and
headings.
Page
TITLE 42 – THE PUBLIC HEALTH AND WELFARE
CHAPTER 126 – EQUAL OPPORTUNITY FOR
INDIVIDUALS WITH DISABILITIES ....................4
Sec. 12101.

Findings and purpose. [Section 2]

(a)

Findings.

(b)

Purpose.

Sec. 12101 note: Findings and Purposes of the ADA
Amendments Act of 2008

App. 51
Sec. 12102.

Definition of disability. [Section 3]

Sec. 12103.

Additional definitions.

SUBCHAPTER I – EMPLOYMENT [Title I] ..............8
Sec. 12111.

Definitions. [Section 101]

Sec. 12112.

Discrimination. [Section 102]

(a)

General rule.

(b)

Construction.

(c)

Covered entities in foreign countries.

(d)

Medical examinations and inquiries.

Sec. 12113.

Defenses. [Section 103]

(a)

In general.

(b)

Qualification standards.

(c) Qualification standards and tests related
to uncorrected vision.
(d)

Religious entities.

(e) List of infectious and communicable diseases.
Sec. 12114.
tion 104]

Illegal use of drugs and alcohol. [Sec-

(a)

Qualified individual with a disability.

(b)

Rules of construction.

(c)

Authority of covered entity.

(d)

Drug testing.

(e)

Transportation employees.

Sec. 12115.

Posting notices. [Section 105]

Sec. 12116.

Regulations. [Section 106]

App. 52
Sec. 12117.

Enforcement. [Section 107]

(a)

Powers, remedies, and procedures.

(b)

Coordination.

SUBCHAPTER II – PUBLIC SERVICES [Title
II] .............................................................................16
PART A – Prohibition Against Discrimination and
Other Generally Applicable Provisions [Subtitle A]
Sec. 12131.

Definitions. [Section 201]

Sec. 12132.

Discrimination. [Section 202]

Sec. 12133.

Enforcement. [Section 203]

Sec. 12134.

Regulations. [Section 204]

(a)

In general.

(b)

Relationship to other regulations.

(c)

Standards.

PART B – Actions Applicable to Public Transportation Provided by Public Entities Considered Discriminatory [Subtitle B]
SUBPART I – Public Transportation Other Than by
Aircraft or Certain Rail Operations [Part I]
Sec. 12141.

Definitions. [Section 221]

Sec. 12142. Public entities operating fixed route
systems. [Section 222]
(a)

Purchase and lease of new vehicles.

(b)

Purchase and lease of used vehicles.

(c)

Remanufactured vehicles.

App. 53
Sec. 12143. Paratransit as a complement to fixed
route service. [Section 223]
(a)

General rule.

(b)

Issuance of regulations.

(c)

Required contents of regulations.

(d)

Review of plan.

(e)

“Discrimination” defined.

(f )

Statutory construction.

Sec. 12144. Public entity operating a demand responsive system. [Section 224]
Sec. 12145. Temporary relief where lifts are unavailable. [Section 225]
(a)

Granting.

(b)

Duration and notice to Congress.

(c)

Fraudulent application.

Sec. 12146.

New facilities. [Section 226]

Sec. 12147. Alterations of existing facilities. [Section 227]
(a)

General rule.

(b)

Special rule for stations.

Sec. 12148. Public transportation programs and
activities in existing facilities and one car per
train rule. [Section 228]
(a) Public transportation programs and activities in existing facilities.
(b)

One car per train rule.

App. 54
Sec. 12149.

Regulations. [Section 229]

(a)

In general.

(b)

Standards.

Sec. 12150. Interim accessibility requirements.
[Section 230]
SUBPART II – Public Transportation by Intercity and
Commuter Rail [Part II]
Sec. 12161.

Definitions. [Section 241]

Sec. 12162. Intercity and commuter rail actions
considered discriminatory. [Section 242]
(a)

Intercity rail transportation.

(b)

Commuter rail transportation.

(c)

Used rail cars.

(d)

Remanufactured rail cars.

(e)

Stations.

Sec. 12163. Conformance of accessibility standards. [Section 243]
Sec. 12164.

Regulations. [Section 244]

Sec. 12165. Interim accessibility requirements.
[Section 245]
(a)

Stations.

(b)

Rail passenger cars.

App. 55
SUBCHAPTER III – PUBLIC ACCOMMODATIONS AND SERVICES OPERATED BY
PRIVATE ENTITIES [Title III]..............................30
Sec. 12181.

Definitions. [Section 301]

Sec. 12182. Prohibition of discrimination by public accommodations. [Section 302]
(a)

General rule.

(b)

Construction.

Sec. 12183. New construction and alterations in
public accommodations and commercial facilities.
[Section 303]
(a)

Application of term.

(b)

Elevator.

Sec. 12184. Prohibition of discrimination in specified public transportation services provided by
private entities. [Section 304]
(a)

General rule.

(b)

Construction.

(c)

Historical or antiquated cars.

Sec. 12185.

Study. [Section 305]

(a)

Purposes.

(b)

Contents.

(c)

Advisory committee.

(d)

Deadline.

(e)

Review.

Sec. 12186.
(a)

Regulations. [Section 306]

Transportation provisions.

App. 56
(b)

Other provisions.

(c)

Consistency with ATBCB guidelines.

(d)

Interim accessibility standards.

Sec. 12187. Exemptions for private clubs and religious organizations. [Section 307]
Sec. 12188.

Enforcement. [Section 308]

(a)

In general.

(b)

Enforcement by Attorney General.

Sec. 12189.
309]

Examinations and courses. [Section

SUBCHAPTER IV MISCELLANEOUS PROVISIONS [Title V] .......................................................41
Sec. 12201.

Construction. [Section 501]

(a)

In general.

(b)

Relationship to other laws.

(c)

Insurance.

(d)

Accommodations and services.

(e) Benefits under State worker’s compensation laws.
(f )

Fundamental alteration.

(g)

Claims of no disability.

(h) Reasonable accommodation and modifications.
Sec. 12202.

State immunity. [Section 502]

Sec. 12203. Prohibition against retaliation and
coercion. [Section 503]
(a)

Retaliation.

App. 57
(b)

Interference, coercion, or intimidation.

(c)

Remedies and procedures.

Sec. 12204. Regulations by the Architectural and
Transportation Barriers Compliance Board. [Section 504]
(a)

Issuance of guidelines.

(b)

Contents of guidelines.

(c)

Qualified historic properties.

Sec. 12205.

Attorney’s fees. [Section 505]

Sec. 12205a. Rule of construction regarding regulatory authority.
Sec. 12206.

Technical assistance. [Section 506]

(a)

Plan for assistance.

(b)

Agency and public assistance.

(c)

Implementation.

(d)

Grants and contracts.

(e)

Failure to receive assistance.

Sec. 12207.
507]

Federal wilderness areas. [Section

(a)

Study.

(b)

Submission of report.

(c) Specific wilderness access. Sec. 12208.
Transvestites. [Section 508]
Sec. 12209.
tion 509]

Instrumentalities of Congress. [Sec-

App. 58
Sec. 12210.

Illegal use of drugs. [Section 510]

(a)

In general.

(b)

Rules of construction.

(c)

Health and other services.

(d)

“Illegal use of drugs” defined.

Sec. 12211.

Definitions. [Section 511]

(a)

Homosexuality and bisexuality.

(b)

Certain conditions.

Sec. 12212. Alternative means of dispute resolution. [Section 512]
Sec. 12213.

Severability. [Section 513]

TITLE 47 – TELEGRAPHS, TELEPHONES, AND RADIOTELEGRAPHS
CHAPTER 5 – WIRE OR RADIO COMMUNICATION
SUBCHAPTER ll – COMMON CARRIERS ..............47
Part I – Common Carrier Regulation
Sec. 225. Telecommunications services for hearingimpaired and speech-impaired individuals. [Section 401]
(a)

Definitions.

(b) Availability of telecommunications relay
services.
(c)

Provision of services.

(d)

Regulations.

(e)

Enforcement.

App. 59
(f )

Certification.

(g)

Complaint.

TITLE 47 – TELEGRAPHS, TELEPHONES, AND RADIOTELEGRAPHS
CHAPTER 5 – WIRE OR RADIO COMMUNICATION
SUBCHAPTER VI – MISCELLANEOUS PROVISIONS..................................................................50
Sec. 611. Closed-captioning of public service announcements. [Section 402]
TITLE 42 – THE PUBLIC HEALTH AND WELFARE
CHAPTER 126 – EQUAL OPPORTUNITY FOR INDIVIDUALS WITH DISABILITIES
Sec. 12101.
(a)

Findings and purpose

Findings.

The Congress finds that

(1) physical or mental disabilities in
no way diminish a person’s right to fully
participate in all aspects of society, yet
many people with physical or mental disabilities have been precluded from doing
so because of discrimination; others who
have a record of a disability or are regarded as having a disability also have
been subjected to discrimination;
(2) historically, society has tended to isolate
and segregate individuals with disabilities,
and, despite some improvements, such forms
of discrimination against individuals with

App. 60
disabilities continue to be a serious and
pervasive social problem;
(3) discrimination against individuals
with disabilities persists in such critical
areas as employment, housing, public accommodations, education, transportation,
communication, recreation, institutionalization, health services, voting, and access to public services;
(4) unlike individuals who have experienced discrimination on the basis of race,
color, sex, national origin, religion, or age,
individuals who have experienced discrimination on the basis of disability have
often had no legal recourse to redress
such discrimination;
(5) individuals with disabilities continually encounter various forms of discrimination, including outright intentional
exclusion, the discriminatory effects of
architectural, transportation, and communication barriers, overprotective rules
and policies, failure to make modifications to existing facilities and practices,
exclusionary qualification standards and
criteria, segregation, and relegation to
lesser services, programs, activities, benefits, jobs, or other opportunities;
(6) census data, national polls, and other
studies have documented that people
with disabilities, as a group, occupy an
inferior status in our society, and are

App. 61
severely disadvantaged socially, vocationally, economically, and educationally;
(7) the Nation’s proper goals regarding
individuals with disabilities are to assure
equality of opportunity, full participation,
independent living, and economic selfsufficiency for such individuals; and
(8) the continuing existence of unfair
and unnecessary discrimination and prejudice denies people with disabilities the
opportunity to compete on an equal basis
and to pursue those opportunities for which
our free society is justifiably famous, and
costs the United States billions of dollars
in unnecessary expenses resulting from
dependency and nonproductivity.
(b) Purpose.
ter

It is the purpose of this chap-

(1) to provide a clear and comprehensive national mandate for the elimination
of discrimination against individuals
with disabilities;
(2) to provide clear, strong, consistent,
enforceable standards addressing discrimination against individuals with disabilities;
(3) to ensure that the Federal Government plays a central role in enforcing the
standards established in this chapter on
behalf of individuals with disabilities; and

App. 62
(4) to invoke the sweep of congressional
authority, including the power to enforce
the fourteenth amendment and to regulate commerce, in order to address the
major areas of discrimination faced dayto-day by people with disabilities.
Sec. 12101 note: Findings and Purposes of ADA
Amendments Act of 2008, Pub. L. 110-325, {S}2,
Sept. 25, 2008, 122 Stat. 3553, provided that:
(a)

Findings.

Congress finds that

(1) in enacting the Americans with Disabilities Act of 1990 (ADA), Congress intended that the Act “provide a clear and
comprehensive national mandate for the
elimination of discrimination against individuals with disabilities” and provide
broad coverage;
(2) in enacting the ADA, Congress recognized that physical and mental disabilities in no way diminish a person’s right
to fully participate in all aspects of society, but that people with physical or mental disabilities are frequently precluded
from doing so because of prejudice, antiquated attitudes, or the failure to remove
societal and institutional barriers;
(3) while Congress expected that the definition of disability under the ADA would
be interpreted consistently with how courts
had applied the definition of a handicapped
individual under the Rehabilitation Act

App. 63
of 1973, that expectation has not been fulfilled;
(4) the holdings of the Supreme Court in
Sutton v. United Air Lines, Inc., 527 U.S.
471 (1999) and its companion cases have
narrowed the broad scope of protection
intended to be afforded by the ADA, thus
eliminating protection for many individuals whom Congress intended to protect;
(5) the holding of the Supreme Court in
Toyota Motor Manufacturing, Kentucky,
Inc. v. Williams, 534 U.S. 184 (2002) further narrowed the broad scope of protection intended to be afforded by the ADA;
(6) as a result of these Supreme Court
cases, lower courts have incorrectly found
in individual cases that people with a
range of substantially limiting impairments are not people with disabilities;
(7) in particular, the Supreme Court, in
the case of Toyota Motor Manufacturing,
Kentucky, Inc. v. Williams, 534 U.S. 184
(2002), interpreted the term “substantially limits” to require a greater degree
of limitation than was intended by Congress; and
(8) Congress finds that the current Equal
Employment Opportunity Commission
ADA regulations defining the term “substantially limits” as “significantly restricted”
are inconsistent with congressional intent, by expressing too high a standard.

App. 64
(b)

Purposes.

The purposes of this Act are

(1) to carry out the ADA’s objectives of
providing “a clear and comprehensive
national mandate for the elimination of
discrimination” and “clear, strong, consistent, enforceable standards addressing
discrimination” by reinstating a broad
scope of protection to be available under
the ADA;
(2) to reject the requirement enunciated
by the Supreme Court in Sutton v. United
Air Lines, Inc., 527 U.S. 471 (1999) and its
companion cases that whether an impairment substantially limits a major life activity is to be determined with reference
to the ameliorative effects of mitigating
measures;
(3) to reject the Supreme Court’s reasoning in Sutton v. United Air Lines, Inc.,
527 U.S. 471 (1999) with regard to coverage under the third prong of the definition of disability and to reinstate the
reasoning of the Supreme Court in School
Board of Nassau County v. Arline, 480
U.S. 273 (1987) which set forth a broad
view of the third prong of the definition of
handicap under the Rehabilitation Act of
1973;
(4) to reject the standards enunciated
by the Supreme Court in Toyota Motor
Manufacturing, Kentucky, Inc. v. Williams,
534 U.S. 184 (2002), that the terms “substantially” and “major” in the definition of

App. 65
disability under the ADA “need to be interpreted strictly to create a demanding
standard for qualifying as disabled,” and
that to be substantially limited in performing a major life activity under the
ADA “an individual must have an impairment that prevents or severely restricts
the individual from doing activities that
are of central importance to most people’s
daily lives”;
(5) to convey congressional intent that
the standard created by the Supreme
Court in the case of Toyota Motor Manufacturing, Kentucky, Inc. v. Williams, 534
U.S. 184 (2002) for “substantially limits”,
and applied by lower courts in numerous
decisions, has created an inappropriately
high level of limitation necessary to obtain coverage under the ADA, to convey
that it is the intent of Congress that
the primary object of attention in cases
brought under the ADA should be whether
entities covered under the ADA have
complied with their obligations, and to
convey that the question of whether an
individual’s impairment is a disability under the ADA should not demand extensive analysis; and
(6) to express Congress’ expectation
that the Equal Employment Opportunity
Commission will revise that portion of its
current regulations that defines the term
“substantially limits” as “significantly
restricted” to be consistent with this Act,

App. 66
including the amendments made by this
Act.
Sec. 12102.

Definition of disability

As used in this chapter:
(1) Disability. The term “disability”
means, with respect to an individual
(A) a physical or mental impairment that substantially limits one or
more major life activities of such individual;
(B)
or

a record of such an impairment;

(C) being regarded as having such
an impairment (as described in paragraph (3)).
(2)

Major Life Activities
(A) In general. For purposes of
paragraph (1), major life activities include, but are not limited to, caring
for oneself, performing manual tasks,
seeing, hearing, eating, sleeping,
walking, standing, lifting, bending,
speaking, breathing, learning, reading, concentrating, thinking, communicating, and working.
(B) Major bodily functions. For
purposes of paragraph (1), a major
life activity also includes the operation of a major bodily function, including but not limited to, functions

App. 67
of the immune system, normal cell
growth, digestive, bowel, bladder,
neurological, brain, respiratory, circulatory, endocrine, and reproductive
functions.
(3) Regarded as having such an impairment. For purposes of paragraph (1)(C):
(A) An individual meets the requirement of “being regarded as having
such an impairment” if the individual establishes that he or she has
been subjected to an action prohibited under this chapter because of an
actual or perceived physical or mental impairment whether or not the
impairment limits or is perceived to
limit a major life activity.
(B) Paragraph (1)(C) shall not apply
to impairments that are transitory
and minor. A transitory impairment
is an impairment with an actual or
expected duration of 6 months or
less.
(4) Rules of construction regarding the
definition of disability. The definition of
“disability” in paragraph (1) shall be construed in accordance with the following:
(A) The definition of disability in
this chapter shall be construed in favor of broad coverage of individuals
under this chapter, to the maximum

App. 68
extent permitted by the terms of this
chapter.
(B) The term “substantially limits”
shall be interpreted consistently with
the findings and purposes of the ADA
Amendments Act of 2008.
(C) An impairment that substantially limits one major life activity
need not limit other major life activities in order to be considered a disability.
(D) An impairment that is episodic
or in remission is a disability if it
would substantially limit a major life
activity when active.
(E)

(i) The determination of whether
an impairment substantially
limits a major life activity shall
be made without regard to the
ameliorative effects of mitigating measures such as
(I) medication, medical supplies, equipment, or appliances,
low-vision devices (which do
not include ordinary eyeglasses
or contact lenses), prosthetics
including limbs and devices,
hearing aids and cochlear
implants or other implantable hearing devices, mobility
devices, or oxygen therapy
equipment and supplies;

App. 69
(II) use of assistive technology;
(III) reasonable accommodations or auxiliary aids or
services; or
(IV) learned behavioral or
adaptive neurological modifications.
(ii) The ameliorative effects of
the mitigating measures of ordinary eyeglasses or contact lenses
shall be considered in determining whether an impairment
substantially limits a major life
activity.
(iii) As used in this subparagraph
(I) the term “ordinary eyeglasses or contact lenses”
means lenses that are intended to fully correct visual
acuity or eliminate refractive error; and
(II) the term “low-vision devices” means devices that
magnify, enhance, or otherwise augment a visual image.

App. 70
Sec. 12103. Additional definitions.
this chapter

As used in

(1) Auxiliary aids and services. The term
“auxiliary aids and services” includes
(A) qualified interpreters or other effective methods of making aurally delivered
materials available to individuals with
hearing impairments;
(B) qualified readers, taped texts, or
other effective methods of making visually delivered materials available to individuals with visual impairments;
(C) acquisition or modification of equipment or devices; and
(D)

other similar services and actions.

(2) State. The term “State” means each of
the several States, the District of Columbia,
the Commonwealth of Puerto Rico, Guam,
American Samoa, the Virgin Islands of the
United States, the Trust Territory of the Pacific Islands, and the Commonwealth of the
Northern Mariana Islands.
SUBCHAPTER I – EMPLOYMENT Sec. 12111.
initions

Def-

As used in this subchapter:
(1) Commission. The term “Commission”
means the Equal Employment Opportunity
Commission established by section 2000e-4 of
this title.

App. 71
(2) Covered entity. The term “covered entity” means an employer, employment agency,
labor organization, or joint labor-management
committee.
(3) Direct threat. The term “direct threat”
means a significant risk to the health or
safety of others that cannot be eliminated by
reasonable accommodation.
(4) Employee. The term “employee” means
an individual employed by an employer. With
respect to employment in a foreign country,
such term includes an individual who is a citizen of the United States.
(5)

Employer
(A) In general. The term “employer”
means a person engaged in an industry
affecting commerce who has 15 or more
employees for each working day in each of
20 or more calendar weeks in the current
or preceding calendar year, and any agent
of such person, except that, for two years
following the effective date of this subchapter, an employer means a person engaged in an industry affecting commerce
who has 25 or more employees for each
working day in each of 20 or more calendar weeks in the current or preceding
year, and any agent of such person.
(B) Exceptions.
does not include

The term “employer”

(i) the United States, a corporation
wholly owned by the government of

App. 72
the United States, or an Indian tribe;
or
(ii) a bona fide private membership
club (other than a labor organization)
that is exempt from taxation under
section 501(c) of title 26.
(6)

Illegal use of drugs
(A) In general. The term “illegal use of
drugs” means the use of drugs, the possession or distribution of which is unlawful under the Controlled Substances Act
[21 U.S.C. 801 et seq.]. Such term does not
include the use of a drug taken under supervision by a licensed health care professional, or other uses authorized by the
Controlled Substances Act or other provisions of Federal law.
(B) Drugs. The term “drug” means a
controlled substance, as defined in schedules I through V of section 202 of the Controlled Substances Act [21 U.S.C. 812].

(7) Person, etc. The terms “person”, “labor
organization”, “employment agency”, “commerce”, and “industry affecting commerce”,
shall have the same meaning given such
terms in section 2000e of this title.
(8) Qualified individual. The term “qualified individual” means an individual who,
with or without reasonable accommodation,
can perform the essential functions of the
employment position that such individual
holds or desires. For the purposes of this

App. 73
subchapter, consideration shall be given to the
employers judgment as to what functions of a
job are essential, and if an employer has prepared a written description before advertising
or interviewing applicants for the job, this description shall be considered evidence of the
essential functions of the job.
(9) Reasonable accommodation. The term
“reasonable accommodation” may include
(A) making existing facilities used by employees readily accessible to and usable
by individuals with disabilities; and
(B) job restructuring, part-time or modified work schedules, reassignment to a
vacant position, acquisition or modification of equipment or devices, appropriate
adjustment or modifications of examinations, training materials or policies, the
provision of qualified readers or interpreters, and other similar accommodations for individuals with disabilities.
(10)

Undue hardship
(A) In general. The term “undue hardship” means an action requiring significant difficulty or expense, when considered
in light of the factors set forth in subparagraph (B).
(B) Factors to be considered. In determining whether an accommodation would
impose an undue hardship on a covered
entity, factors to be considered include

App. 74
(i) the nature and cost of the accommodation needed under this chapter;
(ii) the overall financial resources
of the facility or facilities involved in
the provision of the reasonable accommodation; the number of persons
employed at such facility; the effect
on expenses and resources, or the
impact otherwise of such accommodation upon the operation of the facility;
(iii) the overall financial resources
of the covered entity; the overall size
of the business of a covered entity
with respect to the number of its employees; the number, type, and location of its facilities; and
(iv) the type of operation or operations of the covered entity, including
the composition, structure, and functions of the workforce of such entity;
the geographic separateness, administrative, or fiscal relationship of the
facility or facilities in question to the
covered entity.
Sec. 12112.

Discrimination

(a) General rule. No covered entity shall
discriminate against a qualified individual on
the basis of disability in regard to job application procedures, the hiring, advancement, or
discharge of employees, employee compensation,

App. 75
job training, and other terms, conditions, and
privileges of employment.
(b) Construction. As used in subsection (a)
of this section, the term “discriminate against
a qualified individual on the basis of disability” includes
(1) limiting, segregating, or classifying a
job applicant or employee in a way that
adversely affects the opportunities or status of such applicant or employee because
of the disability of such applicant or employee;
(2) participating in a contractual or
other arrangement or relationship that
has the effect of subjecting a covered entity’s qualified applicant or employee
with a disability to the discrimination
prohibited by this subchapter (such relationship includes a relationship with an
employment or referral agency, labor union, an organization providing fringe benefits to an employee of the covered entity,
or an organization providing training and
apprenticeship programs);
(3) utilizing standards, criteria, or methods of administration
(A) that have the effect of discrimination on the basis of disability;
(B) that perpetuates the discrimination of others who are subject to
common administrative control;

App. 76
(4) excluding or otherwise denying
equal jobs or benefits to a qualified individual because of the known disability of
an individual with whom the qualified individual is known to have a relationship
or association;
(5) (A) not making reasonable accommodations to the known physical or
mental limitations of an otherwise
qualified individual with a disability
who is an applicant or employee, unless such covered entity can demonstrate that the accommodation would
impose an undue hardship on the operation of the business of such covered entity; or
(B) denying employment opportunities to a job applicant or employee
who is an otherwise qualified individual with a disability, if such denial
is based on the need of such covered
entity to make reasonable accommodation to the physical or mental
impairments of the employee or applicant;
(6) using qualification standards, employment tests or other selection criteria
that screen out or tend to screen out an
individual with a disability or a class of
individuals with disabilities unless the
standard, test or other selection criteria,
as used by the covered entity, is shown to
be job-related for the position in question

App. 77
and is consistent with business necessity;
and
(7) failing to select and administer tests
concerning employment in the most effective manner to ensure that, when such
test is administered to a job applicant or
employee who has a disability that impairs sensory, manual, or speaking skills,
such test results accurately reflect the
skills, aptitude, or whatever other factor
of such applicant or employee that such
test purports to measure, rather than reflecting the impaired sensory, manual, or
speaking skills of such employee or applicant (except where such skills are the factors that the test purports to measure).
(c)

Covered entities in foreign countries
(1) In general. It shall not be unlawful
under this section for a covered entity to
take any action that constitute discrimination under this section with respect to
an employee in a workplace in a foreign
country if compliance with this section
would cause such covered entity to violate
the law of the foreign country in which
such workplace is located.
(2)

Control of corporation
(A) Presumption. If an employer
controls a corporation whose place of
incorporation is a foreign country,
any practice that constitutes discrimination under this section and is

App. 78
engaged in by such corporation shall
be presumed to be engaged in by such
employer.
(B) Exception. This section shall
not apply with respect to the foreign
operations of an employer that is a
foreign person not controlled by an
American employer.
(C) Determination. For purposes of
this paragraph, the determination of
whether an employer controls a corporation shall be based on
(i) the interrelation of operations;
(ii)

the common management;

(iii) the centralized control of
labor relations; and
(iv) the common ownership or
financial control of the employer
and the corporation.
(d)

Medical examinations and inquiries
(1) In general. The prohibition against
discrimination as referred to in subsection (a) of this section shall include medical examinations and inquiries.
(2)

Preemployment
(A) Prohibited examination or inquiry. Except as provided in paragraph (3), a covered entity shall not

App. 79
conduct a medical examination or
make inquiries of a job applicant as
to whether such applicant is an individual with a disability or as to the
nature or severity of such disability.
(B) Acceptable inquiry. A covered
entity may make preemployment inquiries into the ability of an applicant to perform job-related functions.
(3) Employment entrance examination. A covered entity may require a medical examination after an offer of employment has been made to a job
applicant and prior to the commencement of the
employment duties of such applicant, and may
condition an offer of employment on the results of
such examination, if
(A) all entering employees are subjected to
such an examination regardless of disability;
(B) information obtained regarding the medical condition or history of the applicant is collected and maintained on separate forms and
in separate medical files and is treated as a
confidential medical record, except that
(i) supervisors and managers may be informed regarding necessary restrictions
on the work or duties of the employee and
necessary accommodations;
(ii) first aid and safety personnel may
be informed, when appropriate, if the disability might require emergency treatment; and

App. 80
(iii) government officials investigating
compliance with this chapter shall be provided relevant information on request;
and
(C) the results of such examination are used
only in accordance with this subchapter.
(4)

Examination and inquiry
(A) Prohibited examinations and inquiries.
A covered entity shall not require a medical
examination and shall not make inquiries of
an employee as to whether such employee is
an individual with a disability or as to the nature or severity of the disability, unless such
examination or inquiry is shown to be job-related and consistent with business necessity.
(B) Acceptable examinations and inquiries.
A covered entity may conduct voluntary medical examinations, including voluntary medical histories, which are part of an employee
health program available to employees at that
work site. A covered entity may make inquiries into the ability of an employee to perform job-related functions.
(C) Requirement. Information obtained under subparagraph (B) regarding the medical
condition or history of any employee are subject to the requirements of subparagraphs (B)
and (C) of paragraph (3).

Sec. 12113.

Defenses

(a) In general. It may be a defense to a
charge of discrimination under this chapter

App. 81
that an alleged application of qualification
standards, tests, or selection criteria that
screen out or tend to screen out or otherwise
deny a job or benefit to an individual with a
disability has been shown to be job-related
and consistent with business necessity, and
such performance cannot be accomplished by
reasonable accommodation, as required under
this subchapter.
(b) Qualification standards. The term “qualification standards” may include a requirement that an individual shall not pose a direct
threat to the health or safety of other individuals in the workplace.
(c) Qualification standards and tests related
to uncorrected vision. Notwithstanding section 12102(4)(E)(ii), a covered entity shall
not use qualification standards, employment
tests, or other selection criteria based on an
individual’s uncorrected vision unless the
standard, test, or other selection criteria, as
used by the covered entity, is shown to be jobrelated for the position in question and consistent with business necessity.
(d)

Religious entities
(1) In general. This subchapter shall
not prohibit a religious corporation, association, educational institution, or society
from giving preference in employment
to individuals of a particular religion to
perform work connected with the carrying on by such corporation, association,

App. 82
educational institution, or society of its
activities.
(2) Religious tenets requirement. Under this subchapter, a religious organization may require that all applicants and
employees conform to the religious tenets
of such organization.
(e) List of infectious and communicable diseases
(1) In general. The Secretary of Health
and Human Services, not later than 6
months after July 26, 1990, shall
(A) review all infectious and communicable diseases which may be
transmitted through handling the
food supply;
(B) publish a list of infectious and
communicable diseases which are
transmitted through handling the
food supply;
(C) publish the methods by which
such diseases are transmitted; and
(D) widely disseminate such information regarding the list of diseases
and their modes of transmissibility
to the general public.
Such list shall be updated annually.
(2) Applications. In any case in which
an individual has an infectious or communicable disease that is transmitted to

App. 83
others through the handling of food, that
is included on the list developed by the
Secretary of Health and Human Services
under paragraph (1), and which cannot be
eliminated by reasonable accommodation, a covered entity may refuse to assign
or continue to assign such individual to a
job involving food handling.
(3) Construction. Nothing in this chapter shall be construed to preempt, modify,
or amend any State, county, or local law,
ordinance, or regulation applicable to food
handling which is designed to protect the
public health from individuals who pose
a significant risk to the health or safety
of others, which cannot be eliminated by
reasonable accommodation, pursuant to
the list of infectious or communicable diseases and the modes of transmissibility
published by the Secretary of Health and
Human Services.
Sec. 12114.

Illegal use of drugs and alcohol

(a) Qualified individual with a disability.
For purposes of this subchapter, a qualified individual with a disability shall not include
any employee or applicant who is currently
engaging in the illegal use of drugs, when the
covered entity acts on the basis of such use.
(b) Rules of construction. Nothing in subsection (a) of this section shall be construed to
exclude as a qualified individual with a disability an individual who

App. 84
(1) has successfully completed a supervised drug rehabilitation program and is
no longer engaging in the illegal use of
drugs, or has otherwise been rehabilitated successfully and is no longer engaging in such use;
(2) is participating in a supervised rehabilitation program and is no longer engaging in such use; or
(3) is erroneously regarded as engaging
in such use, but is not engaging in such
use;
except that it shall not be a violation of
this chapter for a covered entity to adopt
or administer reasonable policies or procedures, including but not limited to drug
testing, designed to ensure that an individual described in paragraph (1) or (2) is
no longer engaging in the illegal use of
drugs.
(c) Authority of covered entity.
entity

A covered

(1) may prohibit the illegal use of drugs
and the use of alcohol at the workplace by
all employees;
(2) may require that employees shall
not be under the influence of alcohol or be
engaging in the illegal use of drugs at the
workplace;
(3) may require that employees behave
in conformance with the requirements

App. 85
established under the Drug-Free Workplace Act of 1988 (41 U.S.C. 701 et seq.);
(4) may hold an employee who engages
in the illegal use of drugs or who is an alcoholic to the same qualification standards for employment or job performance
and behavior that such entity holds other
employees, even if any unsatisfactory performance or behavior is related to the
drug use or alcoholism of such employee;
and
(5) may, with respect to Federal regulations regarding alcohol and the illegal use
of drugs, require that
(A) employees comply with the standards established in such regulations
of the Department of Defense, if the
employees of the covered entity are
employed in an industry subject to
such regulations, including complying with regulations (if any) that
apply to employment in sensitive positions in such an industry, in the
case of employees of the covered entity who are employed in such positions (as defined in the regulations of
the Department of Defense);
(B) employees comply with the standards established in such regulations
of the Nuclear Regulatory Commission, if the employees of the covered
entity are employed in an industry
subject to such regulations, including

App. 86
complying with regulations (if any)
that apply to employment in sensitive positions in such an industry, in
the case of employees of the covered
entity who are employed in such positions (as defined in the regulations
of the Nuclear Regulatory Commission); and
(C) employees comply with the standards established in such regulations
of the Department of Transportation,
if the employees of the covered entity
are employed in a transportation industry subject to such regulations,
including complying with such regulations (if any) that apply to employment in sensitive positions in such
an industry, in the case of employees
of the covered entity who are employed in such positions (as defined
in the regulations of the Department
of Transportation).
(d)

Drug testing
(1) In general. For purposes of this
subchapter, a test to determine the illegal
use of drugs shall not be considered a
medical examination.
(2) Construction. Nothing in this subchapter shall be construed to encourage,
prohibit, or authorize the conducting of
drug testing for the illegal use of drugs by
job applicants or employees or making

App. 87
employment decisions based on such test
results.
(e) Transportation employees. Nothing in
this subchapter shall be construed to encourage, prohibit, restrict, or authorize the otherwise lawful exercise by entities subject to the
jurisdiction of the Department of Transportation of authority to
(1) test employees of such entities in,
and applicants for, positions involving
safety-sensitive duties for the illegal use
of drugs and for on-duty impairment by
alcohol; and
(2) remove such persons who test positive for illegal use of drugs and on-duty
impairment by alcohol pursuant to paragraph (1) from safety-sensitive duties in
implementing subsection (c) of this section.
Sec. 12115.

Posting notices

Every employer, employment agency, labor organization, or joint labor-management committee covered under this subchapter shall post notices in an
accessible format to applicants, employees, and
members describing the applicable provisions of
this chapter, in the manner prescribed by section
2000e-10 of this title.
Sec. 12116.

Regulations

Not later than 1 year after July 26, 1990, the Commission shall issue regulations in an accessible

App. 88
format to carry out this subchapter in accordance
with subchapter II of chapter 5 of title 5.
Sec. 12117.

Enforcement

(a) Powers, remedies, and procedures. The
powers, remedies, and procedures set forth in
sections 2000e-4, 2000e-5, 2000e-6, 2000e-8,
and 2000e-9 of this title shall be the powers,
remedies, and procedures this subchapter
provides to the Commission, to the Attorney
General, or to any person alleging discrimination on the basis of disability in violation of
any provision of this chapter, or regulations
promulgated under section 12116 of this title,
concerning employment.
(b) Coordination. The agencies with enforcement authority for actions which allege
employment discrimination under this subchapter and under the Rehabilitation Act of
1973 [29 U.S.C. 701 et seq.] shall develop procedures to ensure that administrative complaints filed under this subchapter and under
the Rehabilitation Act of 1973 are dealt with
in a manner that avoids duplication of effort
and prevents imposition of inconsistent or
conflicting standards for the same requirements under this subchapter and the Rehabilitation Act of 1973. The Commission, the
Attorney General, and the Office of Federal
Contract Compliance Programs shall establish such coordinating mechanisms (similar to
provisions contained in the joint regulations
promulgated by the Commission and the Attorney General at part 42 of title 28 and part

App. 89
1691 of title 29, Code of Federal Regulations,
and the Memorandum of Understanding between the Commission and the Office of Federal Contract Compliance Programs dated
January 16, 1981 (46 Fed. Reg. 7435, January
23, 1981)) in regulations implementing this
subchapter and Rehabilitation Act of 1973 not
later than 18 months after July 26, 1990.
SUBCHAPTER II – PUBLIC SERVICES
Part A – Prohibition Against Discrimination and
Other Generally Applicable Provisions
Sec. 12131.

Definitions

As used in this subchapter:
(1) Public entity. The term “public entity”
means
(A)

any State or local government;

(B) any department, agency, special purpose district, or other instrumentality of
a State or States or local government; and
(C) the National Railroad Passenger
Corporation, and any commuter authority (as defined in section 24102(4) of title
49).
(2) Qualified individual with a disability.
The term “qualified individual with a disability” means an individual who, with or without
reasonable modifications to rules, policies, or
practices, the removal of architectural, communication, or transportation barriers, or the
provision of auxiliary aids and services, meets

App. 90
the essential eligibility requirements for the
receipt of services or the participation in programs or activities provided by a public entity.
Sec. 12132.

Discrimination

Subject to the provisions of this subchapter, no
qualified individual with a disability shall, by reason of such disability, be excluded from participation in or be denied the benefits of services,
programs, or activities of a public entity, or be subjected to discrimination by any such entity.
Sec. 12133.

Enforcement

The remedies, procedures, and rights set forth in
section 794a of title 29 shall be the remedies, procedures, and rights this subchapter provides to
any person alleging discrimination on the basis of
disability in violation of section 12132 of this title.
Sec. 12134.

Regulations

(a) In general. Not later than 1 year after
July 26, 1990, the Attorney General shall
promulgate regulations in an accessible format that implement this part. Such regulations shall not include any matter within the
scope of the authority of the Secretary of
Transportation under section 12143, 12149,
or 12164 of this title.
(b) Relationship to other regulations. Except for “program accessibility, existing facilities”, and “communications”, regulations under
subsection (a) of this section shall be consistent with this chapter and with the coordination regulations under part 41 of title 28,

App. 91
Code of Federal Regulations (as promulgated
by the Department of Health, Education, and
Welfare on January 13, 1978), applicable to
recipients of Federal financial assistance under section 794 of title 29. With respect to
“program accessibility, existing facilities”, and
“communications”, such regulations shall be
consistent with regulations and analysis as in
part 39 of title 28 of the Code of Federal Regulations, applicable to federally conducted activities under section 794 of title 29.
(c) Standards. Regulations under subsection
(a) of this section shall include standards applicable to facilities and vehicles covered by this part,
other than facilities, stations, rail passenger cars,
and vehicles covered by part B of this subchapter.
Such standards shall be consistent with the minimum guidelines and requirements issued by the
Architectural and Transportation Barriers Compliance Board in accordance with section 12204(a)
of this title.
Part B – Actions Applicable to Public Transportation
Provided by Public Entities Considered Discriminatory
Subpart I – Public Transportation Other than by Aircraft or Certain Rail Operations
Sec. 12141.

Definitions

As used in this subpart:
(1) Demand responsive system. The
term “demand responsive system” means
any system of providing designated public

App. 92
transportation which is not a fixed route
system.
(2) Designated public transportation.
The term “designated public transportation” means transportation (other than
public school transportation) by bus, rail,
or any other conveyance (other than
transportation by aircraft or intercity or
commuter rail transportation (as defined
in section 12161 of this title)) that provides the general public with general or
special service (including charter service)
on a regular and continuing basis.
(3) Fixed route system. The term “fixed
route system” means a system of providing designated public transportation on
which a vehicle is operated along a prescribed route according to a fixed schedule.
(4) Operates. The term “operates”, as
used with respect to a fixed route system
or demand responsive system, includes
operation of such system by a person under a contractual or other arrangement or
relationship with a public entity.
(5) Public school transportation. The
term “public school transportation” means
transportation by school bus vehicles of
schoolchildren, personnel, and equipment
to and from a public elementary or secondary school and school-related activities.

App. 93
(6) Secretary. The term “Secretary”
means the Secretary of Transportation.
Sec. 12142.
systems

Public entities operating fixed route

(a) Purchase and lease of new vehicles. It
shall be considered discrimination for purposes of section which operates a fixed route
system to purchase or lease a new bus, a new
rapid rail vehicle, a new light rail vehicle, or
any other new vehicle to be used on such system, if the solicitation for such purchase or
lease is made after the 30th day following July
26, 1990, and if such bus, rail vehicle, or other
vehicle is not readily accessible to and usable
by individuals with disabilities, including individuals who use wheelchairs.
(b) Purchase and lease of used vehicles. Subject to subsection (c)(1) of this section, it shall
be considered discrimination for purposes of
section 12132 of this title and section 794 of
title 29 for a public entity which operates a
fixed route system to purchase or lease, after
the 30th day following July 26, 1990, a used
vehicle for use on such system unless such entity makes demonstrated good faith efforts to
purchase or lease a used vehicle for use on
such system that is readily accessible to and
usable by individuals with disabilities, including individuals who use wheelchairs.
(c)

Remanufactured vehicles
(1) General rule. Except as provided
in paragraph (2), it shall be considered

App. 94
discrimination for purposes of section
12132 of this title and section 794 of title
29 for a public entity which operates a
fixed route system
(A) to remanufacture a vehicle for
use on such system so as to extend its
usable life for 5 years or more, which
remanufacture begins (or for which
the solicitation is made) after the
30th day following July 26, 1990; or
(B) to purchase or lease for use on
such system a remanufactured vehicle which has been remanufactured
so as to extend its usable life for 5
years or more, which purchase or
lease occurs after such 30th day and
during the period in which the usable
life is extended; unless, after remanufacture, the vehicle is, to the maximum
extent feasible, readily accessible to
and usable by individuals with disabilities, including individuals who
use wheelchairs.
(2)

Exception for historic vehicles
(A) General rule. If a public entity
operates a fixed route system any
segment of which is included on the
National Register of Historic Places
and if making a vehicle of historic
character to be used solely on such
segment readily accessible to and usable by individuals with disabilities
would significantly alter the historic

App. 95
character of such vehicle, the public
entity only has to make (or to purchase or lease a remanufactured vehicle with)those modifications which
are necessary to meet the requirements of paragraph (1) and which do
not significantly alter the historic
character of such vehicle.
(B) Vehicles of historic character
defined by regulations. For purposes
of this paragraph and section 12148(a)
of this title, a vehicle of historic character shall be defined by the regulations issued by the Secretary to carry
out this subsection.
Sec. 12143. Paratransit as a complement to fixed
route service
(a) General rule. It shall be considered discrimination for purposes of section 12132 of
this title and section 794 of title 29 for a public
entity which operates a fixed route system
(other than a system which provides solely
commuter bus service) to fail to provide with
respect to the operations of its fixed route
system, in accordance with this section, paratransit and other special transportation services to individuals with disabilities, including
individuals who use wheelchairs that are sufficient to provide to such individuals a level of
service
(1) which is comparable to the level of
designated public transportation services

App. 96
provided to individuals without disabilities using such system; or
(2) in the case of response time, which is
comparable, to the extent practicable, to
the level of designated public transportation services provided to individuals
without disabilities using such system.
(b) Issuance of regulations. Not later than
1 year after July 26, 1990, the Secretary shall
issue final regulations to carry out this section.
(c)

Required contents of regulations
(1) Eligible recipients of service. The
regulations issued under this section
shall require each public entity which operates a fixed route system to provide the
paratransit and other special transportation services required under this section
(A) (i) to any individual with a disability who is unable, as a result
of a physical or mental impairment (including a vision impairment) and without the assistance
of another individual (except an
operator of a wheelchair lift or
other boarding assistance device),
to board, ride, or disembark from
any vehicle on the system which
is readily accessible to and usable by individuals with disabilities;

App. 97
(ii) to any individual with a disability who needs the assistance
of a wheelchair lift or other boarding assistance device (and is able
with such assistance) to board,
ride, and disembark from any vehicle which is readily accessible
to and usable by individuals with
disabilities if the individual wants
to travel on a route on the system during the hours of operation of the system at a time (or
within a reasonable period of
such time) when such a vehicle
is not being used to provide designated public transportation on
the route; and
(iii) to any individual with a
disability who has a specific impairment-related condition which
prevents such individual from
traveling to a boarding location
or from a disembarking location
on such system;
(B) to one other individual accompanying the individual with the disability; and
(C) to other individuals, in addition
to the one individual described in
subparagraph (a), accompanying the
individual with a disability provided
that space for these additional individuals are available on the paratransit

App. 98
vehicle carrying the individual with
a disability and that the transportation of such additional individuals
will not result in a denial of service
to individuals with disabilities.
For purposes of clauses (i) and (ii) of
subparagraph (A), boarding or disembarking from a vehicle does not include travel to the boarding location
or from the disembarking location.
(2) Service area. The regulations issued
under this section shall require the provision of paratransit and special transportation services required under this section
in the service area of each public entity
which operates a fixed route system,
other than any portion of the service area
in which the public entity solely provides
commuter bus service.
(3) Service criteria. Subject to paragraphs (1) and (2), the regulations issued
under this section shall establish minimum service criteria for determining the
level of services to be required under this
section.
(4) Undue financial burden limitation.
The regulations issued under this section
shall provide that, if the public entity is
able to demonstrate to the satisfaction of
the Secretary that the provision of paratransit and other special transportation
services otherwise required under this
section would impose an undue financial

App. 99
burden on the public entity, the public entity, notwithstanding any other provision
of this section (other than paragraph (5)),
shall only be required to provide such services to the extent that providing such
services would not impose such a burden.
(5) Additional services. The regulations
issued under this section shall establish
circumstances under which the Secretary
may require a public entity to provide,
notwithstanding paragraph (4), paratransit and other special transportation
services under this section beyond the
level of paratransit and other special
transportation services which would otherwise be required under paragraph (4).
(6) Public participation. The regulations
issued under this section shall require
that each public entity which operates a
fixed route system hold a public hearing,
provide an opportunity for public comment, and consult with individuals with
disabilities in preparing its plan under
paragraph (7).
(7) Plans. The regulations issued under this section shall require that each
public entity which operates a fixed route
system
(A) within 18 months after July 26,
1990, submit to the Secretary, and
commence implementation of, a plan
for providing paratransit and other
special transportation services which

App. 100
meets the requirements of this section; and
(B) on an annual basis thereafter,
submit to the Secretary, and commence implementation of, a plan for
providing such services.
(8) Provision of services by others. The
regulations issued under this section
shall
(A) require that a public entity submitting a plan to the Secretary under
this section identify in the plan any
person or other public entity which is
providing a paratransit or other special transportation service for individuals with disabilities in the service
area to which the plan applies; and
(B) provide that the public entity
submitting the plan does not have to
provide under the plan such service
for individuals with disabilities.
(9) Other provisions. The regulations
issued under this section shall include
such other provisions and requirements
as the Secretary determines are necessary to carry out the objectives of this section.
(d)

Review of plan
(1) General rule. The Secretary shall
review a plan submitted under this section for the purpose of determining

App. 101
whether or not such plan meets the requirements of this section, including the
regulations issued under this section.
(2) Disapproval. If the Secretary determines that a plan reviewed under this
subsection fails to meet the requirements
of this section, the Secretary shall disapprove the plan and notify the public entity which submitted the plan of such
disapproval and the reasons therefor.
(3) Modification of disapproved plan.
Not later than 90 days after the date of
disapproval of a plan under this subsection, the public entity which submitted
the plan shall modify the plan to meet the
requirements of this section and shall
submit to the Secretary, and commence
implementation of, such modified plan.
(e) “Discrimination” defined. As used in
subsection (a) of this section, the term “discrimination” includes
(1) a failure of a public entity to which
the regulations issued under this section
apply to submit, or commence implementation of, a plan in accordance with subsections (c)(6) and (c)(7) of this section;
(2) a failure of such entity to submit, or
commence implementation of, a modified
plan in accordance with subsection (d)(3)
of this section;
(3) submission to the Secretary of a
modified plan under subsection (d)(3) of

App. 102
this section which does not meet the requirements of this section; or
(4) a failure of such entity to provide
paratransit or other special transportation services in accordance with the plan
or modified plan the public entity submitted to the Secretary under this section.
(f ) Statutory construction. Nothing in this
section shall be construed as preventing a
public entity
(1) from providing paratransit or other
special transportation services at a level
which is greater than the level of such
services which are required by this section,
(2) from providing paratransit or other
special transportation services in addition to those paratransit and special
transportation services required by this
section, or
(3) from providing such services to individuals in addition to those individuals to
whom such services are required to be
provided by this section.
Sec. 12144. Public entity operating a demand responsive system
If a public entity operates a demand responsive
system, it shall be considered discrimination, for
purposes of section 12132 of this title and section
794 of title 29, for such entity to purchase or lease
a new vehicle for use on such system, for which a

App. 103
solicitation is made after the 30th day following
July 26, 1990, that is not readily accessible to and
usable by individuals with disabilities, including
individuals who use wheelchairs, unless such system, when viewed in its entirety, provides a level
of service to such individuals equivalent to the
level of service such system provides to individuals without disabilities.
Sec. 12145.
available

Temporary relief where lifts are un-

(a) Granting. With respect to the purchase
of new buses, a public entity may apply for,
and the Secretary may temporarily relieve
such public entity from the obligation under
section 12142(a) or 12144 of this title to purchase new buses that are readily accessible to
and usable by individuals with disabilities if
such public entity demonstrates to the satisfaction of the Secretary
(1) that the initial solicitation for new
buses made by the public entity specified
that all new buses were to be liftequipped and were to be otherwise accessible to and usable by individuals with
disabilities;
(2) the unavailability from any qualified
manufacturer of hydraulic, electromechanical, or other lifts for such new buses;
(3) that the public entity seeking temporary relief has made good faith efforts to
locate a qualified manufacturer to supply
the lifts to the manufacturer of such

App. 104
buses in sufficient time to comply with
such solicitation; and
(4) that any further delay in purchasing
new buses necessary to obtain such lifts
would significantly impair transportation
services in the community served by the
public entity.
(b) Duration and notice to Congress. Any
relief granted under subsection (a) of this section shall be limited in duration by a specified
date, and the appropriate committees of Congress shall be notified of any such relief
granted.
(c) Fraudulent application. If, at any time,
the Secretary has reasonable cause to believe
that any relief granted under subsection (a) of
this section was fraudulently applied for, the
Secretary shall
(1) cancel such relief if such relief is still
in effect; and
(2) take such other action as the Secretary considers appropriate.
Sec. 12146.

New facilities

For purposes of section 12132 of this title and section 794 of title 29, it shall be considered discrimination for a public entity to construct a new
facility to be used in the provision of designated
public transportation services unless such facility
is readily accessible to and usable by individuals
with disabilities, including individuals who use
wheelchairs.

App. 105
Sec. 12147.

Alterations of existing facilities

(a) General rule. With respect to alterations of an existing facility or part thereof
used in the provision of designated public
transportation services that affect or could affect the usability of the facility or part thereof,
it shall be considered discrimination, for purposes of section 12132 of this title and section
794 of title 29, for a public entity to fail to
make such alterations (or to ensure that the
alterations are made) in such a manner that,
to the maximum extent feasible, the altered
portions of the facility are readily accessible
to and usable by individuals with disabilities,
including individuals who use wheelchairs,
upon the completion of such alterations.
Where the public entity is undertaking an alteration that affects or could affect usability
of or access to an area of the facility containing a primary function, the entity shall also
make the alterations in such a manner that,
to the maximum extent feasible, the path of
travel to the altered area and the bathrooms,
telephones, and drinking fountains serving
the altered area, are readily accessible to and
usable by individuals with disabilities, including individuals who use wheelchairs, upon
completion of such alterations, where such alterations to the path of travel or the bathrooms, telephones, and drinking fountains
serving the altered area are not disproportionate to the overall alterations in terms of
cost and scope (as determined under criteria
established by the Attorney General).

App. 106
(b)

Special rule for stations
(1) General rule. For purposes of section 12132 of this title and section 794 of
title 29, it shall be considered discrimination for a public entity that provides designated public transportation to fail, in
accordance with the provisions of this
subsection, to make key stations (as determined under criteria established by
the Secretary by regulation) in rapid
rail and light rail systems readily accessible to and usable by individuals with
disabilities, including individuals who
use wheelchairs.
(2)

Rapid rail and light rail key stations
(A) Accessibility. Except as otherwise provided in this paragraph, all
key stations (as determined under
criteria established by the Secretary
by regulation] in rapid rail and light
rail systems shall be made readily accessible to and usable by individuals
with disabilities, including individuals who use wheelchairs, as soon as
practicable but in no event later than
the last day of the 3-year period beginning on July 26, 1990.
(B) Extension for extraordinarily
expensive structural changes. The
Secretary may extend the 3-year period under subparagraph (A) up to a
30-year period for key stations in a
rapid rail or light rail system which

App. 107
stations need extraordinarily expensive structural changes to, or replacement of, existing facilities; except
that by the last day of the 20th year
following July 26, 1990, at least 2/3 of
such key stations must be readily accessible to and usable by individuals
with disabilities.
(3) Plans and milestones. The Secretary shall require the appropriate public
entity to develop and submit to the Secretary a plan for compliance with this subsection
(A) that reflects consultation with
individuals with disabilities affected
by such plan and the results of a public hearing and public comments on
such plan, and
(B) that establishes milestones for
achievement of the requirements of
this subsection.
Sec. 12148. Public transportation programs and
activities in existing facilities and one car per
train rule
(a) Public transportation programs and activities in existing facilities
(1) In general. With respect to existing
facilities used in the provision of designated public transportation services, it
shall be considered discrimination, for
purposes of section 12132 of this title and
section 794 of title 29, for a public entity

App. 108
to fail to operate a designated public
transportation program or activity conducted in such facilities so that, when
viewed in the entirety, the program or activity is readily accessible to and usable
by individuals with disabilities.
(2) Exception. Paragraph (1) shall not
require a public entity to make structural
changes to existing facilities in order to
make such facilities accessible to individuals who use wheelchairs, unless and to
the extent required by section 12147(a) of
this title (relating to alterations) or section 12147(a) of this title (relating to key
stations).
(3) Utilization. Paragraph (1) shall not
require a public entity to which paragraph (2) applies, to provide to individuals who use wheelchairs services made
available to the general public at such facilities when such individuals could not
utilize or benefit from such services provided at such facilities.
(b)

One car per train rule
(1) General rule. Subject to paragraph
(2), with respect to 2 or more vehicles operated as a train by a light or rapid rail
system, for purposes of section 12132 of
this title and section 794 of title 29, it shall
be considered discrimination for a public
entity to fail to have at least 1 vehicle per
train that is accessible to individuals
with disabilities, including individuals

App. 109
who use wheelchairs, as soon as practicable but in no event later than the last day
of the 5-year period beginning on the effective date of this section.
(2) Historic trains. In order to comply
with paragraph (1) with respect to the remanufacture of a vehicle of historic character which is to be used on a segment of
a light or rapid rail system which is
included on the National Register of Historic Places, if making such vehicle readily accessible to and usable by individuals
with disabilities would significantly alter
the historic character of such vehicle, the
public entity which operates such system
only has to make (or to purchase or lease
a remanufactured vehicle with) those modifications which are necessary to meet the
requirements of section 12142(c)(1) of this
title and which do not significantly alter
the historic character of such vehicle.
Sec. 12149.

Regulations

(a) In general. Not later than 1 year after
July 26, 1990, the Secretary of Transportation
shall issue regulations, in an accessible format, necessary for carrying out this subpart
(other than section 12143 of this title).
(b) Standards. The regulations issued under this section and section 12143 of this title
shall include standards applicable to facilities
and vehicles covered by this part. The standards shall be consistent with the minimum
guidelines and requirements issued by the

App. 110
Architectural and Transportation Barriers
Compliance Board in accordance with section
12204 of this title.
Sec. 12150.

Interim accessibility requirements

If final regulations have not been issued pursuant
to section 12149 of this title, for new construction
or alterations for which a valid and appropriate
State or local building permit is obtained prior to
the issuance of final regulations under such section, and for which the construction or alteration
authorized by such permit begins within one year
of the receipt of such permit and is completed under the terms of such permit, compliance with the
Uniform Federal Accessibility Standards in effect
at the time the building permit is issued shall suffice to satisfy the requirement that facilities be
readily accessible to and usable by persons with
disabilities as required under sections 12146 and
12147 of this title, except that, if such final regulations have not been issued one year after the
Architectural and Transportation Barriers Compliance Board has issued the supplemental minimum guidelines required under section 12204(a)
of this title, compliance with such supplemental
minimum guidelines shall be necessary to satisfy
the requirement that facilities be readily accessible to and usable by persons with disabilities prior
to issuance of the final regulations.

App. 111
Subpart II – Public Transportation by Intercity and
Commuter Rail
Sec. 12161.

Definitions

As used in this subpart:
(1) Commuter authority. The term “commuter authority” has the meaning given such
term in section 24102(4) of title 49.
(2) Commuter rail transportation. The
term “commuter rail transportation” has the
meaning given the term “commuter rail passenger transportation” in section 24102(5) of
title 49.
(3) Intercity rail transportation. The term
“intercity rail transportation” means transportation provided by the National Railroad
Passenger Corporation.
(4) Rail passenger car. The term “rail passenger car” means, with respect to intercity
rail transportation, single-level and bi-level
coach cars, single-level and bi-level dining
cars, single- level and bi-level sleeping cars,
single-level and bi-level lounge cars, and food
service cars.
(5) Responsible person.
sible person” means

The term “respon-

(A) in the case of a station more than 50
percent of which is owned by a public entity, such public entity;
(B) in the case of a station more than 50
percent of which is owned by a private

App. 112
party, the persons providing intercity or
commuter rail transportation to such station, as allocated on an equitable basis by
regulation by the Secretary of Transportation; and
(C) in a case where no party owns more
than 50 percent of a station, the persons
providing intercity or commuter rail transportation to such station and the owners
of the station, other than private party
owners, as allocated on an equitable basis
by regulation by the Secretary of Transportation.
(6) Station. The term “station” means the
portion of a property located appurtenant to a
right-of-way on which intercity or commuter
rail transportation is operated, where such
portion is used by the general public and is related to the provision of such transportation,
including passenger platforms, designated
waiting areas, ticketing areas, restrooms, and,
where a public entity providing rail transportation owns the property, concession areas, to
the extent that such public entity exercises
control over the selection, design, construction, or alteration of the property, but such
term does not include flag stops.
Sec. 12162. Intercity and commuter rail actions
considered discriminatory
(a)

Intercity rail transportation
(1) One car per train rule. It shall be
considered discrimination for purposes of

App. 113
section 12132 of this title and section 794
of title 29 for a person who provides intercity rail transportation to fail to have
at least one passenger car per train that
is readily accessible to and usable by individuals with disabilities, including
individuals who use wheelchairs, in accordance with regulations issued under
section 12164 of this title, as soon as practicable, but in no event later than 5 years
after July 26, 1990.
(2)

New intercity cars
(A) General rule. Except as otherwise provided in this subsection
with respect to individuals who use
wheelchairs, it shall be considered
discrimination for purposes of section 12132 of this title and section
794 of title 29 for a person to purchase or lease any new rail passenger
cars for use in intercity rail transportation, and for which a solicitation is
made later than 30 days after July
26, 1990, unless all such rail cars are
readily accessible to and usable by
individuals with disabilities, including individuals who use wheelchairs,
as prescribed by the Secretary of
Transportation in regulations issued
under section 12164 of this title.
(B) Special rule for single-level passenger coaches for individuals who use

App. 114
wheelchairs. Single-level passenger
coaches shall be required to
(i) be able to be entered by an
individual who uses a wheelchair;
(ii) have space to park and secure a wheelchair;
(iii) have a seat to which a passenger in a wheelchair can
transfer, and a space to fold and
store such passengers wheelchair; and
(iv) have a restroom usable by
an individual who uses a wheelchair, only to the extent provided
in paragraph (3).
(C) Special rule for single-level
dining cars for individuals who use
wheelchairs. Single-level dining cars
shall not be required to
(i) be able to be entered from
the station platform by an individual who uses a wheelchair; or
(ii) have a restroom usable by
an individual who uses a wheelchair if no restroom is provided
in such car for any passenger.
(D) Special rule for bi-level dining
cars for individuals who use wheelchairs. Bi-level dining cars shall not
be required to

App. 115
(i) be able to be entered by an
individual who uses a wheelchair;
(ii) have space to park and secure a wheelchair;
(iii) have a seat to which a
passenger in a wheelchair can
transfer, or a space to fold and
store such passengers wheelchair; or
(iv) have a restroom usable by
an individual who uses a wheelchair.
(3)

Accessibility of single-level coaches
(A) General rule. It shall be considered discrimination for purposes
of section 12132 of this title and section 794 of title 29 for a person who
provides intercity rail transportation
to fail to have on each train which includes one or more single-level rail
passenger coaches
(i)

a number of spaces
(I) to park and secure
wheelchairs (to accommodate individuals who wish to
remain in their wheelchairs)
equal to not less than onehalf of the number of singlelevel rail passenger coaches
in such train; and

App. 116
(II) to fold and store wheelchairs (to accommodate individuals who wish to
transfer to coach seats)
equal to not less than onehalf of the number of singlelevel rail passenger coaches
in such train, as soon as
practicable, but in no event
later than 5 years after July
26, 1990; and
(ii)

a number of spaces
(I) to park and secure
wheelchairs (to accommodate individuals who wish to
remain in their wheelchairs)
equal to not less than the total number of single-level
rail passenger coaches in
such train; and
(II) to fold and store wheelchairs (to accommodate individuals who wish to
transfer to coach seats)
equal to not less than the total number of single-level
rail passenger coaches in
such train, as soon as practicable, but in no event later
than 10 years after July 26,
1990.

(B) Location. Spaces required by
subparagraph (A) shall be located in

App. 117
single-level rail passenger coaches or
food service cars.
(C) Limitation. Of the number of
spaces required on a train by subparagraph (A), not more than two spaces
to park and secure wheelchairs nor
more than two spaces to fold and
store wheelchairs shall be located in
any one coach or food service car.
(D) Other accessibility features.
Single-level rail passenger coaches
and food service cars on which the
spaces required by subparagraph (a)
are located shall have a restroom usable by an individual who uses a
wheelchair and shall be able to be entered from the station platform by an
individual who uses a wheelchair.
(4)

Food service
(A) Single-level dining cars. On any
train in which a single-level dining
car is used to provide food service
(i) if such single-level dining
car was purchased after July 26,
1990, table service in such car
shall be provided to a passenger
who uses a wheelchair if
(I) the car adjacent to the
end of the dining car
through which a wheelchair
may enter is itself accessible
to a wheelchair;

App. 118
(II) such passenger can
exit to the platform from the
car such passenger occupies,
move down the platform,
and enter the adjacent accessible car described in
subclause (I) without the necessity of the train being
moved within the station;
and
(III) space to park and secure a wheelchair is available in the dining car at the
time such passenger wishes
to eat (if such passenger
wishes to remain in a wheelchair), or space to store and
fold a wheelchair is available in the dining car at the
time such passenger wishes
to eat (if such passenger
wishes to transfer to a dining car seat); and
(ii) appropriate auxiliary aids
and services, including a hard
surface on which to eat, shall be
provided to ensure that other
equivalent food service is available to individuals with disabilities, including individuals who
use wheelchairs, and to passengers traveling with such individuals. Unless not practicable, a
person providing intercity rail

App. 119
transportation shall place an accessible car adjacent to the end
of a dining car described in
clause (I) through which an individual who uses a wheelchair
may enter.
(B) Bi-level dining cars. On any
train in which a bi-level dining car is
used to provide food service
(i) if such train includes a bilevel lounge car purchased after
July 26, 1990, table service in
such lounge car shall be provided to individuals who use
wheelchairs and to other passengers; and
(ii) appropriate auxiliary aids
and services, including a hard
surface on which to eat, shall be
provided to ensure that other
equivalent food service is available to individuals with disabilities, including individuals who
use wheelchairs, and to passengers traveling with such individuals.
(b)

Commuter rail transportation
(1) One car per train rule. It shall be
considered discrimination for purposes of
section 12132 of this title and section 794
of title 29 for a person who provides commuter rail transportation to fail to have

App. 120
at least one passenger car per train that
is readily accessible to and usable by
individuals with disabilities, including
individuals who use wheelchairs, in accordance with regulations issued under
section 12164 of this title, as soon as practicable, but in no event later than 5 years
after July 26, 1990.
(2)

New commuter rail cars
(A) General rule. It shall be considered discrimination for purposes of
section 12132 of this title and section
794 of title 29 for a person to purchase or lease any new rail passenger
cars for use in commuter rail transportation, and for which a solicitation
is made later than 30 days after July
26, 1990, unless all such rail cars are
readily accessible to and usable by
individuals with disabilities, including individuals who use wheelchairs,
as prescribed by the Secretary of
Transportation in regulations issued
under section 12164 of this title.
(B) Accessibility. For purposes of
section 12132 of this title and section
794 of title 29, a requirement that a
rail passenger car used in commuter
rail transportation be accessible to or
readily accessible to and usable by
individuals with disabilities, including individuals who use wheelchairs,
shall not be construed to require

App. 121
(i) a restroom usable by an individual who uses a wheelchair
if no restroom is provided in such
car for any passenger;
(ii) space to fold and store a
wheelchair; or
(iii) a seat to which a passenger
who uses a wheelchair can transfer.
(c) Used rail cars. It shall be considered discrimination for purposes of section 1132 of
this title and section 794 of title 29 for a person to purchase or lease a used rail passenger
car for use in intercity or commuter rail transportation, unless such person makes demonstrated good faith efforts to purchase or lease
a used rail car that is readily accessible to and
usable by individuals with disabilities, including individuals who use wheelchairs, as prescribed by the Secretary of Transportation in
regulations issued under section 12164 of this
title.
(d)

Remanufactured rail cars
(1) Remanufacturing. It shall be considered discrimination for purposes of section 12132 of this title and section 794 of
title 29 for a person to remanufacture a
rail passenger car for use in intercity or
commuter rail transportation so as to extend its usable life for 10 years or more,
unless the rail car, to the maximum extent feasible, is made readily accessible to

App. 122
and usable by individuals with disabilities, including individuals who use wheelchairs, as prescribed by the Secretary of
Transportation in regulations issued under section 12164 of this title.
(2) Purchase or lease. It shall be considered discrimination for purposes of section 12132 of this title and section 794 of
title 29 for a person to purchase or lease
a remanufactured rail passenger car for
use in intercity or commuter rail transportation unless such car was remanufactured in accordance with paragraph (1).
(e)

Stations
(1) New stations. It shall be considered
discrimination for purposes of section
12132 of this title and section 794 of title
29 for a person to build a new station for
use in intercity or commuter rail transportation that is not readily accessible to
and usable by individuals with disabilities, including individuals who use wheelchairs, as prescribed by the Secretary of
Transportation in regulations issued under section 12164 of this title.
(2)

Existing stations
(A)

Failure to make readily accessible
(i) General rule. It shall be considered discrimination for purposes of section 12132 of this
title and section 794 of title 29
for a responsible person to fail to

App. 123
make existing stations in the intercity rail transportation system, and existing key stations in
commuter rail transportation
systems, readily accessible to
and usable by individuals with
disabilities, including individuals who use wheelchairs, as prescribed by the Secretary of
Transportation in regulations issued under section 12164 of this
title.
(ii)

Period for compliance
(I) Intercity rail. All stations in the intercity rail
transportation system shall
be made readily accessible
to and usable by individuals
with disabilities, including
individuals who use wheelchairs, as soon as practicable, but in no event later
than 20 years after July 26,
1990.
(II) Commuter rail. Key
stations in commuter rail
transportation systems shall
be made readily accessible
to and usable by individuals
with disabilities, including
individuals who use wheelchairs, as soon as practicable but in no event later

App. 124
than 3 years after July 26,
1990, except that the time
limit may be extended by
the Secretary of Transportation up to 20 years after July
26, 1990, in a case where
the raising of the entire passenger platform is the only
means available of attaining
accessibility or where other
extraordinarily expensive
structural changes are necessary to attain accessibility.
(iii) Designation of key stations. Each commuter authority
shall designate the key stations
in its commuter rail transportation system, in consultation with
individuals with disabilities and
organizations representing such
individuals, taking into consideration such factors as high ridership and whether such station
serves as a transfer or feeder
station. Before the final designation of key stations under this
clause, a commuter authority
shall hold a public hearing.
(iv) Plans and milestones. The
Secretary of Transportation shall
require the appropriate person
to develop a plan for carrying out
this subparagraph that reflects
consultation with individuals

App. 125
with disabilities affected by such
plan and that establishes milestones for achievement of the
requirements of this subparagraph.
(B) Requirement when making alterations
(i) General rule. It shall be considered discrimination, for purposes of section 12132 of this
title and section 794 of title 29,
with respect to alterations of an
existing station or part thereof
in the intercity or commuter rail
transportation systems that affect or could affect the usability
of the station or part thereof, for
the responsible person, owner, or
person in control of the station to
fail to make the alterations in
such a manner that, to the maximum extent feasible, the altered portions of the station are
readily accessible to and usable
by individuals with disabilities,
including individuals who use
wheelchairs, upon completion of
such alterations.
(ii) Alterations to a primary
function area. It shall be considered discrimination, for purposes of section 12132 of this
title and section 794 of title 29,

App. 126
with respect to alterations that
affect or could affect the usability of or access to an area of the
station containing a primary
function, for the responsible person, owner, or person in control
of the station to fail to make the
alterations in such a manner
that, to the maximum extent feasible, the path of travel to the altered area, and the bathrooms,
telephones, and drinking fountains serving the altered area,
are readily accessible to and usable by individuals with disabilities, including individuals who
use wheelchairs, upon completion of such alterations, where
such alterations to the path of
travel or the bathrooms, telephones, and drinking fountains
serving the altered area are not
disproportionate to the overall
alterations in terms of cost and
scope (as determined under criteria established by the Attorney
General).
(C) Required cooperation. It shall
be considered discrimination for purposes of section 12132 of this title
and section 794 of title 29 for an
owner, or person in control, of a station governed by subparagraph (a) or
(b) to fail to provide reasonable cooperation to a responsible person with

App. 127
respect to such station in that responsible person’s efforts to comply
with such subparagraph. An owner,
or person in control, of a station shall
be liable to a responsible person for
any failure to provide reasonable cooperation as required by this subparagraph. Failure to receive reasonable
cooperation required by this subparagraph shall not be a defense to a
claim of discrimination under this
chapter.
Sec. 12163. Conformance of accessibility standards
Accessibility standards included in regulations issued under this subpart shall be consistent with
the minimum guidelines issued by the Architectural and Transportation Barriers Compliance
Board under section 504(a) of this title.
Sec. 12164. Regulations
Not later than 1 year after July 26, 1990, the Secretary of Transportation shall issue regulations, in
an accessible format, necessary for carrying out
this subpart.
Sec. 12165. Interim accessibility requirements
(a) Stations. If final regulations have not
been issued pursuant to section 12164 of this
title, for new construction or alterations for
which a valid and appropriate State or local
building permit is obtained prior to the issuance of final regulations under such section,
and for which the construction or alteration
authorized by such permit begins within one

App. 128
year of the receipt of such permit and is completed under the terms of such permit, compliance with the Uniform Federal Accessibility
Standards in effect at the time the building
permit is issued shall suffice to satisfy the requirement that stations be readily accessible
to and usable by persons with disabilities as
required under section 12162(e) of this title,
except that, if such final regulations have not
been issued one year after the Architectural
and Transportation Barriers Compliance
Board has issued the supplemental minimum
guidelines required under section 12204(a) of
this title, compliance with such supplemental
minimum guidelines shall be necessary to satisfy the requirement that stations be readily
accessible to and usable by persons with disabilities prior to issuance of the final regulations.
(b) Rail passenger cars. If final regulations
have not been issued pursuant to section
12164 of this title, a person shall be considered to have complied with the requirements
of section 12162(a) through (d) of this title
that a rail passenger car be readily accessible
to and usable by individuals with disabilities,
if the design for such car complies with the
laws and regulations (including the Minimum
Guidelines and Requirements for Accessible
Design and such supplemental minimum
guidelines as are issued under section
12204(a) of this title) governing accessibility
of such cars, to the extent that such laws and
regulations are not inconsistent with this

App. 129
subpart and are in effect at the time such design is substantially completed.
SUBCHAPTER III – PUBLIC ACCOMMODATIONS
AND SERVICES OPERATED BY PRIVATE ENTITIES
Sec. 12181. Definitions
As used in this subchapter:
(1) Commerce. The term “commerce”
means travel, trade, traffic, commerce,
transportation, or communications
(A)

among the several States;

(B) between any foreign country or
any territory or possession and any
State; or
(C) between points in the same
State but through another State or
foreign country.
(2) Commercial facilities. The term
“commercial facilities” means facilities
(A) that are intended for nonresidential use; and
(B) whose operations will affect
commerce.
Such term shall not include railroad
locomotives, railroad freight cars,
railroad cabooses, railroad cars described in section 12162 of this title
or covered under this subchapter,
railroad rights-of-way, or facilities

App. 130
that are covered or expressly exempted from coverage under the Fair
Housing Act of 1968 (42 U.S.C. 3601
et seq.).
(3) Demand responsive system. The
term “demand responsive system” means
any system of providing transportation of
individuals by a vehicle, other than a system which is a fixed route system.
(4) Fixed route system. The term “fixed
route system” means a system of providing transportation of individuals (other
than by aircraft) on which a vehicle is operated along a prescribed route according
to a fixed schedule.
(5) Over-the-road bus. The term “overthe-road bus” means a bus characterized
by an elevated passenger deck located
over a baggage compartment.
(6) Private entity. The term “private entity” means any entity other than a public
entity (as defined in section 12131(1) of
this title).
(7) Public accommodation. The following private entities are considered public
accommodations for purposes of this subchapter, if the operations of such entities
affect commerce
(A) an inn, hotel, motel, or other
place of lodging, except for an establishment located within a building
that contains not more than five

App. 131
rooms for rent or hire and that is
actually occupied by the proprietor of
such establishment as the residence
of such proprietor;
(B) a restaurant, bar, or other establishment serving food or drink;
(C) a motion picture house, theater,
concert hall, stadium, or other place
of exhibition entertainment;
(D) an auditorium, convention center, lecture hall, or other place of public gathering;
(E) a bakery, grocery store, clothing
store, hardware store, shopping center, or other sales or rental establishment;
(F) a laundromat, dry-cleaner, bank,
barber shop, beauty shop, travel
service, shoe repair service, funeral
parlor, gas station, office of an accountant or lawyer, pharmacy, insurance office, professional office of a
health care provider, hospital, or
other service establishment;
(G) a terminal, depot, or other station used for specified public transportation;
(H) a museum, library, gallery, or
other place of public display or collection;

App. 132
(I) a park, zoo, amusement park, or
other place of recreation;
(J) a nursery, elementary, secondary, undergraduate, or postgraduate
private school, or other place of education;
(K) a day care center, senior citizen
center, homeless shelter, food bank,
adoption agency, or other social service center establishment; and
(L) a gymnasium, health spa, bowling alley, golf course, or other place of
exercise or recreation.
(8) Rail and railroad. The terms “rail”
and “railroad” have the meaning given
the term “railroad” in section 20102[1] of
title 49.
(9) Readily achievable. The term “readily achievable” means easily accomplishable and able to be carried out without
much difficulty or expense. In determining whether an action is readily achievable, factors to be considered include
(A) the nature and cost of the action
needed under this chapter;
(B) the overall financial resources
of the facility or facilities involved in
the action; the number of persons
employed at such facility; the effect
on expenses and resources, or the

App. 133
impact otherwise of such action upon
the operation of the facility;
(C) the overall financial resources
of the covered entity; the overall size
of the business of a covered entity
with respect to the number of its employees; the number, type, and location of its facilities; and
(D) the type of operation or operations of the covered entity, including
the composition, structure, and functions of the workforce of such entity;
the geographic separateness, administrative or fiscal relationship of the
facility or facilities in question to the
covered entity.
(10) Specified public transportation.
The term “specified public transportation” means transportation by bus, rail, or
any other conveyance (other than by aircraft) that provides the general public
with general or special service (including
charter service) on a regular and continuing basis.
(11) Vehicle. The term “vehicle” does
not include a rail passenger car, railroad
locomotive, railroad freight car, railroad
caboose, or a railroad car described in section 12162 of this title or covered under
this subchapter.

App. 134
Sec. 12182. Prohibition of discrimination by public
accommodations
(a) General rule. No individual shall be discriminated against on the basis of disability
in the full and equal enjoyment of the goods,
services, facilities, privileges, advantages, or
accommodations of any place of public accommodation by any person who owns, leases (or
leases to), or operates a place of public accommodation.
(b)

Construction
(1)

General prohibition
(A)

Activities
(i) Denial of participation. It
shall be discriminatory to subject an individual or class of individuals on the basis of a
disability or disabilities of such
individual or class, directly, or
through contractual, licensing,
or other arrangements, to a denial of the opportunity of the individual or class to participate in
or benefit from the goods, services, facilities, privileges, advantages, or accommodations of
an entity.
(ii) Participation in unequal
benefit. It shall be discriminatory
to afford an individual or class
of individuals, on the basis of a
disability or disabilities of such

App. 135
individual or class, directly, or
through contractual, licensing,
or other arrangements with the
opportunity to participate in or
benefit from a good, service, facility, privilege, advantage, or accommodation that is not equal to
that afforded to other individuals.
(iii) Separate benefit. It shall
be discriminatory to provide an
individual or class of individuals,
on the basis of a disability or disabilities of such individual or
class, directly, or through contractual, licensing, or other arrangements with a good, service,
facility, privilege, advantage, or
accommodation that is different
or separate from that provided to
other individuals, unless such
action is necessary to provide the
individual or class of individuals
with a good, service, facility, privilege, advantage, or accommodation, or other opportunity that is
as effective as that provided to
others.
(iv) Individual or class of individuals. For purposes of clauses
(i) through (iii) of this subparagraph, the term “individual or
class of individuals” refers to
the clients or customers of the

App. 136
covered public accommodation
that enters into the contractual,
licensing or other arrangement.
(B) Integrated settings. Goods, services, facilities, privileges, advantages,
and accommodations shall be afforded to an individual with a disability in the most integrated setting
appropriate to the needs of the individual.
(C) Opportunity to participate. Notwithstanding the existence of separate or different programs or activities
provided in accordance with this section, an individual with a disability
shall not be denied the opportunity to
participate in such programs or activities that are not separate or different.
(D) Administrative methods. An individual or entity shall not, directly
or through contractual or other arrangements, utilize standards or criteria or methods of administration
(i) that have the effect of discriminating on the basis of disability; or
(ii) that perpetuate the discrimination of others who are
subject to common administrative control.

App. 137
(E) Association. It shall be discriminatory to exclude or otherwise deny
equal goods, services, facilities, privileges, advantages, accommodations,
or other opportunities to an individual or entity because of the known
disability of an individual with whom
the individual or entity is known to
have a relationship or association.
(2)

Specific prohibitions
(A) Discrimination. For purposes of
subsection (a) of this section, discrimination includes
(i) the imposition or application of eligibility criteria that
screen out or tend to screen out
an individual with a disability or
any class of individuals with disabilities from fully and equally
enjoying any goods, services, facilities, privileges, advantages,
or accommodations, unless such
criteria can be shown to be necessary for the provision of the
goods, services, facilities, privileges, advantages, or accommodations being offered;
(ii) a failure to make reasonable modifications in policies,
practices, or procedures, when
such modifications are necessary
to afford such goods, services, facilities, privileges, advantages,

App. 138
or accommodations to individuals with disabilities, unless the
entity can demonstrate that
making
such
modifications
would fundamentally alter the
nature of such goods, services,
facilities, privileges, advantages,
or accommodations;
(iii) a failure to take such steps
as may be necessary to ensure
that no individual with a disability is excluded, denied services,
segregated or otherwise treated
differently than other individuals because of the absence of
auxiliary aids and services, unless the entity can demonstrate
that taking such steps would
fundamentally alter the nature
of the good, service, facility, privilege, advantage, or accommodation being offered or would
result in an undue burden;
(iv) a failure to remove architectural barriers, and communication
barriers
that
are
structural in nature, in existing
facilities, and transportation
barriers in existing vehicles and
rail passenger cars used by an
establishment for transporting
individuals (not including barriers that can only be removed
through the retrofitting of

App. 139
vehicles or rail passenger cars by
the installation of a hydraulic or
other lift), where such removal is
readily achievable; and
(v) where an entity can demonstrate that the removal of a barrier under clause (iv) is not
readily achievable, a failure to
make such goods, services, facilities, privileges, advantages, or
accommodations
available
through alternative methods if
such methods are readily achievable.
(B)

Fixed route system
(i) Accessibility. It shall be considered discrimination for a private entity which operates a
fixed route system and which is
not subject to section 12184 of
this title to purchase or lease a
vehicle with a seating capacity
in excess of 16 passengers (including the driver) for use on
such system, for which a solicitation is made after the 30th day
following the effective date of
this subparagraph, that is not
readily accessible to and usable
by individuals with disabilities,
including individuals who use
wheelchairs.

App. 140
(ii) Equivalent service. If a private entity which operates a
fixed route system and which is
not subject to section 12184 of
this title purchases or leases a
vehicle with a seating capacity of
16 passengers or less (including
the driver) for use on such system after the effective date of
this subparagraph that is not
readily accessible to or usable by
individuals with disabilities, it
shall be considered discrimination for such entity to fail to operate such system so that, when
viewed in its entirety, such system ensures a level of service to
individuals with disabilities, including individuals who use
wheelchairs, equivalent to the
level of service provided to individuals without disabilities.
(C) Demand responsive system. For
purposes of subsection (a) of this section, discrimination includes
(i) a failure of a private entity
which operates a demand responsive system and which is
not subject to section 12184 of
this title to operate such system
so that, when viewed in its entirety, such system ensures a
level of service to individuals
with
disabilities,
including

App. 141
individuals who use wheelchairs, equivalent to the level of
service provided to individuals
without disabilities; and
(ii) the purchase or lease by
such entity for use on such system of a vehicle with a seating
capacity in excess of 16 passengers (including the driver), for
which solicitations are made after the 30th day following the
effective date of this subparagraph, that is not readily accessible
to
and
usable
by
individuals with disabilities (including individuals who use
wheelchairs) unless such entity
can demonstrate that such system, when viewed in its entirety,
provides a level of service to individuals with disabilities equivalent to that provided to
individuals without disabilities.
(D) Over-the-road buses
(i) Limitation on applicability.
Subparagraphs (B) and (C) do
not apply to over-the-road buses.
(ii) Accessibility requirements.
For purposes of subsection (a) of
this section, discrimination includes

App. 142
(I) the purchase or lease of
an over-the-road bus which
does not comply with the
regulations issued under
section 12186(a)(2) of this
title by a private entity
which provides transportation of individuals and
which is not primarily engaged in the business of
transporting people, and
(II) any other failure of
such entity to comply with
such regulations.
(3) Specific construction. Nothing in
this subchapter shall require an entity to
permit an individual to participate in or
benefit from the goods, services, facilities,
privileges, advantages and accommodations of such entity where such individual
poses a direct threat to the health or
safety of others. The term “direct threat”
means a significant risk to the health or
safety of others that cannot be eliminated
by a modification of policies, practices, or
procedures or by the provision of auxiliary aids or services.
Sec. 12183. New construction and alterations in
public accommodations and commercial facilities
(a) Application of term. Except as provided
in subsection (b) of this section, as applied
to public accommodations and commercial

App. 143
facilities, discrimination for purposes of section 12182(a) of this title includes
(1) a failure to design and construct facilities for first occupancy later than 30
months after July 26, 1990, that are readily accessible to and usable by individuals
with disabilities, except where an entity
can demonstrate that it is structurally
impracticable to meet the requirements
of such subsection in accordance with
standards set forth or incorporated by
reference in regulations issued under this
subchapter; and
(2) with respect to a facility or part
thereof that is altered by, on behalf of, or
for the use of an establishment in a manner that affects or could affect the usability of the facility or part thereof, a failure
to make alterations in such a manner
that, to the maximum extent feasible, the
altered portions of the facility are readily
accessible to and usable by individuals
with disabilities, including individuals
who use wheelchairs. Where the entity is
undertaking an alteration that affects or
could affect usability of or access to an
area of the facility containing a primary
function, the entity shall also make the
alterations in such a manner that, to the
maximum extent feasible, the path of
travel to the altered area and the bathrooms, telephones, and drinking fountains serving the altered area, are readily
accessible to and usable by individuals

App. 144
with disabilities where such alterations
to the path of travel or the bathrooms, telephones, and drinking fountains serving
the altered area are not disproportionate
to the overall alterations in terms of cost
and scope (as determined under criteria
established by the Attorney General).
(b) Elevator. Subsection (a) of this section
shall not be construed to require the installation of an elevator for facilities that are less
than three stories or have less than 3,000
square feet per story unless the building is a
shopping center, a shopping mall, or the professional office of a health care provider or unless the Attorney General determines that a
particular category of such facilities requires
the installation of elevators based on the usage of such facilities.
Sec. 12184. Prohibition of discrimination in specified public transportation services provided by private entities
(a) General rule. No individual shall be discriminated against on the basis of disability
in the full and equal enjoyment of specified
public transportation services provided by a
private entity that is primarily engaged in the
business of transporting people and whose
operations affect commerce.
(b) Construction. For purposes of subsection
(a) of this section, discrimination includes
(1) the imposition or application by an
entity described in subsection (a) of

App. 145
eligibility criteria that screen out or
tend to screen out an individual with a
disability or any class of individuals with
disabilities from fully enjoying the specified public transportation services provided by the entity, unless such criteria
can be shown to be necessary for the provision of the services being offered;
(2)

the failure of such entity to
(A) make reasonable modifications
consistent with those required under
section 12182(b)(2)(A)(ii) of this title;
(B) provide auxiliary aids and services consistent with the requirements
of section 12182(b)(2)(A)(iii) of this
title; and
(C) remove barriers consistent
with the requirements of section
12182(b)(2)(A) of this title and with
the requirements of section 12183(a)(2)
of this title;

(3) the purchase or lease by such entity
of a new vehicle (other than an automobile, a van with a seating capacity of less
than 8 passengers, including the driver,
or an over- the-road bus) which is to be
used to provide specified public transportation and for which a solicitation is made
after the 30th day following the effective
date of this section, that is not readily accessible to and usable by individuals
with disabilities, including individuals

App. 146
who use wheelchairs; except that the new
vehicle need not be readily accessible to
and usable by such individuals if the new
vehicle is to be used solely in a demand
responsive system and if the entity can
demonstrate that such system, when
viewed in its entirety, provides a level of
service to such individuals equivalent to
the level of service provided to the general public;
(4) (A) the purchase or lease by such
entity of an over-the-road bus which does
not comply with the regulations issued
under section 12186(a)(2) of this title; and
(B) any other failure of such entity
to comply with such regulations; and
(5) the purchase or lease by such entity
of a new van with a seating capacity of
less than 8 passengers, including the
driver, which is to be used to provide specified public transportation and for which
a solicitation is made after the 30th day
following the effective date of this section
that is not readily accessible to or usable
by individuals with disabilities, including
individuals who use wheelchairs; except
that the new van need not be readily accessible to and usable by such individuals
if the entity can demonstrate that the
system for which the van is being purchased or leased, when viewed in its entirety, provides a level of service to such

App. 147
individuals equivalent to the level of service provided to the general public;
(6) the purchase or lease by such entity
of a new rail passenger car that is to be
used to provide specified public transportation, and for which a solicitation is
made later than 30 days after the effective date of this paragraph, that is not
readily accessible to and usable by individuals with disabilities, including individuals who use wheelchairs; and
(7) the remanufacture by such entity of
a rail passenger car that is to be used to
provide specified public transportation so
as to extend its usable life for 10 years or
more, or the purchase or lease by such entity of such a rail car, unless the rail car,
to the maximum extent feasible, is made
readily accessible to and usable by individuals with disabilities, including individuals who use wheelchairs.
(c)

Historical or antiquated cars
(1) Exception. To the extent that compliance with subsection (a)(2)© or (a)(7)of
this section would significantly alter the
historic or antiquated character of a historical or antiquated rail passenger car,
or a rail station served exclusively by
such cars, or would result in violation of
any rule, regulation, standard, or order issued by the Secretary of Transportation
under the Federal Railroad Safety Act of

App. 148
1970, such compliance shall not be required.
(2) Definition. As used in this subsection, the term “historical or antiquated
rail passenger car” means a rail passenger car
(A) which is not less than 30 years
old at the time of its use for transporting individuals;
(B) the manufacturer of which is no
longer in the business of manufacturing rail passenger cars; and
(C)

which
(i) has a consequential association with events or persons significant to the past; or
(ii) embodies, or is being restored to embody, the distinctive
characteristics of a type of rail
passenger car used in the past,
or to represent a time period
which has passed.

Sec. 12185. Study
(a) Purposes. The Office of Technology Assessment shall undertake a study to determine
(1) the access needs of individuals with
disabilities to over-the-road buses and
over-the-road bus service; and

App. 149
(2) the most cost-effective methods for
providing access to over-the-road buses
and over-the-road bus service to individuals with disabilities, particularly individuals who use wheelchairs, through all
forms of boarding options.
(b) Contents. The study shall include, at a
minimum, an analysis of the following:
(1) The anticipated demand by individuals with disabilities for accessible overthe-road buses and over-the-road bus service.
(2) The degree to which such buses
and service, including any service required under sections 12184(a)(4) and
12186(a)(2) of this title, are readily accessible to and usable by individuals with
disabilities.
(3) The effectiveness of various methods
of providing accessibility to such buses and
service to individuals with disabilities.
(4) The cost of providing accessible overthe-road buses and bus service to individuals with disabilities, including consideration of recent technological and cost
saving developments in equipment and
devices.
(5) Possible design changes in over-theroad buses that could enhance accessibility, including the installation of accessible
restrooms which do not result in a loss of
seating capacity.

App. 150
(6) The impact of accessibility requirements on the continuation of over-theroad bus service, with particular consideration of the impact of such requirements on such service to rural
communities.
(c) Advisory committee. In conducting the
study required by subsection (a) of this section, the Office of Technology Assessment
shall establish an advisory committee, which
shall consist of
(1) members selected from among private operators and manufacturers of
over-the-road buses;
(2) members selected from among individuals with disabilities, particularly individuals who use wheelchairs, who are
potential riders of such buses; and
(3) members selected for their technical
expertise on issues included in the study,
including manufacturers of boarding assistance equipment and devices.
The number of members selected under
each of paragraphs (1) and (2) shall be
equal, and the total number of members
selected under paragraphs (1) and (2)
shall exceed the number of members selected under paragraph (3).
(d) Deadline. The study required by subsection (a) of this section, along with recommendations by the Office of Technology
Assessment, including any policy options for

App. 151
legislative action, shall be submitted to the
President and Congress within 36 months after July 26, 1990. If the President determines
that compliance with the regulations issued
pursuant to section 12186(a)(2)(B) of this title
on or before the applicable deadlines specified
in section 12186(a)(2)(B) of this title will result in a significant reduction in intercity
over-the-road bus service, the President shall
extend each such deadline by 1 year.
(e) Review. In developing the study required by subsection (a) of this section, the
Office of Technology Assessment shall provide a preliminary draft of such study to the
Architectural and Transportation Barriers
Compliance Board established under section
792 of title 29. The Board shall have an opportunity to comment on such draft study, and
any such comments by the Board made in
writing within 120 days after the Board’s receipt of the draft study shall be incorporated
as part of the final study required to be submitted under subsection (d) of this section.
Sec. 12186. Regulations
(a)

Transportation provisions
(1) General rule. Not later than 1 year
after July 26, 1990, the Secretary of
Transportation shall issue regulations in
an accessible format to carry out sections12182 (b)(2)(B) and (C) of this title
and to carry out section 12184 of this title
(other than subsection (a)(4)).

App. 152
(2) Special rules for providing access to
over-the-road buses
(A)

Interim requirements
(i) Issuance. Not later than 1
year after July 26, 1990, the
Secretary of Transportation
shall issue regulations in an
accessible format to carry out
sections
12184(b)(4)
and
12182(b)(2)(D)(ii) of this title
that require each private entity
which uses an over-the-road bus
to provide transportation of individuals to provide accessibility
to such bus; except that such regulations shall not require any
structural changes in over-theroad buses in order to provide
access to individuals who use
wheelchairs during the effective
period of such regulations and
shall not require the purchase of
boarding assistance devices to
provide access to such individuals.
(ii) Effective period. The regulations issued pursuant to this
subparagraph shall be effective
until the effective date of the
regulations issued under subparagraph (a).

App. 153
(B)

Final requirement
(i) Review of study and interim
requirements. The Secretary
shall review the study submitted
under section 12185 of this title
and the regulations issued pursuant to subparagraph (A).
(ii) Issuance. Not later than 1
year after the date of the submission of the study under section
12185 of this title, the Secretary
shall issue in an accessible format new regulations to carry
out sections 12184(b)(4) and
12182(b)(2)(D)(ii) of this title
that require, taking into account
the purposes of the study under
section 12185 of this title and
any recommendations resulting
from such study, each private entity which uses an over-the-road
bus to provide transportation to
individuals to provide accessibility to such bus to individuals
with disabilities, including individuals who use wheelchairs.
(iii) Effective period. Subject to
section 12185(d) of this title, the
regulations issued pursuant to
this subparagraph shall take effect
(I) with respect to small
providers of transportation

App. 154
(as defined by the Secretary), 3 years after the date
of issuance of final regulations under clause (ii); and
(II) with respect to other
providers of transportation,
2 years after the date of issuance of such final regulations.
(C) Limitation on requiring installation of accessible restrooms. The
regulations issued pursuant to this
paragraph shall not require the installation of accessible restrooms in
over-the-road buses if such installation would result in a loss of seating
capacity.
(3) Standards. The regulations issued
pursuant to this subsection shall include
standards applicable to facilities and vehicles covered by sections 12182(b) (2)
and 12184 of this title.
(b) Other provisions. Not later than 1 year
after July 26, 1990, the Attorney General
shall issue regulations in an accessible format
to carry out the provisions of this subchapter
not referred to in subsection (a) of this section
that include standards applicable to facilities
and vehicles covered under section 12182 of
this title.
(c) Consistency with ATBCB guidelines.
Standards included in regulations issued

App. 155
under subsections (a) and (b) of this section
shall be consistent with the minimum guidelines and requirements issued by the Architectural
and
Transportation
Barriers
Compliance Board in accordance with section
12204 of this title.
(d)

Interim accessibility standards
(1) Facilities. If final regulations have
not been issued pursuant to this section,
for new construction or alterations for
which a valid and appropriate State or
local building permit is obtained prior to
the issuance of final regulations under
this section, and for which the construction or alteration authorized by such permit begins within one year of the receipt
of such permit and is completed under the
terms of such permit, compliance with the
Uniform Federal Accessibility Standards
in effect at the time the building permit
is issued shall suffice to satisfy the requirement that facilities be readily accessible to and usable by persons with
disabilities as required under section
12183 of this title, except that, if such final regulations have not been issued one
year after the Architectural and Transportation Barriers Compliance Board has
issued the supplemental minimum guidelines required under section 12204(a) of
this title, compliance with such supplemental minimum guidelines shall be necessary to satisfy the requirement that
facilities be readily accessible to and

App. 156
usable by persons with disabilities prior
to issuance of the final regulations.
(2) Vehicles and rail passenger cars. If
final regulations have not been issued
pursuant to this section, a private entity
shall be considered to have complied with
the requirements of this subchapter, if
any, that a vehicle or rail passenger car
be readily accessible to and usable by individuals with disabilities, if the design
for such vehicle or car complies with the
laws and regulations (including the
Minimum Guidelines and Requirements
for Accessible Design and such supplemental minimum guidelines as are issued under section 12204(a) of this title)
governing accessibility of such vehicles
or cars, to the extent that such laws and
regulations are not inconsistent with
this subchapter and are in effect at the
time such design is substantially completed.
Sec. 12187. Exemptions for private clubs and religious organizations
The provisions of this subchapter shall not apply
to private clubs or establishments exempted from
coverage under title II of the Civil Rights Act of
1964 (42 U.S.C. 2000-a(e)) or to religious organizations or entities controlled by religious organizations, including places of worship.

App. 157
Sec. 12188. Enforcement
(a)

In general
(1) Availability of remedies and procedures. The remedies and procedures set
forth in section 2000a-3(a) of this title are
the remedies and procedures this subchapter provides to any person who is being subjected to discrimination on the
basis of disability in violation of this subchapter or who has reasonable grounds
for believing that such person is about to
be subjected to discrimination in violation of section 12183 of this title. Nothing
in this section shall require a person with
a disability to engage in a futile gesture if
such person has actual notice that a person or organization covered by this subchapter does not intend to comply with its
provisions.
(2) Injunctive relief. In the case of violations of sections 12182(b)(2)(A)(iv) and
Section 12183(a) of this title, injunctive
relief shall include an order to alter facilities to make such facilities readily accessible to and usable by individuals with
disabilities to the extent required by this
subchapter. Where appropriate, injunctive relief shall also include requiring the
provision of an auxiliary aid or service,
modification of a policy, or provision of alternative methods, to the extent required
by this subchapter.

App. 158
(b)

Enforcement by Attorney General
(1)

Denial of rights
(A)

Duty to investigate
(i) In general. The Attorney
General shall investigate alleged
violations of this subchapter, and
shall undertake periodic reviews
of compliance of covered entities
under this subchapter.
(ii) Attorney General certification. On the application of a
State or local government, the
Attorney General may, in consultation with the Architectural
and Transportation Barriers
Compliance Board, and after
prior notice and a public hearing
at which persons, including individuals with disabilities, are provided an opportunity to testify
against such certification, certify
that a State law or local building
code or similar ordinance that
establishes accessibility requirements meets or exceeds the minimum requirements of this
chapter for the accessibility and
usability of covered facilities under this subchapter. At any enforcement proceeding under this
section, such certification by the
Attorney General shall be rebuttable evidence that such State

App. 159
law or local ordinance does meet
or exceed the minimum requirements of this chapter.
(B) Potential violation. If the Attorney General has reasonable cause to
believe that
(i) any person or group of persons is engaged in a pattern or
practice of discrimination under
this subchapter; or
(ii) any person or group of persons has been discriminated
against under this subchapter
and such discrimination raises
an issue of general public importance,
the Attorney General may commence
a civil action in any appropriate
United States district court.
(2) Authority of court. In a civil action
under paragraph (1) (B), the court
(A) may grant any equitable relief
that such court considers to be appropriate, including, to the extent required by this subchapter
(i) granting temporary, preliminary, or permanent relief;
(ii) providing an auxiliary aid
or service, modification of policy,
practice, or procedure, or alternative method; and

App. 160
(iii) making facilities readily
accessible to and usable by individuals with disabilities;
(B) may award such other relief as
the court considers to be appropriate,
including monetary damages to persons aggrieved when requested by
the Attorney General; and
(C) may, to vindicate the public interest, assess a civil penalty against
the entity in an amount
(i) not exceeding $50,000 for a
first violation; and
(ii) not exceeding $100,000 for
any subsequent violation.
(3) Single violation. For purposes of paragraph (2) (C), in determining whether
a first or subsequent violation has occurred, a determination in a single action,
by judgment or settlement, that the covered entity has engaged in more than one
discriminatory act shall be counted as a
single violation.
(4) Punitive damages. For purposes of
subsection (b) (2) (B) of this section, the
term “monetary damages” and “such
other relief ’ does not include punitive
damages.
(5) Judicial consideration. In a civil action under paragraph (1)(B), the court,
when considering what amount of civil

App. 161
penalty, if any, is appropriate, shall give
consideration to any good faith effort or
attempt to comply with this chapter by
the entity. In evaluating good faith, the
court shall consider, among other factors
it deems relevant, whether the entity
could have reasonably anticipated the
need for an appropriate type of auxiliary
aid needed to accommodate the unique
needs of a particular individual with a
disability.
Sec. 12189. Examinations and courses
Any person that offers examinations or courses related to applications, licensing, certification, or
credentialing for secondary or postsecondary education, professional, or trade purposes shall offer
such examinations or courses in a place and manner accessible to persons with disabilities or offer
alternative accessible arrangements for such individuals.
SUBCHAPTER IV – MISCELLANEOUS PROVISIONS
Sec. 12201. Construction
(a) In general. Except as otherwise provided
in this chapter, nothing in this chapter shall
be construed to apply a lesser standard than
the standards applied under title V of the Rehabilitation Act of 1973 (29 U.S.C. 790 et seq.)
or the regulations issued by Federal agencies
pursuant to such title.
(b) Relationship to other laws. Nothing in
this chapter shall be construed to invalidate
or limit the remedies, rights, and procedures

App. 162
of any Federal law or law of any State or political subdivision of any State or jurisdiction
that provides greater or equal protection for
the rights of individuals with disabilities than
are afforded by this chapter. Nothing in this
chapter shall be construed to preclude the
prohibition of, or the imposition of restrictions
on, smoking in places of employment covered
by subchapter I of this chapter, in transportation covered by subchapter II or III of this
chapter, or in places of public accommodation
covered by subchapter III of this chapter.
(c) Insurance. Subchapters I through III of
this chapter and title IV of this Act shall not
be construed to prohibit or restrict
(1) an insurer, hospital or medical service company, health maintenance organization, or any agent, or entity that
administers benefit plans, or similar organizations from underwriting risks,
classifying risks, or administering such
risks that are based on or not inconsistent
with State law; or
(2) a person or organization covered by
this chapter from establishing, sponsoring, observing or administering the terms
of a bona fide benefit plan that are based
on underwriting risks, classifying risks,
or administering such risks that are
based on or not inconsistent with State
law; or

App. 163
(3) a person or organization covered by
this chapter from establishing, sponsoring, observing or administering the terms
of a bona fide benefit plan that is not subject to State laws that regulate insurance.
Paragraphs (1), (2), and (3) shall not be
used as a subterfuge to evade the purposes of subchapter I and III of this chapter.
(d) Accommodations and services. Nothing
in this chapter shall be construed to require
an individual with a disability to accept an accommodation, aid, service, opportunity, or
benefit which such individual chooses not to
accept.
(e) Benefits under State worker’s compensation laws. Nothing in this chapter alters the
standards for determining eligibility for benefits under State worker’s compensation laws
or under State and Federal disability benefit
programs.
(f ) Fundamental alteration. Nothing in this
chapter alters the provision of section
12182(b)(2)(A)(ii), specifying that reasonable
modifications in policies, practices, or procedures shall be required, unless an entity can
demonstrate that making such modifications
in policies, practices, or procedures, including
academic requirements in postsecondary education, would fundamentally alter the nature
of the goods, services, facilities, privileges, advantages, or accommodations involved.

App. 164
(g) Claims of no disability. Nothing in this
chapter shall provide the basis for a claim by
an individual without a disability that the individual was subject to discrimination because of the individual’s lack of disability.
(h) Reasonable accommodations and modifications. A covered entity under subchapter I,
a public entity under subchapter II, and any
person who owns, leases (or leases to), or operates a place of public accommodation under
subchapter III, need not provide a reasonable
accommodation or a reasonable modification
to policies, practices, or procedures to an individual who meets the definition of disability
in section 12102(1) solely under subparagraph (C) of such section.
Sec. 12202. State immunity
A State shall not be immune under the eleventh
amendment to the Constitution of the United
States from an action in Federal or State court of
competent jurisdiction for a violation of this chapter. In any action against a State for a violation of
the requirements of this chapter, remedies (including remedies both at law and in equity) are available for such a violation to the same extent as such
remedies are available for such a violation in an
action against any public or private entity other
than a State.
Sec. 12203. Prohibition against retaliation and coercion
(a) Retaliation. No person shall discriminate
against any individual because such

App. 165
individual has opposed any act or practice
made unlawful by this chapter or because
such individual made a charge, testified, assisted, or participated in any manner in an investigation, proceeding, or hearing under this
chapter.
(b) Interference, coercion, or intimidation. It
shall be unlawful to coerce, intimidate,
threaten, or interfere with any individual in
the exercise or enjoyment of, or on account of
his or her having exercised or enjoyed, or on
account of his or her having aided or encouraged any other individual in the exercise or
enjoyment of, any right granted or protected
by this chapter.
(c) Remedies and procedures. The remedies
and procedures available under sections
12117, 12133, and 12188 of this title shall be
available to aggrieved persons for violations
of subsections (a) and (b) of this section, with
respect to subchapter I, subchapter II and
subchapter III of this chapter, respectively.
Sec. 12204. Regulations by Architectural and
Transportation Barriers Compliance Board
(a) Issuance of guidelines. Not later than 9
months after July 26, 1990, the Architectural
and Transportation Barriers Compliance
Board shall issue minimum guidelines that
shall supplement the existing Minimum
Guidelines and Requirements for Accessible
Design for purposes of subchapters ll and III
of this chapter.

App. 166
(b) Contents of guidelines. The supplemental guidelines issued under subsection (a)
of this section shall establish additional requirements, consistent with this chapter, to
ensure that buildings, facilities, rail passenger cars, and vehicles are accessible, in terms
of architecture and design, transportation,
and communication, to individuals with disabilities.
(c)

Qualified historic properties
(1) In general. The supplemental guidelines issued under subsection (a) of this
section shall include procedures and requirements for alterations that will
threaten or destroy the historic significance of qualified historic buildings and
facilities as defined in 4.1.7(1)(a) of the
Uniform Federal Accessibility Standards.
(2) Sites eligible for listing in National
Register. With respect to alterations of
buildings or facilities that are eligible for
listing in the National Register of Historic Places under the National Historic
Preservation Act (16 U.S.C. 470 et seq.),
the guidelines described in paragraph (1)
shall, at a minimum, maintain the procedures and requirements established in
4.1.7(1) and (2) of the Uniform Federal
Accessibility Standards.
(3) Other sites. With respect to alterations of buildings or facilities designated
as historic under State or local law, the
guidelines described in paragraph (1)

App. 167
shall establish procedures equivalent to
those established by 4.1.7(1)(b) and (c) of
the Uniform Federal Accessibility Standards, and shall require, at a minimum,
compliance with the requirements established in 4.1.7(2) of such standards.
Sec. 12205. Attorneys fees
In any action or administrative proceeding commenced pursuant to this chapter, the court or
agency, in its discretion, may allow the prevailing
party, other than the United States, a reasonable
attorneys fee, including litigation expenses, and
costs, and the United States shall be liable for the
foregoing the same as a private individual.
Sec. 12205a. Rule of Construction Regarding Regulatory Authority
The authority to issue regulations granted to the
Equal Employment Opportunity Commission, the
Attorney General, and the Secretary of Transportation under this chapter includes the authority to
issue regulations implementing the definitions of
disability in section 12102 (including rules of construction) and the definitions in section 12103,
consistent with the ADA Amendments Act of 2008.
Sec. 12206. Technical assistance
(a)

Plan for assistance
(1) In general. Not later than 180 days
after July 26, 1990, the Attorney General,
in consultation with the Chair of the
Equal Employment Opportunity Commission, the Secretary of Transportation,

App. 168
the Chair of the Architectural and Transportation Barriers Compliance Board,
and the Chairman of the Federal Communications Commission, shall develop a
plan to assist entities covered under this
chapter, and other Federal agencies, in
understanding the responsibility of such
entities and agencies under this chapter.
(2) Publication of plan. The Attorney
General shall publish the plan referred to
in paragraph (1) for public comment in
accordance with subchapter II of chapter
5 of title 5 (commonly known as the Administrative Procedure Act).
(b) Agency and public assistance. The Attorney General may obtain the assistance of
other Federal agencies in carrying out subsection (a) of this section, including the National
Council on Disability, the President’s Committee on Employment of People with Disabilities, the Small Business Administration, and
the Department of Commerce.
(c)

Implementation
(1) Rendering assistance. Each Federal
agency that has responsibility under paragraph (2) for implementing this chapter
may render technical assistance to individuals and institutions that have rights
or duties under the respective subchapter
or subchapters of this chapter for which
such agency has responsibility.
(2)

Implementation of subchapters

App. 169
(A) Subchapter I. The Equal Employment Opportunity Commission
and the Attorney General shall implement the plan for assistance developed under subsection (a) of this
section, for subchapter I of this chapter.
(B)

Subchapter II
(i) Part A. The Attorney General shall implement such plan
for assistance for part A of subchapter II of this chapter.
(ii) Part B. The Secretary of
Transportation shall implement
such plan for assistance for part
B of subchapter II of this chapter.

(C) Subchapter III. The Attorney
General, in coordination with the
Secretary of Transportation and the
Chair of the Architectural Transportation Barriers Compliance Board,
shall implement such plan for assistance for subchapter III of this chapter, except for section 12184 of this
title, the plan for assistance for
which shall be implemented by the
Secretary of Transportation.
(D) Title IV. The Chairman of the
Federal Communications Commission, in coordination with the Attorney General, shall implement such
plan for assistance for title IV.

App. 170
(3) Technical assistance manuals. Each
Federal agency that has responsibility
under paragraph (2) for implementing
this chapter shall, as part of its implementation responsibilities, ensure the
availability and provision of appropriate
technical assistance manuals to individuals or entities with rights or duties under
this chapter no later than six months after applicable final regulations are published under subchapters I, II, and III of
this chapter and title IV.
(d)

Grants and contracts
(1) In general. Each Federal agency that
has responsibility under subsection (2) of
this section for implementing this chapter may make grants or award contracts
to effectuate the purposes of this section,
subject to the availability of appropriations. Such grants and contracts may be
awarded to individuals, institutions not
organized for profit and no part of the net
earnings of which inures to the benefit of
any private shareholder or individual (including educational institutions), and associations representing individuals who
have rights or duties under this chapter.
Contracts may be awarded to entities organized for profit, but such entities may
not be the recipients or grants described
in this paragraph.
(2) Dissemination of information. Such
grants and contracts, among other uses,

App. 171
may be designed to ensure wide dissemination of information about the rights
and duties established by this chapter
and to provide information and technical
assistance about techniques for effective
compliance with this chapter.
(e) Failure to receive assistance. An employer, public accommodation, or other entity
covered under this chapter shall not be excused from compliance with the requirements
of this chapter because of any failure to receive technical assistance under this section,
including any failure in the development or
dissemination of any technical assistance
manual authorized by this section.
Sec. 12207. Federal wilderness areas
(a) Study. The National Council on Disability shall conduct a study and report on the
effect that wilderness designations and wilderness land management practices have on
the ability of individuals with disabilities to
use and enjoy the National Wilderness
Preservation System as established under the
Wilderness Act (16 U.S.C. 1131 et seq.).
(b) Submission of report. Not later than 1
year after July 26, 1990, the National Council
on Disability shall submit the report required
under subsection (a) of this section to Congress.
(c)

Specific wilderness access
(1) In general. Congress reaffirms that
nothing in the Wilderness Act (16 U.S.C.

App. 172
1131 et seq.) is to be construed as prohibiting the use of a wheelchair in a wilderness area by an individual whose
disability requires use of a wheelchair,
and consistent with the Wilderness Act
no agency is required to provide any form
of special treatment or accommodation,
or to construct any facilities or modify
any conditions of lands within a wilderness area in order to facilitate such use.
(2) “Wheelchair” defined. For purposes
of paragraph (1), the term “wheelchair
means a device designed solely for use by
a mobility-impaired person for locomotion, that is suitable for use in an indoor
pedestrian area.
Sec. 12208. Transvestites
For the purposes of this chapter, the term “disabled” or “disability” shall not apply to an individual solely because that individual is a
transvestite.
Sec. 12209. Instrumentalities of Congress
The General Accounting Office, the Government
Printing Office, and the Library of Congress shall
be covered as follows:
(1) In general. The rights and protections under this chapter shall, subject to
paragraph (2), apply with respect to the
conduct of each instrumentality of the
Congress.

App. 173
(2) Establishment of remedies and procedures by instrumentalities. The chief
official of each instrumentality of the
Congress shall establish remedies and
procedures to be utilized with respect to
the rights and protections provided pursuant to paragraph (1).
(3) Report to Congress. The chief official
of each instrumentality of the Congress
shall, after establishing remedies and
procedures for purposes of paragraph (2),
submit to the Congress a report describing the remedies and procedures.
(4) Definition of instrumentalities. For
purposes of this section, the term “instrumentality of the Congress” means the following: the General Accounting Office,
the Government Printing Office, and the
Library of Congress.
(5) Enforcement of employment rights.
The remedies and procedures set forth
in section 2000e-16 of this title shall be
available to any employee of an instrumentality of the Congress who alleges a
violation of the rights and protections under sections 12112 through 12114 of this
title that are made applicable by this section, except that the authorities of the
Equal Employment Opportunity Commission shall be exercised by the chief
official of the instrumentality of the Congress.

App. 174
(6) Enforcement of rights to public services and accommodations. The remedies
and procedures set forth in section 2000e
-16 of this title shall be available to any
qualified person with a disability who is a
visitor, guest, or patron of an instrumentality of Congress and who alleges a violation of the rights and protections under
sections 12131 through 12150 of this title
or section 12182 or 12183 of this title that
are made applicable by this section, except that the authorities of the Equal Employment Opportunity Commission shall
be exercised by the chief official of the instrumentality of the Congress.
(7) Construction. Nothing in this section
shall alter the enforcement procedures
for individuals with disabilities provided
in the General Accounting Office Personnel Act of 1980 and regulations promulgated pursuant to that Act.
Sec. 12210. Illegal use of drugs
(a) In general. For purposes of this chapter,
the term “individual with a disability” does
not include an individual who is currently engaging in the illegal use of drugs, when the
covered entity acts on the basis of such use.
(b) Rules of construction. Nothing in subsection (a) of this section shall be construed to exclude as an individual with a disability an
individual who

App. 175
(1) has successfully completed a supervised drug rehabilitation program and is
no longer engaging in the illegal use of
drugs, or has otherwise been rehabilitated successfully and is no longer engaging in such use;
(2) is participating in a supervised rehabilitation program and is no longer engaging in such use; or
(3) is erroneously regarded as engaging
in such use, but is not engaging in such
use;
except that it shall not be a violation of
this chapter for a covered entity to adopt
or administer reasonable policies or procedures, including but not limited to drug
testing, designed to ensure that an individual described in paragraph (1) or (2) is
no longer engaging in the illegal use of
drugs; however, nothing in this section
shall be construed to encourage, prohibit,
restrict, or authorize the conducting of
testing for the illegal use of drugs.
(c) Health and other services. Notwithstanding subsection (a) of this section and section
12211(b)(3) of this subchapter, an individual
shall not be denied health services, or services
provided in connection with drug rehabilitation, on the basis of the current illegal use of
drugs if the individual is otherwise entitled to
such services.

App. 176
(d)

“Illegal use of drugs” defined
(1) In general. The term “illegal use of
drugs” means the use of drugs, the possession or distribution of which is unlawful under the Controlled Substances Act
(21 U.S.C. 801 et seq.). Such term does not
include the use of a drug taken under supervision by a licensed health care professional, or other uses authorized by the
Controlled Substances Act or other provisions of Federal law.
(2) Drugs. The term “drug” means a controlled substance, as defined in schedules
I through V of section 202 of the Controlled Substances Act (21 U.S.C. 812).

Sec. 12211. Definitions
(a) Homosexuality and bisexuality. For purposes of the definition of “disability” in section
12102(2) of this title, homosexuality and bisexuality are not impairments and as such
are not disabilities under this chapter.
(b) Certain conditions. Under this chapter,
the term “disability” shall not include
(1) transvestism, transsexualism, pedophilia, exhibitionism, voyeurism, gender
identity disorders not resulting from
physical impairments, or other sexual behavior disorders;
(2) compulsive gambling, kleptomania,
or pyromania; or

App. 177
(3) psychoactive substance use disorders resulting from current illegal use of
drugs. Sec. 12212. Alternative means of
dispute resolution
Where appropriate and to the extent authorized
by law, the use of alternative means of dispute
resolution, including settlement negotiations,
conciliation, facilitation, mediation, fact-finding,
minitrials, and arbitration, is encouraged to resolve disputes arising under this chapter.
Sec. 12213. Severability
Should any provision in this chapter be found to
be unconstitutional by a court of law, such provision shall be severed from the remainder of the
chapter, and such action shall not affect the enforceability of the remaining provisions of the
chapter.
TITLE 47 – TELEGRAPHS, TELEPHONES, AND
RADIOTELEGRAPHS
CHAPTER 5 – WIRE OR RADIO COMMUNICATION
SUBCHAPTER ll – COMMON CARRIERS
Part I – Common Carrier Regulation
Sec. 225. Telecommunications services for hearing-impaired and speech-impaired individuals
(a)

Definitions. As used in this section
(1) Common carrier or carrier. The term
“common carrier” or “carrier” includes
any common carrier engaged in interstate communication by wire or radio as

App. 178
defined in section 153 of this title and any
common carrier engaged in intrastate
communication by wire or radio, notwithstanding sections 152(a) and 221(a) of
this title.
(2) TDD. The term “TDD” means a Telecommunications Device for the Deaf
which is a machine that employs graphic
communication in the transmission of
coded signals through a wire or radio
communication system.
(3) Telecommunications relay services.
The term “telecommunications relay services” means telephone transmission services that provide the ability for an
individual who has a hearing impairment
or speech impairment to engage in communication by wire or radio with a hearing individual in a manner that is
functionally equivalent to the ability of
an individual who does not have a hearing impairment or speech impairment to
communicate using voice communication
services by wire or radio. Such term includes services that enable two-way communication between an individual who
uses a TDD or other nonvoice terminal
device and an individual who does not use
such a device.
(b) Availability of telecommunications relay
services
(1) In general. In order to carry out the
purposes established under section 151 of

App. 179
this title, to make available to all individuals in the United States a rapid, efficient
nationwide communication service, and
to increase the utility of the telephone
system of the Nation, the Commission
shall ensure that interstate and intrastate telecommunications relay services
are available, to the extent possible and
in the most efficient manner, to hearingimpaired and speech-impaired individuals in the United States.
(2) Use of general authority and remedies. For the purposes of administering
and enforcing the provisions of this section and the regulations prescribed thereunder, the Commission shall have the
same authority, power, and functions with
respect to common carriers engaged in intrastate communication as the Commission has in administering and enforcing
the provisions of this subchapter with respect to any common carrier engaged in
interstate communication. Any violation
of this section by any common carrier engaged in intrastate communication shall
be subject to the same remedies, penalties, and procedures as are applicable to a
violation of this chapter by a common carrier engaged in interstate communication.
(c) Provision of services. Each common carrier providing telephone voice transmission
services shall, not later than 3 years after
July 26, 1990, provide in compliance with the

App. 180
regulations prescribed under this section,
throughout the area in which it offers service,
telecommunications relay services, individually, through designees, through a competitively selected vendor, or in concert with other
carriers. A common carrier shall be considered
to be in compliance with such regulations
(1) with respect to intrastate telecommunications relay services in any State
that does not have a certified program under subsection (f ) of this section and with
respect to interstate telecommunications
relay services, if such common carrier (or
other entity through which the carrier is
providing such relay services) is in compliance with the Commission’s regulations under subsection (d) of this section;
or
(2) with respect to intrastate telecommunications relay services in any State
that has a certified program under subsection (f ) of this section for such State, if
such common carrier (or other entity
through which the carrier is providing
such relay services) is in compliance with
the program certified under subsection
(f ) of this section for such State.
(d)

Regulations
(1) In general. The Commission shall,
not later than 1 year after July 26, 1990,
prescribe regulations to implement this
section, including regulations that

App. 181
(A) establish functional requirements, guidelines, and operations
procedures for telecommunications
relay services;
(B) establish minimum standards
that shall be met in carrying out subsection (c) of this section;
(C) require that telecommunications relay services operate every day
for 24 hours per day;
(D) require that users of telecommunications relay services pay rates
no greater than the rates paid for
functionally equivalent voice communication services with respect to
such factors as the duration of the
call, the time of day, and the distance
from point of origination to point of
termination;
(E) prohibit relay operators from
failing to fulfill the obligations of
common carriers by refusing calls or
limiting the length of calls that use
telecommunications relay services;
(F) prohibit relay operators from
disclosing the content of any relayed
conversation and from keeping records of the content of any such conversation beyond the duration of the
call; and

App. 182
(G) prohibit relay operators from
intentionally altering a relayed conversation.
(2) Technology. The Commission shall
ensure that regulations prescribed to implement this section encourage, consistent with section 157(a) of this title,
the use of existing technology and do not
discourage or impair the development of
improved technology.
(3)

Jurisdictional separation of costs
(A) In general. Consistent with the
provisions of section 410 of this title,
the Commission shall prescribe regulations governing the jurisdictional
separation of costs for the services
provided pursuant to this section.
(B) Recovering costs. Such regulations shall generally provide that
costs caused by interstate telecommunications relay services shall be
recovered from all subscribers for
every interstate service and costs
caused by intrastate telecommunications relay services shall be recovered from the intrastate jurisdiction.
In a State that has a certified program under subsection (f ) of this section, a State commission shall permit
a common carrier to recover the costs
incurred in providing intrastate telecommunications relay services by a

App. 183
method consistent with the requirements of this section.
(e)

Enforcement
(1) In general. Subject to subsections (f )
and (g) of this section, the Commission
shall enforce this section.
(2) Complaint. The Commission shall
resolve, by final order, a complaint alleging a violation of this section within 180
days after the date such complaint is
filed.

(f )

Certification
(1) State documentation. Any State desiring to establish a State program under
this section shall submit documentation
to the Commission that describes the
program of such State for implementing
intrastate telecommunications relay services and the procedures and remedies
available for enforcing any requirements
imposed by the State program.
(2) Requirements for certification. After
review of such documentation, the Commission shall certify the State program if
the Commission determines that
(A) the program makes available
to hearing-impaired and speechimpaired individuals, either directly,
through designees, through a competitively selected vendor, or through
regulation of intrastate common

App. 184
carriers, intrastate telecommunications relay services in such State in a
manner that meets or exceeds the requirements of regulations prescribed
by the Commission under subsection
(d) of this section; and
(B) the program makes available
adequate procedures and remedies
for enforcing the requirements of the
State program.
(3) Method of funding. Except as provided in subsection (d) of this section, the
Commission shall not refuse to certify a
State program based solely on the
method such State will implement for
funding intrastate telecommunication relay services.
(4) Suspension or revocation of certification. The Commission may suspend or revoke such certification if, after notice and
opportunity for hearing, the Commission
determines that such certification is no
longer warranted. In a State whose program has been suspended or revoked, the
Commission shall take such steps as may
be necessary, consistent with this section,
to ensure continuity of telecommunications relay services.
(g)

Complaint
(1) Referral of complaint. If a complaint
to the Commission alleges a violation of
this section with respect to intrastate

App. 185
telecommunications relay services within
a State and certification of the program of
such State under subsection (f ) of this
section is in effect, the Commission shall
refer such complaint to such State.
(2) Jurisdiction of Commission. After referring a complaint to a State under paragraph (1), the Commission shall exercise
jurisdiction over such complaint only if
(A) final action under such State
program has not been taken on such
complaint by such State
(i) within 180 days after the
complaint is filed with such
State; or
(ii) within a shorter period as
prescribed by the regulations of
such State; or
(B) the Commission determines
that such State program is no longer
qualified for certification under subsection (f ) of this section.
TITLE 47 – TELEGRAPHS, TELEPHONES, AND
RADIOTELEGRAPHS CHAPTER 5 – WIRE OR RADIO COMMUNICATION
SUBCHAPTER VI – MISCELLANEOUS PROVISIONS
Sec. 611. Closed-captioning of public service announcements
Any television public service announcement that
is produced or funded in whole or in part by any

App. 186
agency or instrumentality of Federal Government
shall include closed captioning of the verbal content of such announcement. A television broadcast
station licensee
(1) shall not be required to supply closed
captioning for any such announcement
that fails to include it; and
(2) shall not be liable for broadcasting
any such announcement without transmitting a closed caption unless the licensee intentionally fails to transmit the
closed caption that was included with the
announcement.

App. 187
Rule 708. Committee on Character and Fitness
(a) At the November term in each year, the Supreme
Court shall appoint a Committee on Character and Fitness in each of the judicial districts of this state, comprised of Illinois lawyers. In the First Judicial District
the committee shall consist of no fewer than 30 members of the bar, and in the Second, Third, Fourth and
Fifth Judicial Districts, each committee shall consist of
no fewer than 15 members of the bar. Unless the Court
specifies a shorter term, all members shall be appointed for staggered three-year terms and shall serve
until their successors are duly appointed and qualified.
No member may be appointed to more than three full
consecutive terms. Vacancies for any cause shall be
filled by appointment of the Court for the unexpired
term. The Court shall appoint a chairperson and a
vice-chairperson for each committee. The chairperson
may serve only one three-year term. The members of
the Board of Admissions to the Bar shall be ex-officio
members of the committees and are authorized to
serve as members of hearing panels of any committee.
(b) Pursuant to the Rules of Procedure for the Board
of Admissions to the Bar and the Committees on Character and Fitness, the eCommittee shall determine
whether each law student registrant and applicant
presently possesses good moral character and general
fitness for admission to the practice of law. An registrant or applicant may be so recommended if the committee determines that his or her record of conduct
demonstrates that he or she meets the essential eligibility requirements for the practice of law and justifies

App. 188
the trust of clients, adversaries, courts and others with
respect to the professional duties owed to them. A record manifesting a failure to meet the essential eligibility requirements, including a deficiency in the honesty,
trustworthiness, diligence, or reliability of an registrant or applicant, may constitute a basis for denial of
admission.
(c) The essential eligibility requirements for the
practice of law include the following: (1) the ability to
learn, to recall what has been learned, to reason, and
to analyze; (2) the ability to communicate clearly and
logically with clients, attorneys, courts, and others; (3)
the ability to exercise good judgment in conducting
one’s professional business; (4) the ability to conduct
oneself with a high degree of honesty, integrity, and
trustworthiness in all professional relationships and
with respect to all legal obligations; (5) the ability to
conduct oneself with respect for and in accordance with
the law and the Illinois Rules of Professional Conduct;
(6) the ability to avoid acts that exhibit disregard for
the health, safety, and welfare of others; (7) the ability
to conduct oneself diligently and reliably in fulfilling
all obligations to clients, attorneys, courts, creditors,
and others; (8) the ability to use honesty and good judgment in financial dealings on behalf of oneself, clients,
and others; (9) the ability to comply with deadlines and
time constraints; and (10) the ability to conduct oneself
properly and in a manner that engenders respect for
the law and the profession.
(d) If required by the Committee or its Rules of Procedure, each law student registrant and applicant

App. 189
shall appear before the committee of his or her district
or some member thereof and shall furnish the committee such evidence of his or her good moral character
and general fitness to practice law as in the opinion of
the committee would justify his or her admission to the
bar.
(e) At all times prior to his or her admission to the
bar of this state, each law student registrant and applicant is under a continuing duty to supplement and
continue to report fully and completely to the Board of
Admissions to the Bar and to the Committee on Character and Fitness all information required to be disclosed pursuant to any and all application documents
and such further inquiries prescribed by the Board and
the Committee.
(f ) If the eCommittee is of the opinion that the law
student registrant or applicant is of good moral character and general fitness to practice law, it shall so certify to the Board of Admissions to the Bar, and the
Board shall transmit such certification to the Court together with any additional information or recommendation the Board deems appropriate when all other
admission requirements have been met. If the eCommittee is not of that opinion, it shall file with the Board
of Admissions to the Bar a statement that it cannot so
certify, together with a report of its findings and conclusions.
(g) Character and Fitness certification is valid for
nine months from the date of certification. An applicant who has been so certified and who has not been

App. 190
admitted to practice within nine months must be recertified after filing the requisite character and fitness
registration and paying the fee therefor in accordance
with Rule 706.
(g)(h) An law student registrant or applicant who
has availed himself or herself of his or her full hearing
rights before the Committee on Character and Fitness
and who deems himself or herself aggrieved by the determination of the committee may, on notice to the
committee by service upon the Director of Administration for the Board of Admissions in Springfield, petition the Supreme Court for review within 35 days after
service of the Committee’s decision upon the law student registrant or applicant, and, unless extended for
good cause shown, the Committee shall have 28 days
to respond. The director shall file the record of the
hearing with the Supreme Court at the time that the
response of the Committee is filed.
Amended effective November 15, 1971, and October 2, 1972; amended April 10, 1987, effective August 1, 1987; amended June 12, 1992, effective
July 1, 1992; amended April 4, 1995, effective
immediately; amended November 22, 2000, effective December 1, 2000; amended December 6,
2001, effective immediately; amended October 2,
2006, effective July 1, 2007; amended Nov. 26,
2013, effective Jan. 1, 2014.

App. 191
BEFORE THE CHARACTER AND FITNESS
COMMITTEE OF THE ILLINOIS BOARD
OF ADMISSIONS TO THE BAR
FOR THE FIFTH DISTRICT
In the Matter of:
THOMAS J. SKELTON,
Applicant.
AFFIDAVIT OF LESLIE WOLOWITZ, Ph.D.
(Filed Aug. 30, 2019)
Leslie Wolowitz, Ph.D, hereby states, under penalty of perjury:
1. Affiant is a clinical psychologist who has been
treating Applicant since April 2018. A true and correct
copy of Affiant’s curriculum vitae was submitted to the
Hearing Panel in this matter on July 15, 2019.
2. Affiant is aware that the Hearing Panel has
inquired whether it is critical to Applicant’s ongoing
treatment that he disclose his mental health status or
history to others. Specifically, Affiant is aware that
the Hearing Panel has inquired whether such disclosures would be helpful or essential to the process of
Applicant engaging in “socialization,” i.e., seeking and
maintaining appropriate personal and professional relationships.
3. Affiant has not reviewed a transcript of her
testimony at the July 15, 2019 hearing in this matter.
She believes, however, that she testified that

App. 192
“socialization” would be a positive part of Applicant’s
recovery, in that it would assist him in avoiding isolation. Affiant believes that she testified that isolation
can be problematic for patients like Applicant, because
it can encourage the development of paranoid thinking.
4. Affiant is of the opinion, to a reasonable degree of clinical and psychological certainty, that the
“socialization” she referred to in her testimony does not
include, or should not include, a requirement or suggestion that Applicant inform others of his mental status or mental health history.
5. Affiant is of the opinion, to a reasonable degree of clinical and psychological certainty, that Applicant would not derive a benefit from disclosing his
mental status or mental health history to anyone in his
social networks or circles, or to anyone else in his personal or professional lives.
6. Affiant is of the opinion, to a reasonable degree of clinical and psychological certainty, that the
“socialization” that would benefit Applicant would involve simply having social relationships of different
kinds, with individuals or with groups. Those individuals or groups would not need to have any knowledge
of Applicant’s mental status or mental health history
in order to be of benefit to Applicant Forming and
maintaining still more of those relationships than Applicant already has would assist him in observing and
relating to others, in avoiding isolation, and in realistically gauging his own actions and reactions. Positive
relationships built on mutual affection, admiration,

App. 193
and respect would also simply and naturally elevate
Applicant’s mood, which would also have therapeutic
value to Applicant.
7. Affiant is further of the opinion, to a reasonable degree of clinical and psychological certainty, that
while Affiant maintains and grows his social support
and relationships, his ongoing relationships with his
trusted therapist and psychiatrist are likely the most
important source of mitigating social isolation, and
they form further secure bases to grow intimate relationships.
8. Affiant is of the opinion, to a reasonable degree of clinical and psychological certainty, that for Applicant to undertake to disclose his mental status or
mental health history to others in his social networks
or circles could be actively harmful to his progress in
treatment, and to his prognosis overall. Disclosures of
that kind could produce negative reactions in others,
including the expression of harmful stereotypes or
other forms of stigma toward or about those who suffer
from mental health conditions. Social or professional
contacts could harbor a bias against those who suffer
from mental health conditions, which could be deleterious to Applicant whether or not that bias is actively
or verbally expressed. For Applicant to encounter such
negative reactions – either immediately or over time –
could produce setbacks in his treatment, in that his
perception of them could lead to the feelings and conditions that can produce delusional thinking, including
suspicion, paranoia, fear, and vulnerability.

App. 194
9. Affiant is of the opinion, to a reasonable degree of clinical and psychological certainty, that Applicant specifically would be at risk of experiencing
setbacks in his treatment if he were to disclose his
mental status or mental health history to others in his
personal or professional circles.
10. Affiant is of the opinion, to a reasonable degree of clinical and psychological certainty, that Applicant currently has the appropriate mental competency
and capacity to practice law, and that he is presently
actively engaged in a course of treatment that enhances his ability to maintain that competency and capacity.
11. Affiant is of the opinion, to a reasonable degree of clinical and psychological certainty, that Applicant’s competency and capacity to practice law would
not be enhanced by any requirement or suggestion
that he inform others in his social or professional circles of his mental status or his mental health history.
12. Affiant has not reviewed or observed any fact
or matter in the course of her treatment of Applicant,
or in the course of her preparation for and participation in the hearing in this matter, that would cause her
to alter the opinions and statements expressed in the
instant Affidavit.
FURTHER AFFIANT SAYETH NOUGHT.
Under penalties as provided by law pursuant to
Section 1-109 of the Illinois Code of Civil Procedure,

App. 195
the undersigned certifies that the statements set forth
in this instrument are true and correct, except as to
matters therein stated to be on information and belief,
and as to such matters, the undersigned certifies as
aforesaid that she verily believes the same to be true.
/s/ Leslie Wolowitz, Ph.D.
BY: Leslie Wolowitz, Ph.D.
Affiant
Date: 8/30/19

App. 196
BEFORE THE CHARACTER AND FITNESS
COMMITTEE OF THE ILLINOIS BOARD
OF ADMISSIONS TO THE BAR
FOR THE FIRST DISTRICT
In the Matter of:
THOMAS J. SKELTON,
Applicant.
AFFIDAVIT OF DR. CHARLES TURK
(Filed Aug. 5, 2019)
Charles Turk, M.D, hereby states, under penalty
of perjury:
1. Affiant is a psychiatrist who has been seeing
Applicant since September 2018. A true and correct
copy of Affiant’s curriculum vitae was submitted to the
Hearing Panel in this matter on July 15, 2019.
2. Affiant is aware that the Hearing Panel has
inquired whether it is critical to Applicant’s ongoing
treatment that he disclose his mental health status or
history to others. Specifically, Affiant is aware that
the Hearing Panel has inquired whether such disclosures would be helpful or essential to the process of
Applicant engaging in “socialization,” i.e., seeking and
maintaining appropriate personal and professional
relationships.
3. Affiant is of the opinion, to a reasonable degree of medical and psychiatric certainty, that any “socialization” in which Applicant engages does not and

App. 197
should not include a requirement or suggestion that
Applicant inform others of his mental status or mental
health history.
4. Affiant is of the opinion, to a reasonable degree of medical and psychiatric certainty, that Applicant would not derive a benefit from disclosing his
mental status or mental health history to anyone in his
social networks or circles, or to anyone else in his personal or professional lives.
5. Affiant is of the opinion, to a reasonable degree of medical and psychiatric certainty, that the “socialization” that would benefit Applicant would involve
simply having social relationships of different kinds,
with individuals or with groups. Those individuals or
groups would not need or be expected to have any
knowledge of Applicant’s mental status or mental
health history in order to be of benefit to Applicant
6. Affiant is of the opinion, to a reasonable degree of medical and psychiatric certainty, that for Applicant to undertake to disclose his mental status or
mental health history to others in his social networks
or circles might result in his encountering negative reactions in others, including the expression of harmful
stereotypes or other forms of stigma toward or about
those who suffer from mental health conditions. That,
in turn, could cause Applicant to feel stress or fear,
which could trigger symptoms of delusional disorder.
Any expressions of stigma toward Applicant could also
make him feel more isolated, undermining or negating
the main benefit that socializing can provide.

App. 198
7. Affiant is further of the opinion, to a reasonable degree of medical and psychiatric certainty, that
Applicant’s ability to avoid telling others about his
mental status, mental health history, or delusions he
has experienced is itself evidence of Affiant’s good
judgment and his positive response to treatment. Some
patients who suffer from delusional disorder or other
similar disorders have difficulty restraining themselves from telling others, even strangers, about their
mental status or their delusional episodes. Affiant is
not aware of incidents in which Applicant has done so,
and Affiant regards that as a positive sign.
8. Affiant is of the opinion, to a reasonable degree of medical and psychiatric certainty, that Applicant specifically would be at risk of experiencing
setbacks in his treatment if he were to disclose his
mental status or mental health history to others in his
personal or professional circles. Affiant is further of the
opinion, to a reasonable degree of medical and psychiatric certainty, that situations may arise in which Affiant feels it would be appropriate to disclose some or all
of his mental health history to another person, e.g., to
an intimate partner. However, Affiant believes that
such disclosures should be at Applicant’s discretion,
and should not be deemed to be required or to be a critical part of Applicant’s treatment.
9. Affiant is of the opinion, to a reasonable degree of medical and psychiatric certainty, that Applicant currently has the appropriate mental competency
and capacity to practice law, and that he is presently
actively engaged in a course of treatment that

App. 199
enhances his ability to maintain that competency and
capacity.
10. Affiant is of the opinion, to a reasonable degree of medical and psychiatric certainty, that Applicant’s competency and capacity to practice law would
not be enhanced by any requirement or suggestion
that he inform others in his social or professional circles of his mental status or his mental health history.
11. Affiant has not reviewed or observed any fact
or matter in the course of his treatment of Applicant,
or in the course of his preparation for and participation
in the hearing in this matter, that would cause him to
alter the opinions and statements expressed in the instant Affidavit.
FURTHER AFFIANT SAYETH NOUGHT.
Under penalties as provided by law pursuant to
Section 1-109 of the Illinois Code of Civil Procedure,
the undersigned certifies that the statements set forth
in this instrument are true and correct, except as to
matters therein stated to be on information and belief,
and as to such matters, the undersigned certifies as
aforesaid that he verily believes the same to be true.
/s/ Charles Turk, M.D.
BY: Charles Turk, M.D.
Affiant
Date: August 5, 2019

App. 200
IN THE
SUPREME COURT OF ILLINOIS

In re the Application for Admission to the
Bar of Illinois of
THOMAS JOSEPH SKELTON,
Applicant.

Supreme Court M.R.
No. 30118

PETITION PURSUANT TO
SUPREME COURT RULE 708(h)
-----------------------------------------------------------------------

(Filed Nov. 19, 2019)
James A. Doppke, Jr.
Robinson, Stewart, Montgomery &
Doppke
321 S. Plymouth Court, 14th Floor
Chicago, IL 60604
Counsel for Mr. Skelton
ORAL ARGUMENT REQUESTED
E-FILED
11/19/2019 11:41 AM
Carolyn Taft Grosboll
SUPREME COURT CLERK

App. 201
IN THE
SUPREME COURT OF ILLINOIS

In re the Application for Admission to the
Bar of Illinois of
THOMAS JOSEPH SKELTON,
Applicant.

Supreme Court M.R.
No. 30118

PETITION PURSUANT TO
SUPREME COURT RULE 708(h)
Thomas Joseph Skelton, Applicant to the Bar of
the State of Illinois, by his attorney, James A. Doppke,
Jr., pursuant to Illinois Supreme Court Rule 708(h),
hereby respectfully requests that this Court provide
him relief from the determination of the Committee on
Character and Fitness not to certify him for admission
to the Bar and direct that Mr. Skelton be certified for
admission.
INTRODUCTION
1. A Hearing Panel of the Committee on Character and Fitness conducted a hearing on Mr. Skelton’s
application for admission to the Illinois Bar on July 15,
2019. On October 10, 2019, the Hearing Panel rendered its Findings and Conclusions. (Appendix 1) A
majority of the Panel declined to recommend that Mr.
Skelton be certified for admission, with two members
filing a dissent.

App. 202
SUMMARY OF REASONS FOR RELIEF
2. Mr. Skelton is a young man who, during and
after law school, struggled with delusional disorder. He
attempted to seek treatment, but he was not able to
find an effective course of treatment until 2018. While
untreated and undertreated, Mr. Skelton experienced
symptoms including paranoid thoughts, hearing
voices, and anxiety. Because of those symptoms, he
acted in ways he should not have. On four occasions in
2015 and 2016, he behaved inappropriately while on
his law school campus, never harming anyone but
causing disturbances by yelling at himself and, in one
brief instance, at a school employee.
3. After he applied to the Bar, Mr. Skelton sent
lengthy emails to Board of Admissions staff and to Inquiry Panel members. In those emails, Mr. Skelton regrettably allowed his paranoid delusions to come to the
fore. He impugned the integrity of the Board and the
Inquiry Panel, and he argued that he was being singled
out for prejudicial treatment. He used charged terminology comparing himself to political dissidents, and
he suggested that the Board was using repressive tactics against him. Mr. Skelton would not have written
or sent those emails but for his delusional disorder,
which was not being treated properly. At hearing, Mr.
Skelton apologized clearly, thoroughly, and sincerely
for his conduct, and he demonstrated his recognition
that it was both delusional and wrong.
4. The Inquiry Panel assigned to Mr. Skelton’s
case declined to certify him for admission, although it

App. 203
commended him for his candor and for his then-recent
efforts to obtain comprehensive and effective treatment. That treatment involved, for the first time, the
prescription of anti-psychotic medication. The uncontested evidence in this matter displays the many ways
in which treatment has helped Mr. Skelton, and in
which it has prevented any recurrence of the conduct
that brought him to the attention of the Committee.
5. The Majority’s decision erroneously and arbitrarily disregards the powerful and unrebutted evidence of Mr. Skelton’s present fitness to practice law. It
relies on mischaracterizations and misreadings of the
testimony at hearing in this matter, and it ignores
large amounts of unimpeached evidence in order to
reach conclusions adverse to Mr. Skelton. In doing so,
it contravenes Mr. Skelton’s rights under this Court’s
precedent, the Americans with Disabilities Act, and
the United States Constitution.
6. Mr. Skelton respectfully requests that this
Court decline to accept the majority’s recommendation,
and instead adopt the recommendation of the dissent
and direct that he be certified for admission.
FINDINGS AND CONCLUSIONS
OF THE HEARING PANEL
I.

STATEMENT OF FACTS
A.

Procedural Posture

7. This matter comes before this Court on Mr.
Skelton’s 2017 application for admission to the bar.

App. 204
That application, along with Mr. Skelton’s later supplement, is contained in the Character & Fitness file
(hereinafter “CF”), and was admitted into evidence at
the hearing in this matter. Also admitted in evidence
were the curriculum vitae of Dr. Charles Turk and
Leslie Wolowitz, Mr. Skelton’s mental health treatment providers. Further, pursuant to a post-hearing
request for information from the Hearing Panel, Mr.
Skelton submitted the further affidavits of Drs. Turk
and Wolowitz. Those affidavits were entered into evidence as well.
8. A copy of the Findings and Conclusions of the
Hearing Panel is attached hereto as Appendix 1. A copy
of the transcript of the July 15, 2019 hearing is attached as Appendix 2, and referred to hereinafter as
“Tr.”
B.

Mr. Skelton’s Background

9. Mr. Skelton graduated from St. Louis University in 2010 with a degree in history and philosophy.
After working for AmeriCorps and in construction for
a few years, he attended John Marshall Law School
(“JMLS”). Tr. 148. He graduated from JMLS in June
2017. Appendix 1, at 1. He passed the July 2017 bar
examination. Id.
C.

Conduct at JMLS

10. On four occasions while attending JMLS,
Mr. Skelton engaged in behavior that caused a

App. 205
disturbance at JMLS. Appendix 1, at 2. The incidents
included:
a.

April 16, 2015 – Student overheard Mr.
Skelton in JMLS library being loud and
vulgar. She asked him to quiet down but
he did not. Applicant was then asked by
security officer to leave the building until
class began.

b.

October 13, 2015 – Mr. Skelton was heard
yelling at himself at various times
throughout the day. When security officer
went to ask him to leave, Applicant was
already preparing to do so and admitted
he had been yelling.

c.

February 18, 2016 – As Mr. Skelton was
exiting through turnstile of the law school
lobby, security officer observed him
acknowledge the presence of an administrator in a nearby office and yell a curse
at the administrator. Mr. Skelton then exited the building.

d.

April 8, 2016 – Student heard another
student yelling and swearing in the
JMLS library and asked if he was all
right. He ignored her and left the building. On reviewing camera footage, security officer noted that student causing the
disturbance was Mr. Skelton.

Appendix 1, at 2.

App. 206
11. In a letter dated May 26, 2016, JMLS Dean
Powers noted a meeting on February 22, 2016 between
himself and Mr. Skelton in which the Dean asked Mr.
Skelton to cease the conduct described in paragraphs
(i)-(iii) above. Appendix 1, at 2. The letter then referenced the incident described in paragraph (iv) above,
any further such incidents would trigger disciplinary
action. Id. The Dean further requested documentation
to support any claim that the conduct described above
had a medical explanation. Id.
12. JMLS did not take any disciplinary action
against Mr. Skelton. Appendix 1, at 3. He did not engage in any similar behavior during his third year in
law school between August 2016 and May 2017 Id.
2.

Nondisclosures to JMLS

13. On July 7, 2017, after conferring with Board
of Admissions staff, Mr. Skelton amended his JMLS application to include disclosures of two previously undisclosed incidents of undergraduate discipline for
possession of alcohol in a dormitory at St. Louis University. Appendix 1, at 3. Mr. Skelton explained that he
had not remembered the incidents as matters that
were required to be disclosed when he completed his
initial application to JMLS in the fall of 2013. Tr. 156.
JMLS accepted the amendments with no further action taken. Id.

App. 207
3.

Emails During the Character
and Fitness Process

14. Between approximately mid-October 2017
and mid-March 2018, Mr. Skelton sent approximately
40 emails to recipients including Committee on Character and Fitness Member Ellen Mulaney (“Ms. Mulaney”) and IBAB staff in Springfield. Appendix 1, at 3.
In the emails, Mr. Skelton suggested that JMLS, IBAB,
the Inquiry Panel, and the legal system were biased
against him, and lacked integrity. He used charged language, including political rhetoric and themes of persecution, in some of the emails. Id. Excerpts of some of
the emails are set forth at Appendix 1, pp. 3-4.
15. On March 20, 2018, Mr. Skelton met with Ms.
Mulaney and the other members of the Inquiry Panel.
Appendix 1, at 5. In its subsequent report, the Inquiry
Panel commended Mr. Skelton for his honesty, and for
demonstrating responsibility in his work as a FOIA
officer for the City of Chicago. Appendix 1, at 6. The
Inquiry Panel also noted that Mr. Skelton had recently
met with a new psychiatrist, that he had just begun
taking a new anti-psychotic medication, and that he
was seeking a psychotherapist. Id. However, the Inquiry Panel also noted that Mr. Skelton had not clearly
or convincingly demonstrated present fitness to practice law. Id.

App. 208
D.

Psychiatric and Psychological Testimony
1.

Dr. Charles Turk

16. Charles Turk is a psychiatrist and psychoanalyst who has practiced for 40 years, focusing on schizophrenic patients. Tr. 13-15, 28. In September 2018,
Dr. Leslie Wolowitz referred Mr. Skelton to Dr. Turk in
connection with Mr. Skelton’s pending proceedings before the Committee. Tr. 15-16, 34, 38. Thereafter, Dr.
Turk saw Mr. Skelton regularly while Mr. Skelton also
remained in treatment with psychiatrist Dr. Eric Yu.
Tr. 1516, 33, 38. Prior to the hearing Dr. Turk became
Mr. Skelton’s treating and prescribing psychiatrist Tr.
17, 21, 33. Mr. Skelton chose to switch from Dr. Yu to
Dr. Turk because he felt that Dr. Turk was more supportive of Mr. Skelton’s efforts to live a good, healthy
life despite his diagnosis. Tr. 21, 59-60.
17. Dr. Yu had originally prescribed Seroquel to
Mr. Skelton. Tr. 16-17, 39, 52. Dr. Turk has maintained
that prescription. Tr. 16-17, 24, 33. Seroquel is an antipsychotic which helps to organize the personality, ensure stability, and suppress symptoms including the
hearing of voices. Tr. 17, 23-24.
18. Shortly after he began seeing Mr. Skelton, Dr.
Turk diagnosed him with delusional disorder. Tr. 1718, 29, 40. Delusional disorder involves an elaborate
construction of thought departing from reality and
that accounts for disturbed feelings, fears, and behaviors. Tr. 18. The disorder also involves a patient having
paranoid thoughts. Id. Dr. Turk has observed paranoid

App. 209
thoughts in Mr. Skelton, as well as a sense of being personally selected as the target of a conspiracy. Tr. 18, 21.
19. In Dr. Turk’s opinion, Mr. Skelton’s conduct
in sending emails to the Board of Admissions and the
Inquiry Panel during the Character and Fitness process was consistent with delusional disorder. Tr. 22-23.
Mr. Skelton’s feeling that the Board had already decided against him, as expressed in the emails, was also
consistent with the disorder. Tr. 22. In Dr. Turk’s opinion, both Mr. Skelton’s conduct at JMLS and the emails
he sent to the Board of Admissions were caused by Mr.
Skelton’s delusional disorder. Tr. 26-27.
20. Mr. Skelton has told Dr. Turk that the emails
were inappropriate and that he regrets having sent
them. Tr. 37. In Dr. Turk’s opinion, Mr. Skelton was
“undertreated” at the time he sent the emails. Tr. 4445.
21. According to Dr. Turk, delusional behavior is
unlikely to occur during Mr. Skelton’s practice of law,
because he has increasingly been able to distinguish
between delusion and reality and to control his emotions. Tr. 32, 43. His treatment helps him make the distinction between delusional thinking and realistic
thinking. Tr. 27. Mr. Skelton has not lashed out or been
consumed in delusional thinking during the course of
his consultations with Dr. Turk. Tr. 60-61. Mr. Skelton
has been fully cooperative and compliant throughout
those consultations. Tr. 21-22, 23, 35. He is forthright,
and he has insight into his condition. Tr. 23, 32. He can
reflect on incidents that happen to him, and perceive

App. 210
that there are no conspiracies against him. Id. His
hearing of voices, and misinterpretations of conversations, is now almost nonexistent. Tr. 24.
22. Upon questioning by the Panel, Dr. Turk testified concerning events thatoccurred to Mr. Skelton in
2018 and 2019 that caused Mr. Skelton some anxiety:
a.

In October 2018, while at work, Mr. Skelton thought someone was yelling at him,
but he was able to reconsider. Tr. 50. In
that incident, Mr. Skelton’s delusional
thinking lasted about half an hour. Id.

b.

In December 2018, during a class at work,
Mr. Skelton thought something that was
said had been meant for him, but then realized it had not been. Tr. 51. Mr. Skelton’s thoughts about the matter passed
within the hour and did not affect what
he was doing. Id.

c.

In February 2019, Mr. Skelton was concerned by a family situation. Tr. 49-50.
There was a concern that one family
member may have been abusing or taking
advantage of someone else. Tr. 49-50. Mr.
Skelton’s thoughts about the matter were
transient, and they did not last more than
a day. Tr. 49.

d.

In June 2019, as he was falling asleep, Mr.
Skelton had strange thoughts. His
thoughts were prompted by reading materials in which a character had grandiose ideas of how to cure the problem of
police misconduct. Tr. 47-48. His thoughts

App. 211
during that episode lasted less than an
hour, and they had no physical, emotional, or mental effects. Tr. 48-49.
23. Dr. Turk testified that Mr. Skelton was not
“consumed with delusion” during those incidents, and
they would not cause him to change Mr. Skelton’s medication. Tr. 52, 61. Where Mr. Skelton might previously
have experienced a misunderstanding of the circumstances, he now is able to avoid that, and to recognize
reality. Tr. 23.
24. In Dr. Turk’s opinion, Mr. Skelton may not
need Seroquel for the rest of his life. Tr. 25-26. A patient who is functioning and sleeping well, is not beset
by delusional thinking, a and experiencing a low level
of anxiety could stop taking the medication. Tr. 25. Dr.
Turk would continue to treat Mr. Skelton even if he
were off the medication. Tr. 25-26. Mr. Skelton has not
asked to stop taking Seroquel or to end his psychiatric
treatment. Tr. 53. He has been consistent in his visits
with Dr. Turk. Tr. 23.
25. Dr. Turk stated that it would be difficult to
determine exactly how long Mr. Skelton may need
treatment, but that it may need to last for five or ten
years. Tr. 55. Dr. Turk further opined that with continued treatment including Seroquel or other medication,
Mr. Skelton would be able to practice law. Tr. 27. Dr.
Turk further opined if Mr. Skelton were granted conditional admission, and if he remained in treatment during that time, he would remain appropriate to practice
law. Tr. 28.

App. 212
2.

Dr. Leslie Wolowitz

26. Dr. Wolowitz is a psychodynamic psychotherapist who has been treating teenagers and adults for
over 30 years. Tr. 62. At the time of the hearing, she
had been treating Mr. Skelton for one and one-half
years. Tr. 120. She has previously treated patients with
schizophrenia, schizoaffective disorder and delusional
disorder. Tr. 63. She has participated in reviews and
evaluations of graduate students whose mental health
or competence has been called into question. Tr. 62. Dr.
Wolowitz’ training and experience leads her to view diagnoses as complex, particularly as regards schizoaffective disorders. Tr. 67. She does not disagree at all
with Dr. Turk’s diagnosis of Mr. Skelton as having delusional disorder. Id.
27. When Mr. Skelton began seeing Dr. Wolowitz,
he was taking Seroquel. Tr. 70. He reported to Dr. Wolowitz that his use of Seroquel has been helpful to him.
Tr. 71. Based on that, Dr. Wolowitz believes it is a good
medication for him. Id.
28. Upon first meeting with Mr. Skelton, Dr.
Wolowitz’ impression was that he was “somewhat introverted, a little bit skittish which probably had to do
with anxiety, highly articulate . . . quite kind, very
bright, and very interested in – seemed very authentic
about getting help and treatment.” Tr. 64.
29. Dr. Wolowitz’ described Mr. Skelton’s conduct
at JMLS as acting out inappropriately, and “behind
that acting out was a high sensitivity and emotional
reactivity with some paranoid ideation, and . . .

App. 213
perhaps a history of some depression and anxiety as
well.” Tr. 64-65. Paranoid ideation is a delusional reference involving thinking that something is aimed at you
which in reality is not. Tr. 65. Mr. Skelton told Dr. Wolowitz that he might have been hearing voices during the
JMLS incidents, and that he was yelling in various
parts of the school. Id. Dr. Wolowitz has encountered a
number of patients who have exhibited behavior like
Mr. Skelton’s in the past Tr. 66.
30. Dr. Wolowitz also discussed with Mr. Skelton
his emails to Board of Admissions staff and the Inquiry
Panel. Tr. 65-66. Mr. Skelton told her that the emails
were motivated by feelings of not being understood and
of persecution, and that he inappropriately spoke his
thoughts in the emails. Tr. 66.
31. Shortly after their first meeting Dr. Wolowitz
learned about the Inquiry Panel’s denial. Tr. 87. Mr.
Skelton hoped that he would be able to prove that with
therapy and medication he would be able to practice
law. Id. During his early consultations with Dr. Wolowitz, Mr. Skelton expressed some confusion about some
aspects of the Inquiry Panel process, and he occasionally expressed a question about what made sense to
him. Tr. 88. But in general, he was able to understand
why his behavior had been a concern and alarm. Id.
32. Mr. Skelton has attended sessions with Dr.
Wolowitz on a regular weekly basis. Tr. 67, 123-124. He
is an extremely cooperative, communicative patient,
and he is one of the most consistent people she has ever
met. Tr. 67-68. They discuss issues at home, work, past

App. 214
history, present thoughts, feelings, behavior, and interactions Tr. 68. Prior to receiving appropriate treatment, when depression and anxiety go untreated in
someone, exacerbated by external stress, the symptoms of those conditions can worsen over time if left
untreated. Tr. 90. Dr. Wolowitz believes that that is
what happened to Mr. Skelton. Id. Since beginning
treatment with Dr. Wolowitz, Mr. Skelton has not acted
out, as he did at JMLS or in the emails Tr.69, 79-80, 96.
He has never exhibited any kind of malicious behavior,
or behavior in which he intends to hurt someone else
physically, verbally, or emotionally. Tr. 74-75. He
demonstrates insight and self-reflection. Tr. 69. He engages in “reality testing,” in which one checks one’s
own subjective reality with someone else or something
else, to see if it is consensual and real. Tr. 69-70. Mr.
Skelton now does that spontaneously. Tr. 70.
33. Mr. Skelton has told Dr. Wolowitz that his
work relationships are positive, although there are
times when he feels not as much a part of the group as
he would like to be. Tr. 82, 85-86. Dr. Wolowitz is unaware of any situation at work in which Mr. Skelton has
acted out while at work. Tr. 85. Mr. Skelton has a longstanding group of friends outside the workplace – some
from high school, some from previous jobs, some from
college, and some from law school. Tr. 83.
34. On a number of occasions, Dr. Wolowitz and
Mr. Skelton have discussed “minor contemporaneous
thoughts” he has had. Tr. 92. These incidents did not
give rise to the type of conduct exhibited at JMLS. Tr.
68-69.

App. 215
35. For example, in the summer of 2019, Mr.
Skelton talked about an incident in which, while on the
“L” train in a car with only a few other people, he was
approached by a man asking for money. Tr. 92-93. The
man began yelling at Mr. Skelton. Tr. 93. Mr. Skelton
responded to the man appropriately. Tr. 94-95. Mr.
Skelton told Dr. Wolowitz that he had felt afraid and
powerless, and they discussed what his choices had
been in handling the situation. Tr. 93-94. He “realitytested” with regard to the experience, checking what
the best responses were or could have been in order to
avoid harm or the risk of harm. Tr. 94-95. Dr. Wolowitz
wanted to check whether there was some delusional
material in Mr. Skelton’s mind concerning the incident. Tr. 122. Specifically, she discussed with him feelings to the effect that the man on the train “had it out
for him in particular.” Tr. 123. Mr. Skelton concluded
that “the most likely scenario” was that the man had
no vendetta. Id.
36. In another incident, Mr. Skelton told Dr.
Wolowitz that he felt as though a teacher had purposely been given an A minus instead of an A. Tr. 70,
95. He then realized that the grade likely had a rational basis, such as something task-oriented that Mr.
Skelton had not done. Tr. 70. He realized that he had
simply been frustrated about the grade, and that there
was probably nothing behind it other than that. Tr. 95.
Mr. Skelton was able to laugh at himself a bit concerning that incident. Tr. 70.
37. Mr. Skelton can recognize disturbing
thoughts, and he can understand distortions in his

App. 216
thinking. Tr. 74, 142-143. He and Dr. Wolowitz discuss
managing stress, and the importance of social support,
in that process. Tr. 75. Dr. Wolowitz has told Mr. Skelton that it is important that he not “become socially
isolated.” Id. Mr. Skelton has had increased social support over the time that Dr. Wolowitz has seen him. Tr.
76. Continued treatment will help Mr. Skelton avoid,
and further decrease, instances of disturbing thoughts.
Tr. 74-75. Mr. Skelton’s “growing capacity” for selfreflection and awareness makes it less likely that he
would do anything out of bounds or inappropriate even
if he were to face professional disappointment. Tr. 133134.
38. Dr. Wolowitz has seen “a lot of progress” in
Mr. Skelton. Tr. 141. While his vulnerability to distorted thinking in the future would be hard to predict,
his continued participation in a stable treatment regime will render it unlikely that he would backslide.
Tr. 141. With continued treatment, his prognosis is
good, and he would be competent to practice law. Tr. 7677.
D.

Other Testimony: Amber Ritter

39. Amber Ritter has been licensed to practice
law in Illinois for 20 years. Tr. 99-100. She has served
as an Assistant Corporation Counsel for the City of
Chicago for 16 years, including 41/2 years as Chief
Assistant Corporation Counsel. Tr. 99. Ms. Ritter is in
charge of the City of Chicago law department group
known as “FOIA Requests and Litigation.” Id. For

App. 217
about two years, Ms. Ritter has been Mr. Skelton’s direct manager in his work as the FOIA officer for her
department. Tr. 100. As a FOIA officer, Mr. Skelton receives and reviews requests for information from the
public or the media. Id. He then has five business days,
with one potential five-day extension, to compile relevant records in response. Id. He may also redact the
records where appropriate. Id.
40. Mr. Skelton works from a cubicle directly outside Ms. Ritter’s office. Tr. 101. He checks in with her
on a regular basis about the decisions he is making. Id.
She observes his work, and she knows him to be one of
the very best FOIA officers working for the City. Id. He
is very intelligent, he understands the legal issues underlying FOIA work and relevant privileges, and he
“very much gets it very quickly.” Tr. 102. The main part
of the job is receiving and processing FOIA requests,
which can be very stressful. Id. The stress comes from
the short turnaround time on requests, the demanding
nature of the requests from media or other members of
the public, and the difficulties associated with gathering records from City attorneys. Tr. 102-103. Ms. Ritter
has never seen Mr. Skelton have any problem with the
stress of the job, and he seems like has very good control. Tr. 102. When he has a question for Ms. Ritter, he
“comes to her with options as opposed to coming to me
with freaking out.” Tr. 105. He presents situations to
her calmly. Id.
41. Ms. Ritter observes Mr. Skelton’s relationships with FOIA requesters who are members of the
media. Tr. 105-106. She can sometimes overhear phone

App. 218
calls he has with them, and she has seen email exchanges in which media requesters have profusely
thanked Mr. Skelton for his hard work. Tr. 106. He has
positive relationships with media requesters, and he
treats them with respect. Id.
42. Ms. Ritter has never been aware of any incident in which Mr. Skelton has acted inappropriately
toward anyone in the course of his work. Tr. 104-105.
He interacts with lawyers and other staff of the City
law department, including Ms. Ritter and her supervisor, daily. Tr. 111-112. He also regularly comes into contact with some 270 City attorneys who may have
access to documents he needs to fulfill FOIA requests.
Tr. 112. He works collaboratively with others in assembling responses to requests. Id.
43. Mr. Skelton has created organizational structures to assist him in performing his duties. Tr. 116117. He keeps a spreadsheet to keep track of FOIA requests. Tr. 117. He makes it look effortless, whereas
other FOIA officers can become overwhelmed by the
demands of the job. Id.
44. Mr. Skelton occasionally advises Ms. Ritter
that he has extra time, and he volunteers to work on
legal research or other projects. Tr. 115-116. Ms. Ritter
has involved Mr. Skelton in such projects, and he has
successfully completed them. Id.
45. About six months prior to the hearing, Mr.
Skelton came into Ms. Ritter’s office and asked if she
would be willing to be a witness on his behalf in connection with his Character and Fitness proceedings.

App. 219
Tr. 110. He discussed the matters of concern in these
proceedings with her, such that she was comfortable
with being a witness. Tr. 110-11. She specifically asked
him if he had committed a crime or victimized anyone,
and he said that he had not. Id. Mr. Skelton’s counsel
later verified that. Tr. 111. Mr. Skelton’s counsel also
made her aware of the specific nature of the JMLS incidents as well as the emails to the Board of Admissions and the Inquiry Panel. Id.
46. Ms. Ritter described the City work environment in which she supervises Mr. Skelton as “friendly.”
Tr. 114. Ms. Ritter would “absolutely” be comfortable
with Mr. Skelton’s admission to the Bar of Illinois. Tr.
106-107. She would “certainly” recommend Mr. Skelton
for a job in the City’s litigation division. Tr. 116.
E.

Applicant’s Testimony

47. Mr. Skelton was 31 years old at the time of
the hearing. Tr. 146. He grew up in Oak Park, Illinois.
Id. He went to St. Louis University for college, majoring in history and philosophy. Id. He graduated in
2010, after which he was employed in construction. Tr.
147, 196. In October 2010, Mr. Skelton joined AmeriCorps, and he worked in that organization for a year
and a half. Tr. 150, 194, 215. His work there included
working in a legal aid office in Champaign, which
sparked his interest in the practice of law. Tr. 147-148,
196, 215.
48. While he was in college, Mr. Skelton experienced depression, requiring 5 days of inpatient

App. 220
treatment in 2009. Tr. 149, 193-194, 214. He sought
that treatment voluntarily. Tr. 149, 194-195. The
treatment was helpful, but it did not end his feelings
of depression. Tr. 150, 194. Mr. Skelton met with a social worker for counseling regularly during the remainder of his college career, and he took antipsychotic and anti-depressant medications as prescribed by a doctor, although he remembers the antipsychotic was at a low dosage. Tr. 150, 194, 215.
49. Returning to Oak Park before law school, Mr.
Skelton began seeing a psychiatrist. Tr. 150-151, 216.
She prescribed him Wellbutrin, which he took. Tr. 150151, 154-155, 180, 217-219.
50. Mr. Skelton began attending JMLS in 2014,
and he found the experience of law school to be stressful. Tr. 148, 216. He began to perceive that he was being persecuted, and that others were inappropriately
accessing information related to him. Tr. 148-149, 197.
Mr. Skelton believes that those feelings and perceptions were incorrect, and that they were a product of
mental illness. Tr. 151-152, 154.
51. Despite his difficulties, Mr. Skelton had
friends at JMLS. Tr. 198. However, he did not feel comfortable confiding in them concerning his mental
health struggles. Id. Generally, when dealing with his
feelings, he would leave the JMLS campus, and that
would help him avoid having an outburst. Tr. 157, 201202. On some occasions, he was unable to control his
behavior, leading to the four incidents involving yelling
at himself or others. Tr. 202-203.

App. 221
52. In the first such incident, in 2015, Mr. Skelton was in the JMLS library. Tr.152-153, 198-199. Tr.
152. He began yelling to himself in a study room after
having trouble studying and hearing things. Tr. 152153, 199-200. He experienced adrenaline and tunnel
vision. Tr. 199. He did not, and did not mean to, yell at
any particular person, and he did not intend to cause
a disruption. Tr. 152-153. He regretted having done so.
Tr. 153. This incident was the first time he had ever
had an episode like that. Id. When confronted, he left
the premises without argument. Tr. 201.
53. In 2016 a similar experience occurred when
Mr. Skelton felt overwhelmed and agitated following a
class. Tr. 157-158, 203-204. Again, he experienced
adrenaline and tunnel vision. Tr. 157, 206. He determined to leave the building, but before he left, he made
inappropriate comments to a school administrative official whose office he passed on his way out. Tr. 157158, 203-206. Mr. Skelton regrets having made that
mistake. Tr. 158.
54. In the spring semester of 2016, Mr. Skelton
went to six or eight weekly counseling sessions at
JMLS. Tr. 153-154, 218-219, 221-222. He continued
those sessions when he returned to the school in the
fall of 2016. Tr. 154, 222. He found the counseling helpful in dealing with stress. Tr. 154.
55. During law school, Mr. Skelton worked as an
extern for the Hon. Jeffrey Cole. Tr. 177. He interned
at the Environmental Law and Policy Center, and at
the Chicago Transit Authority (“CTA”). Tr. 177-178.

App. 222
While at the latter, he obtained a license pursuant to
Supreme Court Rule 711, and, under appropriate supervision, he did legal research and wrote and argued
a summary judgment motion. In all, Mr. Skelton’s work
experiences during law school were positive. Tr. 178.
56. Mr. Skelton graduated from JMLS in 2017,
and he then took the bar exam right away. Tr. 155. During the Board of Admission’s review of his application,
the Board alerted him to his omission to report certain
college-era alcohol violations to JMLS. Tr. 156. Mr.
Skelton had forgotten about those violations when he
applied to JMLS. Id. He disclosed the incidents to
JMLS in 2017, and the school took no action. Id.
57. Mr. Skelton applied for, and obtained, the position of FOIA Officer at the City of Chicago in September 2017. Tr. 181.
58. In the fall of 2017, he met with Ms. Mulaney
concerning the Board’s inquiry into the JMLS incidents. Tr. 158, 223. He experienced paranoid thoughts
regarding the inquiry, and he felt that he would be denied admission as a result of it. Tr. 160. His paranoia
flowed partly from an incident during his JMLS career
in which Nazi graffiti was found drawn on various
parts of the school’s campus; Mr. Skelton was interviewed by campus security concerning the incident. Tr.
163, 165-166. Mr. Skelton had not drawn the graffiti,
and after he said so during his interview, he was not
questioned about the matter again. Tr. 166. During the
Board of Admissions inquiry, though, he became concerned that someone from JMLS had accused him of

App. 223
drawing the graffiti. Tr. 162. That prompted his emails
to Ms. Mulaney. Id. He then embarked on a course of
writing emails in which he expressed his feelings of
persecution. Id.
59. Mr. Skelton admitted that those emails were
inappropriate, grandiose and deranged. Tr. 163, 227.
He also acknowledged that they were not spontaneous,
and that they resembled arguments. Tr. 216-208, 213214. However, he also explained that he was feeling
unhinged during that time, and that his fears as expressed in the emails were not based in reality. Tr. 163,
166.
60. As he composed the emails, he did not think
about how the recipients would react, but he now understands why they would have reacted negatively. Tr.
208, 228. He took responsibility for his misperceptions
and failure to take his delusional thoughts seriously.
Tr. 224. His meeting with the Inquiry Panel helped him
to realize that he was not being persecuted. Tr. 164. He
understands the Inquiry Panel’s declination to certify
him for admission, and he understands that the emails
must have struck them as frightening and offensive.
Id. He is embarrassed and remorseful about having
written and sent the emails. Id. He apologized to the
Inquiry Panel and to JMLS for his conduct. Tr. 191192. He would not engage in that conduct today. Tr.
166.
61. Mr. Skelton cooperated in an evaluation
through the Illinois Lawyers’ Assistance Program
(“LAP”). Tr. 168. The evaluation was performed by Dr.

App. 224
Joy Ryba. Id. Dr. Ryba was not available to provide
treatment to him, and he soon thereafter began treatment with Dr. Yu. Tr. 169. Dr. Yu prescribed Seroquel,
which Mr. Skelton has taken regularly ever since.
Tr.169-170.
62. Mr. Skelton finds Dr. Wolowitz to be very supportive, and he confides in her. He also values Dr.
Turk’s expertise, and he feels that Dr. Turk understands his perspectives. Tr. 173. During his treatment,
psychotic symptoms such as hearing a negative commentary in his mind have become the exception, not
the standard. Tr. 210. Mr. Skelton has accepted that he
has a psychotic disorder, and he has learned to monitor
his thinking for delusions. Tr. 225-226. He understands
and considers the consequences of his actions. Tr. 228.
63. Mr. Skelton enjoys his work as a FOIA officer.
Tr. 183. He can handle the stress of the job, and when
stressful situations develop, he discusses them with
Ms. Ritter or other attorneys. Tr. 184-185. He has never
lost control at work. Tr. 185. He has also applied for a
non-attorney position as an asylum officer with the
U.S. Citizenship and Immigration Service. pending security clearance review. Tr. 185-186. The position
would be located in Chicago, allowing Mr. Skelton to
continue treating with Drs. Turk and Wolowitz. Id. He
intends to continue that treatment for as long as his
doctors recommend that he do so. Tr. 188-189. He does
not consider remaining in treatment a negative. Tr.
188.

App. 225
64. The people in Mr. Skelton’s life include his
parents, friends, colleagues and doctors. Tr. 211. He
would feel comfortable seeking support from some of
his friends whom he has known since middle school. Tr.
211-212. Mr. Skelton’s parents are fully aware of the
Character and Fitness process, and they have been
supportive of him. Tr. 212-213.
F.

The Hearing Panel’s Recommendation

65. The Hearing Panel Majority declined to find
that Mr. Skelton had proved, clearly or convincingly,
his present character and fitness to practice law. It
found that Mr. Skelton’s five-month course of conduct
in sending the emails to the Board of Admissions and
the Inquiry Panel constituted multiple individual acts
of misconduct, and that although he could have reconsidered and changed course, he did not. Appendix 1, at
32. The Majority further found that “[o]n denial by the
Inquiry Panel, Mr. Skelton acknowledged his inappropriate conduct, but still could not understand why that
conduct was alarming to the Inquiry Panel.” Id.
66. The Majority further found that while Ms.
Ritter provided positive testimony concerning Mr.
Skelton’s job performance, her testimony was diminished by the fact that “just before Hearing . . . she was
unaware of the incidents at JMLS and Mr. Skelton’s
emails.” Appendix 1, at 32. The Majority also found
that for Mr. Skelton to have sent some of the emails
during work hours undermined Ms. Ritter’s ability to
“clearly and convincingly corroborate his abilities

App. 226
either to take responsibility for his misconduct or use
good judgment in a professional setting.” Appendix 1,
at 32-33.
67. While it considered Mr. Skelton’s doctor’s testimony “link[ing] his misconduct to a medical condition,” the Majority focused on “recent instances of
delusional thought during non-stressful circumstances” and their “recommendation of long-term
treatment.” Appendix 1, at 33. It found that there had
been an “insufficient passage of time clearly and convincingly corroborative of his acceptance of responsibility and demonstrative of rehabilitation.” Id. It
further faulted Mr. Skelton for not having produced the
testimony of his parents to corroborate his testimony
that they have been supportive of him. Appendix 1, at
34. The Majority found that “evidence failed to
demonstrate a robust support network” for Mr. Skelton
in general, which “remain[ed] a serious concern.” Id. In
concluding its findings, the Majority stated its expectation that “going forward Mr. Skelton will conduct
himself as set forth in the essential eligibility requirements . . . and demonstrate rehabilitation from misconduct.” Appendix 1, at 34.
68. The two dissenting members of the Hearing
Panel, by contrast, found that Mr. Skelton had been
“extremely candid” and had “demonstrated full acceptance of responsibility and sincere remorse for
disturbing or offending the recipients of his email
correspondence.” Appendix 1, at 34. The Dissent credited Ms. Ritter’s testimony as “persuasive . . . that
Mr. Skelton has conducted himself properly and

App. 227
respectfully of others in the context of his two-year employment and that he would be able to do so in a stressful environment as a practicing attorney.” Appendix 1,
at 34-35. The Dissent also gave proper weight to the
testimony of Mr. Skelton’s treatment providers, and
noted the effectiveness of the treatment they provided.
Appendix 1, at 35-36.
69. The Dissent found that Mr. Skelton had
demonstrated the essential eligibility requirements
necessary for admission to the Bar of Illinois, and it
would have recommended that he be conditionally admitted, with a monitoring period extending beyond the
normal two-year period. Appendix 1, at 36.
ARGUMENT
A.

Standard of Review

70. This Court is vested with the inherent power
to regulate admission to the bar. In re Application of
Day, 181 Ill. 73 (1899). This power carries with it the
concomitant duty to protect the public from dishonesty
and incompetency on the part of members of the bar.
People ex rel. Chicago Bar Association v. Goodman, 366
Ill. 346, 349-50 (1937). The exercise of the power and
the discharge of the duty require that the final judgment concerning admission of an applicant rest with
this Court. The determination by the committee concerning the character and fitness of Mr. Skelton is advisory, and it neither binds this Court nor limits its
authority to take action. In re Mitan, 75 Ill.2d 118
(1979); In re Loss, 119 Ill.2d 186 (1987). When a

App. 228
hearing panel concludes that an applicant does not
possess the good moral character and general fitness
necessary for the practice of law, the Court will not reverse unless the recommendation is arbitrary. In re
Krule, 194 Ill.2d 109, 111 (2000).
71. The determination of the majority in this
case was arbitrary and should be rejected by this
Court. Mr. Skelton fully and appropriately apologized
for his conduct at hearing, and he does so again now.
Although he presented extensive unrebutted evidence
that clearly demonstrated that his prior conduct was
the product of a psychiatric disorder, he nevertheless
expressed his recognition of, and remorse for, the
wrongfulness of his past conduct. The Majority, however, found the opposite: that Mr. Skelton had not expressed remorse or recognition of his misconduct. That
erroneous finding was based on a misconstruction of
the testimony of one of Mr. Skelton’s treatment providers, and it should be reversed.
72. Similarly, the Majority concluded that Mr.
Skelton was “socially isolated, and found that to be a
“serious concern.” Appendix 1, at 34. While Mr. Skelton’s treatment providers did testify that social isolation can be a risk factor for people with delusional
disorders, they did not state that Mr. Skelton himself
was socially isolated or otherwise at risk. Rather, they
and other witnesses provided significant unrebutted
evidence that Mr. Skelton has a social support network, and that he benefits from it. The Majority
wrongly ignored that evidence to come to the opposite
conclusion; and they further erred in determining that

App. 229
“social isolation,” even if present, could constitute a
reason to deny an applicant a law license.
73. The Majority erroneously disregarded Ms.
Ritter’s testimony. Ms. Ritter, a capable and experienced attorney, provided overwhelmingly positive testimony concerning Mr. Skelton and his work. Her
testimony, which was not impeached in any way, portrayed Mr. Skelton as a skilled and responsible employee who had never had any untoward reactions
toward any of his colleagues or anyone he dealt with
while on the job. The Majority chose to disregard Ms.
Ritter’s testimony for arbitrary reasons, as set forth
more fully below.
74. The Majority reviewed candid and thorough
testimony from Mr. Skelton’s treatment providers and
drew from it incorrect and derogatory inferences. Both
doctors testified about Mr. Skelton’s recent therapeutic
sessions, describing times when he had small and fleeting thoughts that were not realistic. The Majority
termed these incidents additional “delusional episodes” and – while not explicitly saying so – found that
they somehow detract from Mr. Skelton’s character.
That was error.
75. The Majority claimed not to base its decision
on a prejudicial view of Mr. Skelton’s disability, but in
fact it did just that. It impermissibly disregarded clear
and uncontested evidence of Mr. Skelton’s treatment,
rehabilitation, and present mental fitness. It made
findings clearly contrary to the evidentiary record. It
set an impossible burden of proof for Mr. Skelton that

App. 230
would not and could not be imposed on anyone without
his disability. In addition to being prejudicial and arbitrary, that is inconsistent with Mr. Skelton’s rights
under the Americans with Disabilities Act and the
United States Constitution.
76. Therefore, the majority’s determination is arbitrary and should be reversed.
B. The Majority disregarded the medical
evidence concerning Mr. Skelton’s present
mental fitness and rehabilitation.
77. The Majority discounted the expert opinions
of Dr. Turk and Dr. Wolowitz because “each noted instances of delusional thought during non-stress circumstances” and “both recommended long-term
treatment.” These reasons are arbitrary and in no way
call into question Mr. Skelton’s present fitness to practice law.
78. The occurrences that the Majority termed
“instances of delusional thought” are referred to in
paragraphs 22, 35, and 36, supra. Those occurrences,
individually and taken together, are trivial. No one testified that Mr. Skelton engaged in any problematic conduct during any of them. It is hyperbolic, and unfair, to
refer to them as “delusional” episodes when they are
nothing more than passing thoughts. Anyone could
misinterpret what a colleague said at work, question
whether a family member is being taken advantage of,
think about police misconduct, question a grade in a
course, or have an unnerving interaction with someone

App. 231
behaving erratically on the train. The instances do not
call into question Mr. Skelton’s present mental fitness
or impeach Dr. Wolowitz’s or Dr. Turk’s testimony. The
instances are nothing more than daily minutiae, and
the Majority erred in finding that their existence somehow impeached the medical expert’s testimony or Mr.
Skelton’s present mental fitness.
79. Before he sought and received appropriate
treatment, Mr. Skelton regrettably experienced real
delusions that, as explained thoroughly by Drs. Turk
and Wolowitz, caused him to write inappropriate and
tonally aggressive emails to and about his law school
and Ms. Mulaney. The later instances cited by the majority bear no resemblance to Mr. Skelton’s real prior
symptoms, their effects, or the conduct to which they
contributed. Mr. Skelton wrote no emails of any kind
relating to his benign transitory thoughts. He let any
momentary misapprehensions pass, and he went back
to living his life. This is another reason why the “instances of delusional thought” cited by the Majority are
unnoteworthy and trivial.
80. Absent Mr. Skelton’s mental health history,
these occurrences would never form any part of a basis
to deny anyone certification for admission. They have
no bearing on Mr. Skelton’s present fitness to practice
law, and no concrete effect on his work or anything else.
They do not relate in any way to any of the essential
eligibility requirements to practice law in Rule 6.3. The
majority’s finding that they somehow called Drs. Turk
and Wolowitz’ opinions into question, or that they

App. 232
affected Mr. Skelton’s present fitness to practice, was
arbitrary, unreasonable, and erroneous.
81. In addition, the Majority’s opinion inappropriately casts the doctors’ testimony in a negative and
prejudicial light. Both doctors emphasized the importance of Mr. Skelton discussing with them any possible misapprehension in the course of his treatment.
Dr. Wolowitz referred to it as “reality testing,” and cited
it as a skill that Mr. Skelton now has. Tr. 69-70. That is
what he did, and that is what he should have done: he
used his doctor and therapist to reality test his perception of events in his life. Instead of acknowledging
Mr. Skelton’s conscientious engagement in treatment,
the Majority inappropriately and arbitrarily used it as
evidence that Mr. Skelton is not presently fit to practice law. That, in turn, creates an impossible burden of
proof for Mr. Skelton, as the actions that lead to Mr.
Skelton’s present mental fitness become reasons for
the Majority to conclude that Mr. Skelton is not mentally fit to practice law.
82. The Majority also discounted Dr. Turk’s and
Dr. Wolowitz’s testimony because each noted that Mr.
Skelton needed long term treatment. Two sentences
later in its opinion, the Majority stated that it was not
denying Mr. Skelton’s application for admission on the
basis of treatment. It is arbitrary for the Majority to
both discount Dr. Turk’s and Dr. Wolowitz’s testimony
because they note that Mr. Skelton needs long term
treatment while also stating treatment is not the reason the Majority denied Mr. Skelton’s application for
admission.

App. 233
83. The Majority’s finding undermines this
Court’s efforts to destigmatize mental health treatment in the legal profession. Long-term treatment of
mental health conditions is not uncommon, and it is
not a reason to deny an applicant admission to the bar.
This Court has rightly encouraged and promoted the
Lawyer’s Assistance Program as a means of obtaining
treatment for mental-health-related conditions of
many kinds. There is no time limit on the help that
lawyers can seek, or that LAP can provide; and there
should be no stigma associated with seeking long-term
help. The Court has correctly provided that treatment
through LAP is confidential in order to encourage
those that need long term treatment to seek it out (see,
e.g. Rule 1.6(d) of the Illinois Rules of Professional Conduct). The Majority’s decision could have the effect of
re-stigmatizing mental illness in the legal profession,
and it undermines this Court’s efforts to encourage
people who need treatment to seek it. People with mental illness may think twice about seeking treatment
because they will correctly fear being subject to decisions like the Majority’s that punish people for seeking
psychological treatment.
84. Overall, it is arbitrary to discount the doctors’ opinion about Mr. Skelton’s current mental fitness
because of the “need for long term treatment” where
the Majority itself says that treatment is not a basis to
deny an applicant’s present mental fitness, and where
the Supreme Court itself encourages those who need
long term treatment to seek it out.

App. 234
C. The Majority failed to accord the
medical testimony proper weight in that
it clearly and convincingly proved
Mr. Skelton’s present mental fitness.
85. The Majority opinion states that “both doctors provided affidavits opining as to Mr. Skelton’s appropriate mental competency and capacity to practice
law; neither doctor, however, provided clear and convincing evidence of the present character and fitness
requisite for admission.” Dr. Turk and Dr. Wolowitz not
only provided affidavits detailing their opinion regarding Mr. Skelton’s present fitness to practice law, but
they both testified throughout the hearing about their
shared belief that Mr. Skelton is fit to practice law,
and will remain so given compliance with treatment.
Tr. 27-28; Tr. 76-77. The Majority’s opinion contravenes
clear case law from this Court that a psychiatrist’s or
psychologist’s opinion as to present mental fitness is
clear and convincing evidence that someone is presently fit to practice law.
86. In re Hessberger, 96 Ill. 2d 423 (1983) involved an attorney who had been found not guilty of
murder by reason of insanity, and who had been ordered to be transferred to disability inactive status
petitioned for restoration to active status. At hearing,
Mr. Hessberger submitted evidence from three psychiatrists that his bipolar disorder was presently under
control, would not interfere with the practice of law,
and was unlikely to reoccur. The court ordered that
Mr. Hessberger be transferred to active status after he
completed a one-year period as a paralegal to re-tool

App. 235
his legal skills. In reasoning central to the decision,
and especially relevant to Mr. Skelton’s circumstances
here, the Court held:
The medical witnesses who examined the attorney were unanimously of the opinion that
he is mentally capable of resuming the practice of law. This question is, in important part,
a questions within a discipline other than
ours, and the uncontradicted testimony on the
question of well-qualified witnesses in the
field of psychiatry must be given great respect.
Id. At 430.
87. Here, Mr. Skelton presented unanimous
opinions from highly qualified mental health professionals that he is currently fit to practice law. Dr. Turk
specifically denied that the “instances of delusional
thought” referenced in the Majority’s opinion required
any adjustment to his treatment, or that they caused
Mr. Skelton to become “consumed with delusion.” Tr.
52, 61. Dr. Wolowitz referred to the incidents as “minor.” Tr. 92. Both doctors believed that Mr. Skelton has
responded well to his current course of treatment and
has gained insight into his condition – further evidence
of his present fitness to practice law. Tr. 23, 69. Dr. Turk
testified that the current course of treatment prevents
reoccurrence of behavior Mr. Skelton exhibited towards the Board and Inquiry Panel. Tr. 23. The reasoning of Hessberger applies to Mr. Skelton’s case, and the
Hearing Panel should have given great respect the
doctors’ uncontradicted testimony. Their decision was

App. 236
both inconsistent with the reasoning of Hessberger and
arbitrary in its own right, and this Court should decline to uphold it.
D. The Majority disregarded Ms. Ritter’s
testimony concerning Mr. Skelton’s good
judgment and ability to take responsibility
for his poor conduct for arbitrary reasons
that are not supported by the evidence.
88. The Majority disregarded Ms. Ritter’s testimony at the hearing because “just before the hearing,
she was unaware of the incidents at JMLS and Mr.
Skelton’s emails” and because “Mr. Skelton had written
and sent some of those emails [to the Board and Inquiry Panel] on the job.” Appendix 1, at 32. Both reasons are arbitrary, and they do not contravene Ms.
Ritter’s clear and obvious testimony in support of Mr.
Skelton’s good judgment and character.
89. Nothing in the record supports the conclusion that Ms. Ritter found out about the incidents at
JMLS and Mr. Skelton’s emails “just before” the hearing. Mr. Skelton discussed the Character and Fitness
proceedings with Ms. Ritter himself, and afterward she
felt “comfortable” with what he had disclosed. Tr. 110.
Then, through his counsel, he provided Ms. Ritter more
details concerning the incidents at JMLS and before
the Inquiry Panel, as was appropriate. Tr. 110-111.
90. Additionally, the timing of Mr. Skelton’s and
his counsel’s discussions with Ms. Ritter is a red herring. Ms. Ritter evinced no concern about the manner

App. 237
in which the relevant factual matters were disclosed to
her. Her concern was whether someone could claim
that Mr. Skelton victimized them or committed a crime
that victimized someone. Tr. 110-111. Mr. Skelton and
his counsel both confirmed that this was not the case.
IdThe timing of those conversations did not matter
either to Ms. Ritter personally or in any objective
sense. It was arbitrary for the Majority to disregard
Ms. Ritter’s testimony for these reasons.
91. Further, Mr. Skelton’s case inexorably involved intimate personal details regarding his mental
health. Given the complexity and sensitivity of the
case, it was natural for Mr. Skelton to be careful in the
way that he discussed information relating to the case
with his supervisor. There was thus nothing improper
about both Mr. Skelton and his counsel discussing the
case with Ms. Ritter. It was erroneous for the majority
to find impropriety or disregard Ms. Ritter’s testimony
because of these conversations.
92. The method of the conversations with Ms.
Ritter also have no bearing on whether Mr. Skelton
appropriately took responsibility for his actions, as the
majority erroneously found. Mr. Skelton spoke with
Ms. Ritter himself; and then his counsel spoke with
Ms. Ritter as his agent, and with his specific authority. Nothing about that implicates Mr. Skelton’s candor or ability to recognize and account for his conduct.
He has been candid, as even the Inquiry Panel found
as it voted to deny certification. He fully apologized
for, and acknowledged his responsibility for, his conduct at hearing. Tr. 151-152, 154, 158, 164-165, 186,

App. 238
191-192, 201, 224, 228. He also did so previously in conversations with his doctors. Tr. 37, 88. The majority’s
suggestion to the contrary is without basis. Again, it
was arbitrary for the Majority to discount Ms. Ritter’s
testimony for these reasons.
93. The majority next erroneously and arbitrarily discounted Ms. Ritter’s testimony to the effect that
Mr. Skelton exercised good judgment in his work. The
majority reasoned that because Mr. Skelton sent some
of the emails to the Board and Inquiry Panel during
work hours, Ms. Ritter’s testimony must have been untrue or not creditable. The inference the majority drew
does not comport with the evidence or with common
sense.
94. Mr. Skelton candidly admitted having sent
some of the emails – all of which were sent between
November 2017 and March 2018 – during work hours.
Tr. 227. He accepted responsibility for sending the
emails, and he expressed his sincere regret for having
done so. Tr. 164-165. Some of the emails were innocuous and brief discussions with the Board staff about
the Inquiry Panel’s document and evaluation requests.
Others were longer and offensive in ways Mr. Skelton
recognizes and regrets, but there is no evidence that
they impacted his job performance in a manner that
would undermine Ms. Ritter’s testimony. The import
of her testimony is that Mr. Skelton did nothing that
impaired or limited his ability to perform his work
conscientiously and at a high level between November
2017 and March 2018, or at any other time. It was
arbitrary for the Majority to disregard Ms. Ritter’s

App. 239
testimony based on Mr. Skelton’s submission of some
emails to the Board and Inquiry Panel during work
hours.
95. The majority’s analysis treats Mr. Skelton’s
conduct in a vacuum. It ignores the wealth of evidence
demonstrating that between November 2017 and
March 2018, Mr. Skelton was struggling with his mental illness, and that while he had sought some treatment, it was not appropriate to address Mr. Skelton’s
symptoms and condition. That condition – which produces paranoid delusions and other misapprehensions
of reality – caused the emails and the inappropriate
conduct at JMLS. Tr. 26-27. The logical inference from
the unrebutted evidence is that Mr. Skelton’s condition
also caused him to send the emails during work hours.
The majority incorrectly ascribes a special, and prejudicial, significance to Mr. Skelton’s having sent some of
the emails between 9:00 and 5:00 on weekdays. Mr.
Skelton was a young man struggling with a mental
health condition with which he needed significant help,
and still performing functions of his job at a high level
and in a manner impressive to his employer.
96. Ms. Ritter testified at length about Mr. Skelton’s good judgment, his considerable skill, and his
ability to handle stressful situations calmly. Tr. 102104. She demonstrated, clearly and convincingly, that
Mr. Skelton met and meets of the essential eligibility
requirements set forth in Rule 6.3 (1), (2), (3), (4), (9),
and (10). For the majority to draw adverse inferences
from her testimony was arbitrary, and its findings in
that regard should be reversed.

App. 240
E. The Majority concluded that Mr. Skelton
is “socially isolated” despite overwhelming
evidence in the record that Mr. Skelton
has a robust social network of
family, friends, and colleagues.
97. The Majority further finds that Mr. Skelton
“failed to demonstrate a robust support network in addition to therapists, such as friends, colleagues or a
group that might be found at LAP” and that Mr. Skelton’s “apparent social isolation, unrebutted by corroborating evidence of strong social relationship with
family, friends or colleagues, remains a serious concern.” There is no evidence in the record to support the
conclusion that Mr. Skelton is “socially isolated” and
lacks “family, friends or colleagues.” There is a wealth
of evidence that directly and strongly supports the opposite conclusion.
98. On direct questioning by the Panel, Mr. Skelton said that the “people in his life” were “my parents,
my friends, my job, the people I work with . . . Dr. Wolowitz and Dr. Turk.” Tr. 211. No evidence impeached
that testimony or tended to show that he did not, in
fact, have those people in his life. He testified that he
would be comfortable talking to some of his older
friends about his mental health difficulties. Id. He
described “very strong friendships” with “longtime
friends” dating back to middle school. Tr. 212. Mr.
Skelton’s testimony is consistent with his initial application to the Illinois Bar, which included several affidavits attesting to Mr. Skelton’s good character. CF, at
708-715. One affiant, Franklin Guenthner, described

App. 241
himself as a friend of Mr. Skelton’s since junior high
school, and stated that he visits with Mr. Skelton
whenever he is in the area. CF at 708. Another, Daniel
Diamond, has been Mr. Skelton’s friend since 2003. CF
at 709. Sanita Saengvilay was a college friend of Mr.
Skelton’s. CF at 710. Each and every affiant, including
two JMLS law professors, stated a belief in Mr. Skelton’s integrity, and described him as being worthy of
the highest trust and confidence.
99. Dr. Wolowitz testified that Mr. Skelton talks
with her about “issues at work, future career goals,
plans, any issues with his family members, friendships . . . ”. Tr. 78. She testified that his support network consists of his friends and family. Tr. 83. She has
discussed his friendships with him, and she understands his friends to be “a group of long-standing
friends, some from high school, I think some from previous jobs, college, and law school.” Id. He has told her
that his social network is a largely positive environment for him. Tr. 84.
100. Ms. Ritter’s testimony established that Mr.
Skelton can and does communicate appropriately and
professionally with coworkers, FOIA requesters, reporters, support staff, and any number of the approximately 270 City attorneys (including herself ). Tr.
104-106. She has never seen Mr. Skelton “be anything
but extremely cool,” even under pressure. Tr. 108. That
testimony establishes that Mr. Skelton functions well
within a network of colleagues and professionals. Ms.
Ritter also testified that Mr. Skelton, on his own initiative, volunteers to perform legal research projects for

App. 242
the four attorneys in the FOIA group, herself, and the
City Prosecutor. Tr. 115-116. Ms. Ritter’s testimony establishes that she has a strong professional relationship with Mr. Skelton. Ms. Ritter also testified that the
FOIA group socializes outside of work a few times a
year, and that the office environment is friendly. Tr.
114. This is normal for professional colleagues. It was
arbitrary for the Majority to conclude that Mr. Skelton
lacks colleagues and troubling that the Majority could
make such a conclusion given the wealth of evidence to
the contrary.
101. The Majority simply, and wrongly, ignored
all of this evidence in order to reach the conclusion that
Mr. Skelton lacks a social network. Even as it ignored
his character affidavits, the Majority also faulted Mr.
Skelton for not providing affidavits from his parents
and family that say that they support Mr. Skelton.
Such a requirement raises the burden of proof well beyond what is reasonable, requiring sworn affidavits or
testimony of Mr. Skelton’s simple and unrebutted testimony that his parents are supportive of him. There is
no logical reason to require that level of evidence, and
to fault Mr. Skelton for its absence imposes an unreasonable and demeaning burden on him. It is demeaning for the Majority to suggest, without support, that
Mr. Skelton’s family is not supportive and loving. The
Majority links this unreasonable burden to Mr. Skelton’s mental health status as well. As set forth in sections (G) and (H), infra, it can safely be said that other
applicants to the Illinois bar are not required to provide affidavits that they have parental or familial

App. 243
support. To require that of Mr. Skelton, where his testimony stands uncontradicted, is arbitrary, unreasonable, and demeaning.
102. Further, Mr. Skelton’s doctors clearly testified, in their in post-hearing affidavits, that broad disclosures of Mr. Skelton’s condition to others outside his
family were unnecessary and likely to lead to prejudice
and stigma. Their testimony was not rebutted or questioned, and it comports with common sense. Certain
questioning by the Panel at hearing appeared to fault
Mr. Skelton for not broadly disclosing his mental
health history to people other than his parents and
treaters. Tr. 230-231. Instead of accepting the doctors’
commonsense testimony that Mr. Skelton does not
need to, and indeed likely should not, broadly disclose
his mental health history, the Majority found that to
fail to do so constituted “social isolation” that somehow
negatively impacts his character.
103. Despite the clear import of the unrebutted
testimony of Mr. Skelton’s doctors, the majority
adopted an approach to the “social isolation” issue that
is simply wrong. Dr. Wolowitz mentioned the concept
as a way of noting that strong social groups and interactions help patients like Mr. Skelton, and she testified
that she Mr. Skelton’s social networks have been “important for him” and “increasing.” Tr. 76. At no point
during her lengthy testimony did she testify that Mr.
Skelton was socially isolated. The Majority, however,
incorrectly and impermissibly read Dr. Wolowitz’ testimony as somehow affirming that Mr. Skelton does
not have social networks on which he can rely. Neither

App. 244
Dr. Turk nor Dr. Wolowitz, nor any other witness, testified that Mr. Skelton is socially isolated; only that social isolation can be a risk factor for people struggling
with delusional disorders. The evidence clearly shows
that Mr. Skelton does have a social network, and he
should not be faulted for failing to rebut an inference
that should not exist in the first place.
104. Even if it were present here, “social isolation” is not a factor in Rule 6.3 or Rule 6.5 of the
Board’s Rules of Procedure, and there does not appear
to be any authority suggesting that social isolation is
a reason to find someone unfit to practice law. The Majority’s finding, lacking any grounding in the unrebutted evidence offered by Mr. Skelton’s treatment
providers, thus seems to function only as an impermissible, and incorrect, judgment about Mr. Skelton’s personal life. That is not a proper basis for a
determination of character and fitness, and this Court
should disregard it.
F. The Majority concluded that Mr. Skelton
failed to accept responsibility for his poor
conduct during the Inquiry Panel even
though the evidence overwhelming showed
Mr. Skelton accepted responsibility for
this poor conduct and expressed
sincere remorse for his behavior.
105. The Majority opinion states that “on denial
by the Inquiry Panel, Mr. Skelton acknowledged his inappropriate conduct, but still could not understand
why that conduct was alarming to the Inquiry Panel”

App. 245
and that Mr. Skelton failed to present evidence “corroborative of his acceptance of responsibility” for his
misconduct. These conclusions are not based in the
evidence, and they ignore the overwhelming evidence
that Mr. Skelton accepted responsibility for his poor
conduct and expressed sincere remorse for his behavior.
106. The Majority’s conclusion that Mr. Skelton
“could not understand why that conduct was alarming
to the Inquiry Panel” appears to be based on its misreading of Dr. Wolowitz’s testimony. She testified that
upon learning of the Inquiry Panel’s adverse determination, Mr. Skelton hoped that he would be able to
prove that with therapy and medication he would be
able to practice law. Tr. 87. During his early consultations with Dr. Wolowitz, Mr. Skelton expressed some
confusion about some aspects of the Inquiry Panel process, and he occasionally expressed a question about
what made sense to him. Tr. 88. However, he was able
to understand why his behavior had been a concern
and alarm. Id.
107. There is absolutely nothing wrong with Mr.
Skelton discussing with his therapist the incidents involving the Inquiry Panel, or expressing some confusion about the Inquiry Panel process. This exchange –
the very reporting of which demonstrates Mr. Skelton’s
complete candor – shows that Mr. Skelton could and
did understand why the conduct was alarming to the
Inquiry Panel. That is what Dr. Wolowitz said. It also
clearly shows Mr. Skelton thought his conduct was inappropriate, as he was seeking therapy to understand

App. 246
and reflect on it. This conversation supports Mr. Skelton’s full acceptance of responsibility for his misconduct, and it was arbitrary and simply wrong for the
Majority to find otherwise.
108. Additionally, even if the conversation had
somehow reflected poorly on Mr. Skelton, it happened
in April 2018 – 15 months before the hearing in this
matter. What Mr. Skelton expressed at the outset of his
therapeutic relationship with Dr. Wolowitz did not prevent him from accepting total responsibility for his
conduct and expressing sincere remorse for it, as he did
at hearing. Mr. Skelton engaged in a private conversation with his therapist shortly after he began therapy
with her, and shortly after he ceased his offensive conduct. He should be allowed, in that context and in that
situation, to have questions or confusions about anything without fear of having his private therapeutic
conversations used against him. Further, the conversation he had with Dr. Wolowitz does not evince a lack of
responsibility or acknowledgment of wrongdoing on
Mr. Skelton’s part. He was simply discussing his situation and trying to understand it. It was arbitrary for
the Majority to find that Mr. Skelton did not accept responsibility for his conduct.
109. As importantly, Mr. Skelton’s actions since
March 2018 show his complete acceptance of responsibility for his prior misconduct. As the Dissent properly
highlighted, Mr. Skelton has been a conscientious and
regular participant in his ongoing course of treatment.
He complies with his prescribed medication. As his
doctors clearly testified, this course of treatment

App. 247
effectively prevents any reoccurrence of conduct like
his prior misconduct. That, of course, is the ultimate
point of treatment: psychological health and preventing recurrence of troubling behavior. Mr. Skelton has
done everything he possibly could do to avoid any recurrence of previous misconduct. The question of who
Mr. Skelton told about his misconduct matters far less
than the actions he took to prevent that misconduct
from recurring. It is Mr. Skelton’s enthusiastic engagement in psychological treatment that shows, more
than anything else, his acceptance of responsibility for
his misconduct. The Majority opinion does not recognize this simple truth, instead incorrectly faulting Mr.
Skelton for matters that do not and should not reflect
poorly on him.
G. The Majority’s Decision is Inconsistent
with the Americans with Disabilities Act
110. The Americans with Disabilities Act (ADA)
prohibits public entities from discriminating against
individuals with disabilities. The Act provides that “no
qualified individual with a disability shall, by reason
of such disability be excluded from participation in or
be denied the benefits of the services, programs, or activities of a public entity, or be subjected to discrimination by any such entity.” 42 U.S.C. § 12132. Public
entities include “any department, agency, special purpose district or other instrumentality of a State or
States or local government.” 42 U.S.C. § 12131(1)(B).
Pursuant to Congressional directive at 42 U.S.C.
§ 12134(a), the Department of Justice has issued

App. 248
several regulations relevant here. One such regulation
provides that a public entity may not “directly or
through contractual or other arrangements, utilize
criteria or methods of discrimination on the basis of a
disability.” 28 C.R.F. § 35.130(b)(3)(i). A public entity
may not “administer a licensing or certification program in a manner that subjects qualified individuals
with disabilities to discrimination on the basis of a disability.” Id. § 35.130(b)(6). Additionally, a public entity
may not impose or apply “eligibility criteria that screen
out or tend to screen out an individual with a disability
or any class of individuals with disabilities from fully
and equally enjoying any service, program, or activity,
unless such criteria can be shown to be necessary” for
the provision of the service, program, or activity. Id.
§ 35.130(b)(8). A public entity may not “unnecessarily
impose requirements or burdens on individuals with
disabilities that are not placed on others” are also
prohibited. 28 C.F.R. pt. 35, app. B at 673. The Illinois
Board of Admissions to the Bar is a public entity under the ADA because it is a public licensing scheme.
Hanson v. Medical Bd. of California, 279 F. 3d. 1167,
1172 (9th Cir. 2002).
111. In order to establish that the Majority’s decision contravened the ADA, Mr. Skelton must prove
that he is a qualified individual with a disability. The
ADA defines a disability as “(A) a physical or mental
impairment that substantially limits one or more major life activities of an individual; (B) record of such an
impairment: or (C) being regarded as having such an
impairment.” 42 U.S.C. § 12102(1). The evidence in

App. 249
this matter establishes that Mr. Skelton’s delusional
disorder isa disability under the Act; it substantially
limited his ability to participate in one or more major
life activities. Next, Mr. Skelton must prove that he is
a qualified individual and that the Board has discriminated against him because of a disability.
1. Mr. Skelton is a qualified individual
because he meets the essential eligibility
requirements for admission to the Bar.
112. The evidence in this matter establishes that
Mr. Skelton meets the essential eligibility requirements for admission to the Bar. As set forth in Rule 6.3,
those elements are:
(1) the ability to learn, to recall what has
been learned, to reason, and to analyze; (2) the
ability to communicate clearly and logically
with clients, attorneys, courts, and others;
(3) the ability to exercise good judgment in
conducting one’s professional business; (4) the
ability to conduct oneself with a high degree
of honesty, integrity, and trustworthiness in
all professional relationships and with respect to all legal obligations; (5) the ability to
conduct oneself with respect for and in accordance with the law and the Illinois Rules of
Professional Conduct; (6) the ability to avoid
acts that exhibit disregard for the health,
safety, and welfare of others; (7) the ability to
conduct oneself diligently and reliably in fulfilling all obligations to clients, attorneys,
courts, creditors, and others; (8) the ability to

App. 250
use honesty and good judgment in financial
dealings on behalf of oneself, clients, and others;
(9) the ability to comply with deadlines and
time constraints; and (10) the ability to conduct oneself properly and in a manner that
engenders respect for the law and the profession.
113. The testimony of all of the witnesses in this
matter together establishes that Mr. Skelton meets the
above criteria. Ms. Ritter’s detailed, specific, and unimpeached testimony concerning Mr. Skelton’s conscientious and skillful performance of his duties as a FOIA
officer establishes elements (1), (2), (3), (4), (7), (9), and
(10). Dr. Turk three times described Mr. Skelton as
“forthright,” which establishes element (4), as does
Mr. Skelton’s own truthful and open conduct and testimony throughout the Character and Fitness process.
Even the Inquiry Panel, toward which he had behaved
improperly as a result of his disorder, noted Mr. Skelton’s honesty, and commended him for it. No evidence
was presented that Mr. Skelton does not meet elements
(5), (6), or (8), and no facts appear from any materials
compiled by the Board that would indicate that those
elements are somehow not satisfied.
2. The Majority’s Decision Discriminates
Against Mr. Skelton Based on a Disability.
114. For the many reasons set forth in greater
detail supra, the Majority’s decision discriminates
against Mr. Skelton based on a disability, in a manner
inconsistent with the ADA. The Seventh Circuit has

App. 251
held that discrimination under Title II of the ADA
“may be established by evidence that (1) the defendant
intentionally acted on the basis of the disability, (2) the
defendant refused to provide a reasonable modification, or (3) the defendant’s rule disproportionally impacts disabled people.” Washington v. Indiana High
Sch. Athletic Assoc., 181 F. 3d 840, 847 (7th Cir. 1999).
The Majority’s decision intentionally discriminates
against Mr. Skelton based on his disability, and its approach to the issues raised by Mr. Skelton’s disability
disproportionally impacts disabled people.
a.

The Majority’s Decision Intentionally
Discriminates Against Mr. Skelton
based on a Disability.

115. In its decision, the Majority made findings
adverse to Mr. Skelton that would not have been made
concerning an applicant not presenting a similar mental health history. For example, the Majority made reference to testimony elicited from Mr. Skelton’s
treatment providers not concerning his past conduct,
but in reference to wholly unrelated incidents that
Mr. Skelton had discussed with them over the course
of his treatment. The Majority characterized those incidents as involving “delusional thoughts,” and gave
them the same adverse weight as the other, more serious incidents that gave rise to the proceedings before
the Inquiry and Hearing Panels. But that was a mischaracterization. The doctors themselves did not describe the incidents as serious, instead noting that
the incidents only involved passing thoughts that Mr.

App. 252
Skelton had had, and that he had then reported to
them. They resulted in no conduct of any kind, much
less conduct that harmed anyone. In one case, the
thoughts in question involved Mr. Skelton’s quibble –
contained entirely within his own mind – with a grade
in a graduate school class. No applicant without Mr.
Skelton’s mental health history would find such an incident the subject of a finding in a character and fitness
decision. That it arose in this case is evidence both of
discrimination against Mr. Skelton based on his disability, and of the disparate impact the Majority’s reasoning has on people with disabilities.
116. The Majority’s suggestion that Mr. Skelton
needed to have proved the existence of his support network also contravenes the ADA. In point of fact, affidavits from various members of Mr. Skelton’s network of
friends and colleagues were in evidence, as part of the
Character and Fitness file; but the Majority ignored
them. Instead, it suggested that the absence of other
affidavits from Mr. Skelton’s family corroborating his
testimony tended to indicate that Mr. Skelton was socially isolated, which it termed a matter of “serious
concern.” It would not be a matter of “serious concern”
in any case not involving the mental health issues presented here. The majority uses a flatly incorrect reading of the evidence to justify a finding that Mr. Skelton
is socially isolated, when it would never have found
that absent the evidence presented concerning Mr.
Skelton’s mental health status. The disability forms
the entire basis for the “serious concern.” Under the
ADA, that places a burden on Mr. Skelton that other

App. 253
applicants would not have, in a manner inconsistent
with 28 C.F.R. pt 35, app. B at 673.
b.

The Majority’s Decision Disproportionately
Impacts Disabled People.

117. The Majority’s decision disparately impacts
not just Mr. Skelton himself, but disabled people generally. Mr. Skelton candidly provided evidence and responsive information to the Hearing Panel at every
turn, even discussing and allowing his treatment providers to discuss the most intimate details of his counseling sessions. That evidence was then misinterpreted
and mischaracterized, in a manner that suggests the
very stigma against which disabled people must struggle. To encounter that stigma in this kind of proceeding
is discouraging to those who would seek to obtain professional help in an effort to demonstrate competency
and fitness.
118. The American Bar Association National
Task Force on Lawyer Well-Being recently published a
report addressing lawyer well-being, mental illness,
and addiction in the legal profession. The report repeatedly emphasized that that lawyers and law students often avoid seeking assistance for mental health
or addiction issues because of fear that seeking help
will impact their licensure. Lawyers and law students
avoid seeking help to the point that their illness impacts their daily function in addition to their ability to
practice law competently. The Majority’s decision contributes to the stigma that results in lawyers and law

App. 254
students avoiding mental health treatment by grounding its finding of unfitness in Mr. Skelton’s mental
health status. Disabled people are concerned with the
impact of that stigma upon them in a direct way that
non-disabled people are not; thus, the Majority’s decision has a disproportionate impact on disabled people.
H. The Majority’s Decision Violates the
Fourteenth Amendment of the United State
Constitution and the Illinois Constitution
Because it is Wholly Arbitrary.
119. “A State cannot exclude a person from the
practice of law or from any other occupation in a manner or for reasons that contravene the Due Process or
Equal Protection Clauses of the Fourteenth Amendment” Schware v. Board of Bar Exam. of State of N.M.,
353 U.S. 232, 248 (1957). In Schware, the New Mexico
bar denied admission to an applicant after it found –
absent a full hearing – that he had used aliases, had
been arrested (but never charged or convicted), and
had been a member of the Communist Party. At a later
hearing, Schware presented extensive witness testimony establishing his good character and reputation.
The bar presented no evidence. Nevertheless, the bar
still denied him admission, for the same reasons as before. The Court, overturning the New Mexico bar’s decision, held that “a State can require high standards of
character and fitness before it admits an applicant to
the bar, but those requirements must have a rational
connection with the Mr. Skelton’s fitness or capacity to
practice law.” Id. At 239 (citing Douglas v. Noble 261

App. 255
U.S. 165 (1923), Cummings v. State of Missouri, 71 U.S.
277 (1987), and Nebbia v. New York, 291 U.S. 502
(1934). The Court found that rational connection lacking in Schware. The Court further held that “a state
cannot exclude an applicant from the practice of law
when there is no basis for finding that the applicant
fails to meet the standards of qualification or when the
state action is invidiously discriminatory.”1 Id. That is,
under Schware, a state can have and enforce requirements and qualifications for admission to its bar, but
those qualifications must bear a rational relationship
to fitness to practice; and determinations of whether
those qualifications are met must not be made in arbitrary or discriminatory ways.
120. Here, Mr. Skelton provided extensive testimony from his treating psychiatrist and psychologist
concerning his present mental fitness. The Board of
Admissions offered no evidence that contradicted or
undermined that testimony; in fact, like the New Mexico bar in Schware, it offered no evidence at all. While
the Board can require that Applicants are fit to practice law, it cannot find Mr. Skelton failed to prove his
present mental fitness under these circumstances. To
do so would be to exclude him arbitrarily and without
a factual basis, despite the Court’s holding in Schware,
the requirements of the Fourteenth Amendment, and
the Due Process Clause.

1

It is likely that the Due Process Clause of the Illinois Constitution contains the same protections as the Fourteenth Amendment as explained in Schware.

App. 256
121. Further, the Majority here applied standards that have no rational connection with Mr.
Skelton’s fitness or capacity to practice law. The Majority found that Mr. Skelton was unfit because of “recent
incidents of delusional thoughts,” but the events the
Majority referenced in no way called into question
Mr. Skelton’s present mental fitness or ability to practice law. Had Mr. Skelton’s mental health status not
been in issue, the Majority would never have held that
such events disqualify someone from the practice of
law. These events – momentary, passing, minor
thoughts well controlled by Mr. Skelton under his current treatment regime – had no rational connection to
Mr. Skelton’s capacity to practice law, and the majority
should not have relied on them in assessing Mr. Skelton’s character and fitness.
122. Additionally, the Majority’s finding that Mr.
Skelton was unfit to practice law because he is “socially
isolated” lacked an evidentiary basis, and so lacked a
rational relationship to Mr. Skelton’s fitness. Further,
social isolation is not a factor in rule 6.3 or 6.5 of the
Board’s Rules, and it has no rational connection to an
applicant’s ability to practice law. As such, the Majority’s findings were again inconsistent with the Constitutional principles set forth in Schware.
CONCLUSION
Mr. Skelton respectfully requests, pursuant to
Supreme Court Rule 708(h), that this Court provide
relief from the Findings and Conclusions of the

App. 257
majority of the Hearing Panel; adopt the findings of
the dissent; find that he has demonstrated, clearly and
convincingly, that he is of good character and is fit to
practice law in Illinois; find that he is able to meet the
standards of the profession; and grant him a license to
practice law in Illinois.
Respectfully submitted,
Thomas Joseph Skelton, Applicant
/s/ James A. Doppke, Jr.
By: James A. Doppke, Jr.
His attorney
James A. Doppke, Jr.
Robinson, Stewart, Montgomery & Doppke LLC
321 South Plymouth Court, 14th Floor
Chicago, IL 60604
jdoppke@rsmdlaw.com

App. 258
RULES OF PROCEDURE
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

BOARD OF ADMISSIONS TO THE BAR
AND
THE COMMITTEES ON CHARACTER AND FITNESS
OF
THE ILLINOIS SUPREME COURT
As amended and approved by Order dated
6/8/2018
TABLE OF CONTENTS
GLOSSARY OF TERMS

2

RULE 1.
CHARACTER AND FITNESS
COMMITTEES

3

RULE 2.
TION

3

DIRECTOR OF ADMINISTRA-

RULE 3.
CHARACTER AND FITNESS
REGISTRATION

3

RULE 4.
APPLICATION TO TAKE THE
BAR EXAMINATION

4

RULE 4A. APPLICATION FOR ADMISSION
BY TRANSFERRED UBE SCORE

5

RULE 5.
PROCESSING OF CHARACTER
AND FITNESS REGISTRATIONS

5

RULE 6.
CHARACTER AND FITNESS
REQUIREMENTS

5

RULE 7.

7

CONDITIONAL ADMISSION

App. 259
RULE 8.
CONSIDERATION OF CHARACTER AND FITNESS REGISTRATIONS BY
DIRECTOR, COMMITTEE MEMBER, AND
INQUIRY PANEL

12

RULE 9.
CONSIDERATION OF CHARACTER AND FITNESS REGISTRATIONS BY
HEARING PANEL

14

RULE 10. STATUS OF CERTAIN CHARACTER AND FITNESS REGISTRATIONS

17

RULE 11.

CONFIDENTIALITY

18

RULE 12.

APPEALS

18

RULE 13.

NEW HEARINGS

18

RULE 14

SERVICE

20

GLOSSARY OF TERMS
Applicant(s) or applicant(s): Persons applying for full
or limited admission to the Illinois bar under Supreme
Court Rules 704, 705, 712, 713, 715, 716, 717, or 719.
ARDC: The Illinois Attorney Registration and Disciplinary Commission.
Administrator: The Administrator of the Illinois Attorney Registration and Disciplinary Commission.
Board: The Illinois Board of Admissions to the Bar.
Committee or Committees: One or more of the five Committees on Character and Fitness for the five Appellate
Court Districts of the Illinois Supreme Court.
Court: The Illinois Supreme Court.

App. 260
Director: The Director of Administration of the Illinois
Board of Admissions to the Bar.
District: The geographical boundary of one of the five
Appellate Court Districts of the Illinois Supreme
Court.
MBE: Multistate Bar Examination
MEE: Multistate Essay Examination
MPRE: Multistate Professional Responsibility Examination MPT: Multistate Performance Test
NCBE: The National Conference of Bar Examiners.
Rule(s): The Rules of Procedure herein.
UBE: Uniform Bar Examination
RULE 1. CHARACTER AND FITNESS COMMITTEES
1.1. Appointment and term. The appointment and
terms of the members of the Committees on Character
and Fitness for the five Judicial Districts shall be as
provided by Supreme Court Rule 708(a). Any member
whose term has expired and who has an uncompleted
assignment as a member of an Inquiry Panel or a Hearing Panel may, at the discretion of the Committee
Chairperson, continue to serve until conclusion of the
assignment.
1.2. Mandatory annual meeting. No less than once
each calendar year, the members of each Committee
shall meet in person to consider and review the

App. 261
Committee’s pending matters, objectives, and work for
the ensuing year. The meeting shall be scheduled in
advance by the Chairperson of the Committee with assistance from the Board’s staff in Springfield.
1.3. Expenses of the Committees. Subject to the
prior approval of the Board, all reasonable costs and
expenses of the Committees shall be reimbursed by the
Board.
RULE 2. DIRECTOR OF ADMINISTRATION
2.1. Director of Administration. The Board shall
appoint a Director of Administration, who, subject to
the Board’s supervision, shall oversee the administration of all aspects of bar admissions, including the
character and fitness process. The Director shall receive such compensation as the Board authorizes.
2.2. Duties of Director. Subject to the Board’s direction, the Director shall: (1) conduct examinations on
academic qualification and professional responsibility
in accordance with Supreme Court Rule 704; (2) receive, process, investigate, and review all materials,
documentation, and information submitted by and concerning all applicants for admission, including limited
admission, to the bar; (3) maintain the records of the
Character and Fitness Committees and assist each
Committee in its investigation and evaluation of applicants; (4) employ, at such compensation as may be authorized by the Board, such administrative, clerical,
investigative, and legal personnel as may be necessary
for the efficient conduct of the office; (5) discharge any

App. 262
such personnel whose performance is unsatisfactory;
and (6) maintain such records, make such reports, and
perform such other duties as may be required by the
Board.
RULE 3. CHARACTER & FITNESS REGISTRATION
3.1. Registration. At the time of making application
to the bar on any basis permitted by the Supreme
Court Rules, an applicant shall submit to the Board at
its office in Springfield a character and fitness registration in the form prescribed by the Board.
3.2. Character & Fitness Questionnaire. Every applicant shall register his or her character and fitness
by submitting a completed Character & Fitness Questionnaire together with such additional proofs and documentation as the Board may require; such
registration shall be accompanied by the filing fee provided by Supreme Court Rule 706(a).
3.3. Character & Fitness Update. Every applicant
shall submit a completed Character & Fitness Update
as a supplement to the Character & Fitness Questionnaire he or she most recently filed upon the request of
the Board or the Committee as well as under the following circumstances:
(a) 9 or more months have elapsed between the
date an applicant was recommended for certification by the Committee and the date the
applicant is otherwise eligible for admission
to the bar;

App. 263
(b) 9 or more months have elapsed between the
date an applicant filed his or her most recent
Character & Fitness Questionnaire and the
date the applicant submits a written request
for reactivation of his or her application pursuant to Rule 10.2;
(c) an applicant requests a hearing pursuant to
Rule 8.3c.;
(d) an applicant is notified that his or her petition
for new hearing has been granted pursuant to
Rule 13.5; and
(e) an applicant who previously registered for an
Illinois bar examination makes application
for a subsequent bar examination; provided,
however, that if three or more years have
elapsed since the applicant last filed a Character & Fitness Questionnaire, such applicant
shall again file the Character & Fitness Questionnaire rather than a Character & Fitness
Update.
3.4. Continuing obligation to report. Every applicant has a continuing obligation to report promptly to
the Board any change or addition to the information
provided in his or her Character & Fitness Questionnaire and Character & Fitness Update, including without limitation changes in address, email address,
phone number(s), and employment, as well as criminal
charges, disciplinary proceedings, traffic violations,
parking violations not paid on receipt, and any other
occurrence or event that could bear in any way upon
character and fitness or the ability of the Board to

App. 264
communicate with the applicant, or any person or entity named in his or her application.
RULE 4. APPLICATION TO TAKE THE BAR
EXAM
4.1 Applications. Every applicant for the Illinois bar
examination shall file with the Board at its office in
Springfield an application to take the bar examination
in the form prescribed by the Board. Applications shall
be filed, and fees paid, as provided in Supreme Court
Rule 706.
4.2 Grading and Scoring.
4.2a. The Board may adopt grading policies as it
deems appropriate provided the policies are
not inconsistent with the policies applicable
to grading of the UBE as coordinated by the
NCBE.
4.2b. The Illinois Bar Examination shall be the
UBE produced by the NCBE. Raw scores on
MEE and the MPT shall be combined and
converted to the MBE scale to calculate
written scaled scores according to the
method used by the NCBE. The MBE scaled
scores shall be combined with the MEE and
MPT scaled scores to determine the total
scaled score, with the MEE weighted thirty
percent (30%), the MPT weighted twenty
percent (20%), and the MBE weighted fifty
percent (50%). An applicant must attain a
scaled score of two hundred sixty-six (266)

App. 265
or greater to be deemed to have passed the
exam.
4.3 MBE score transfer. In lieu of taking the MBE
portion of the first Illinois bar examination taken by
the applicant, the Board may, if requested by the applicant, accept any MBE score achieved in another jurisdiction in a prior examination conducted within the
immediately preceding thirteen months of the current
examination, provided the applicant successfully
passed the entire bar examination in the other jurisdiction in one sitting and achieved a minimum scaled
score of one hundred forty-one (141) on the MBE. Applicants transferring a MBE score to Illinois will not
receive a UBE score. In the event the applicant fails
the bar examination in the other jurisdiction, the MBE
score may not be used in Illinois in the current or any
succeeding examination. If the applicant fails the Illinois Bar Examination, the MBE score so transferred
may not be used in any succeeding Illinois Bar Examination. Applicants shall use the procedures prescribed
by the Board in transferring a MBE score.
4.4. Minimum MPRE Score. The Board shall test applicants on professional responsibility and legal ethics
by separate examination, and shall use the MPRE. Applicants must receive a minimum scaled score of eighty
(80) on the MPRE to be eligible for admission.

App. 266
Rule 4A. Application for Admission by Transferred UBE Score
4A.1. Applications. Every applicant for admission by
transferred UBE score shall file with the Board at its
office in Springfield an application in the form prescribed by the Board. Applications shall be filed, and
fees paid, as provided in Supreme Court Rule 706.
4A.2. Minimum UBE score. A total score of two hundred sixty-six (266) shall be the minimum accepted
score.
4A.3. Minimum MPRE score. A minimum scaled
score of eighty (80) on the MPRE is required for admission by transferred UBE score.
RULE 5. PROCESSING OF CHARACTER AND
FITNESS REGISTRATIONS
With regard to each Character & Fitness Questionnaire and Character & Fitness Update received, the
Director shall cause a character investigation and report to be prepared by the transmittal of requests for
pertinent information to appropriate persons and entities, including but not limited to employers, former employers, colleges and universities, law schools, other
bar admitting authorities, courts, law enforcement
agencies, regulatory agencies, creditors, credit reporting agencies, former spouses, and character references.

App. 267
RULE 6. CHARACTER AND FITNESS REQUIREMENTS
6.1. Committee recommendation and burden of
proof. A Committee shall determine whether to recommend to the Board that an applicant presently
possesses the requisite character and fitness for admission to the practice of law. If a Committee deems it
necessary or appropriate under the circumstances, it
shall conduct further investigation of an applicant before ascertaining his or her character and fitness. An
applicant has the burden to prove by clear and convincing evidence that he or she has the requisite character
and fitness for admission to the practice of law.
6.2. Basis for recommendation. An applicant may
be recommended for certification to the Board if a Committee determines that his or her record of conduct
demonstrates that he or she meets the essential eligibility requirements for the practice of law and justifies
the trust of clients, adversaries, courts and others with
respect to the professional duties owed to them. A record manifesting a failure to meet the essential eligibility requirements, including, inter alia, a deficiency in
the honesty, trustworthiness, diligence, or reliability of
an applicant may constitute a basis for denial of admission.
6.3. Essential eligibility requirements. The essential eligibility requirements for the practice of law include the following: (1) the ability to learn, to recall
what has been learned, to reason, and to analyze; (2)
the ability to communicate clearly and logically with

App. 268
clients, attorneys, courts, and others; (3) the ability to
exercise good judgment in conducting one’s professional business; (4) the ability to conduct oneself with
a high degree of honesty, integrity, and trustworthiness
in all professional relationships and with respect to all
legal obligations; (5) the ability to conduct oneself with
respect for and in accordance with the law and the Illinois Rules of Professional Conduct; (6) the ability to
avoid acts that exhibit disregard for the health, safety,
and welfare of others; (7) the ability to conduct oneself
diligently and reliably in fulfilling all obligations to clients, attorneys, courts, creditors, and others; (8) the
ability to use honesty and good judgment in financial
dealings on behalf of oneself, clients, and others; (9) the
ability to comply with deadlines and time constraints;
and (10) the ability to conduct oneself properly and in
a manner that engenders respect for the law and the
profession.
6.4. Misconduct. The revelation or discovery of any of
the following should be treated as cause for further detailed inquiry before a Committee decides whether the
applicant possesses the requisite character and fitness
to practice law: (a) unlawful conduct; (b) academic misconduct; (c) making false statements, including omissions; (d) misconduct in employment; (e) acts involving
dishonesty, fraud, deceit or misrepresentation; (f )
abuse of legal process; (g) neglect of financial responsibilities; (h) neglect of professional obligations; (i) violation of an order of a court; (j) evidence of conduct
indicating instability or impaired judgment; (k) denial
of admission to the bar in another jurisdiction on

App. 269
character and fitness grounds; (l) disciplinary action by
a lawyer disciplinary agency or other professional disciplinary agency of any jurisdiction; (m) acts constituting the unauthorized practice of law; and (n) failure to
comply with the continuing duty of full disclosure to
the Board and the Committees subsequent to the date
of application.
6.5. Factors in weighing prior misconduct. In determining whether to recommend to the Board that the
present character and fitness of an applicant qualifies
him or her for admission to the practice of law, a Committee shall consider the following factors in assigning
weight and significance to prior misconduct: (a) age at
the time of the conduct; (b) recency of the conduct; (c)
reliability of the information concerning the conduct;
(d) seriousness of the conduct; (e) factors underlying
the conduct; (f ) cumulative effect of the conduct; (g)
ability and willingness to accept responsibility for the
conduct; (h) candor in the admissions process; (i) materiality of any omissions or misrepresentations; (j) evidence of rehabilitation; and (k) positive social
contribution since the conduct.
6.6. Transmittal of certification to the Court. Provided that all other conditions for admission have been
met, upon receipt from a Committee of a recommendation for certification pursuant to these Rules, the
Board shall transmit such certification to the Supreme
Court together with any additional information or recommendation the Board may deem appropriate. A copy
of the Board’s recommendation, if any, shall be mailed

App. 270
to the applicant, his or her counsel, if any, and to the
Committee Chairperson.
RULE 7. CONDITIONAL ADMISSION
7.1. Conditional Admission. In its sole discretion, a
Committee may recommend to the Board that an applicant be admitted to the bar on a conditional basis in
accordance with these Rules. The terms and conditions
of a recommendation for conditional admission shall be
set forth in a written Consent Agreement signed by the
Committee, the applicant, and the Director. An applicant may be considered or recommended for conditional admission at the discretion of the Committee.
7.2. Limited purpose of conditional admission. As
provided by Rule 7.3, conditional admission may be
employed to permit an applicant who currently satisfies character and fitness requirements to practice law
while his or her continued participation in an ongoing
course of treatment or remediation for previous misconduct or unfitness is monitored to protect the public.
Conditional admission is neither to be used as a
method of achieving fitness nor as a method of monitoring the behavior of all applicants who have rehabilitated themselves from misconduct or unfitness.
Conditional admission may be employed only when an
applicant has been engaged in a sustained and effective course of treatment or remediation for a period of
time sufficient to demonstrate his or her commitment
and progress but not yet sufficient to render unlikely a
recurrence of the misconduct or unfitness.

App. 271
7.3. Limited circumstances under which conditional admission may be considered. A Committee
may recommend that an applicant be admitted to the
bar conditioned on the applicant’s compliance with relevant conditions prescribed by that Committee if the
applicant currently satisfies all requirements for admission to the bar and possesses the requisite good
moral character and fitness for admission, except that
he or she is engaged in a sustained and effective course
of treatment for or remediation of
(a) substance abuse or dependence;
(b) a diagnosed mental or physical impairment
that, should it reoccur, would likely impair the
applicant’s ability to practice law or pose a
threat to the public; or
(c) neglect of financial affairs
that previously rendered him or her unfit for admission to the bar, and the applicant has been engaged in
such course of treatment or remediation for no fewer
than 6 continuous months, if the subject of treatment
is substance abuse or dependence or mental or physical impairment, and no fewer than 3 continuous
months if the subject of remediation is neglect of financial affairs. Absent recent lapses, recent failures, or evidence that a lapse or failure is presently likely to
occur, an applicant who has engaged in such sustained
and effective course of treatment or remediation for at
least 24 continuous months may not be conditionally
admitted.

App. 272
7.4. Recommendation of Inquiry Panel or Hearing Panel.
7.4a. A recommendation that an applicant be admitted to the bar on a conditional basis can be
made only after that applicant has personally met
with all members of an Inquiry Panel appointed in
accordance with these Rules. A majority of the Inquiry Panel shall constitute a quorum, and the
concurrence of a majority shall be necessary to a
recommendation.
7.4b. A recommendation for conditional admission may also be made by the members of a Hearing Panel; provided, however, that the applicant
did not decline to consider or consent to conditional admission at the Inquiry Panel level. Four
members of the Hearing Panel shall constitute a
quorum, and the concurrence of a majority of the
panel as a whole shall be necessary to a recommendation.
7.5. Report of recommendation of Inquiry Panel
to full Committee. In the event a majority of the
members of an Inquiry Panel votes to recommend the
conditional admission of an applicant, the Inquiry
Panel shall report to the full Committee the vote, the
matters of concern, the nature, substance, and duration of the course of treatment or remediation in which
the applicant is engaged, complete and detailed information regarding the applicant’s progress in connection therewith including any lapses or failures, the
panel’s general recommendation regarding the terms
and conditions of admission, any additional facts relevant to the recommendation, and confirmation of the

App. 273
applicant’s consent to admission on a conditional basis.
The full Committee shall then determine whether the
recommendation of the Inquiry Panel should be affirmed or denied.
7.6. Review of recommendation of Inquiry Panel
by full Committee and preparation of written report.
7.6a. If the report to the full Committee is made
and discussed at a meeting of the full Committee,
members of the Inquiry Panel may participate in
the discussion of the matter, but shall not be entitled to vote. Twelve members of the Committee
who were not members of the Inquiry Panel shall
constitute a quorum, and the concurrence of a majority of the members who are present and entitled
to vote shall be necessary to a decision. If the recommendation of the Inquiry Panel is affirmed,
within 21 days after such affirmation the Chairperson of the Inquiry Panel shall prepare and submit to the Director a written report containing all
of the information required by Rule 7.5. In the
event the vote is split and the Chairperson of the
Inquiry Panel is not in the majority, then the senior member of the majority shall prepare and submit the written report.
7.6b. If the report to the full Committee is not
made and discussed at a meeting of the full Committee, within 21 days after the vote of the Inquiry
Panel, the Chairperson of the Inquiry Panel shall
prepare and submit to the Director a written report containing all of the information required by
Rule 7.5. In the event the vote is split and the
Chairperson of the Inquiry Panel is not in the

App. 274
majority, then the senior member of the majority
shall prepare and submit the written report. The
Director shall then forward the report to all remaining members of the Committee, along with a
request for the vote of each member as to whether
the recommendation of the panel should be affirmed or denied. The concurrence of a majority of
the remaining members of the Committee shall be
necessary to a decision.
7.6c. If the recommendation of the Inquiry Panel
is denied by the full Committee, within 21 days of
such denial, the Chairperson or Vice-Chairperson
of the full Committee shall prepare and submit to
the Director a brief written report containing the
reason for the denial. Thereafter, the applicant
shall be notified in writing of the Committee’s declination to certify in accordance with Rule 8.3c.,
and the application may thereafter be further considered in accordance with Rules 9.1. et seq.
7.7. Preparation and execution of Consent Agreement. Upon receipt of the written report and recommendation of an Inquiry Panel for conditional
admission and its affirmation by the full Committee as
hereinabove provided, or upon receipt of the written
report and recommendation for conditional admission
of a Hearing Panel, the Director shall prepare and submit to the Chairperson of the panel that recommended
conditional admission the Consent Agreement setting
forth the terms and conditions of admission. The original Consent Agreement shall be signed by applicant,
the panel member who signed the report of the Inquiry

App. 275
Panel or Hearing Panel recommending conditional admission, and the Director.
7.8. Authorized conditions of admission. An applicant’s admission may be conditioned on the applicant’s
submitting to specified alcohol, drug, or mental health
treatment; medical, psychological, or psychiatric care;
participation in group therapy or support; debt management counseling; random chemical screening; and
supervision, monitoring, mentoring, or other conditions deemed appropriate by a Committee. The conditions shall be tailored to deter and detect conduct or
conditions that pose a risk to clients or the public, to
ensure continued abstinence, payment, treatment,
counseling, and other support and shall, when appropriate, take into consideration the recommendations of
qualified professionals regarding treatment and remediation.
7.9. Length of conditional period. The period of
conditional admission shall not exceed 24 months, unless the Court orders otherwise. The filing of a petition
to extend the period or a petition to revoke admission
shall extend the period of conditional admission until
the Court enters a final order on the petition.
7.10. Submission of recommendation, report and
Consent Agreement to the Court. The Director
shall submit to the Court copies of the recommendation and report of the Committee, the executed Consent Agreement, the Board’s certification that the
applicant is otherwise qualified for admission to the
bar, relevant information from the applicant’s

App. 276
character and fitness file, and any additional information or recommendation the Board deems appropriate. A copy of the executed Consent Agreement and the
Board’s recommendation, if any, shall be mailed to the
applicant.
7.11. Court review of recommendation, report
and Consent Agreement.
7.11a. If the Court determines that the applicant
qualifies for admission on the terms and conditions set forth in the Consent Agreement, it shall
enter an Order requiring the applicant to comply
with such terms and conditions for the period
specified immediately following the date of his or
her admission to the bar. In this event, copies of
the Order, the executed Consent Agreement, and
the recommendation and report of the Committee
shall be mailed to ARDC.
7.11b. If the Court denies the recommendation for
conditional admission, six months after the date of
the denial the applicant may file with the Board a
supplement to his or her previous Character & Fitness Questionnaire along with his or her personal
affidavit describing the extent, if any, to which he
or she has in the interim engaged in a course of
treatment for, or remediation of, the misconduct or
unfitness that was the basis of the recommendation. Following investigation and report of the supplemental materials, the application shall be
considered further in accordance with these Rules
by the Inquiry Panel or Hearing Panel that previously recommended conditional admission.

App. 277
7.12. Monitoring compliance with Consent
Agreement. If the applicant is conditionally admitted
to the bar, the Administrator of ARDC shall monitor
his or her compliance with the terms and conditions of
the Consent Agreement throughout the period of conditional admission. The Administrator may take such
action as is necessary to monitor compliance with the
terms of the Consent Agreement, including without
limitation referral for monitoring by a lawyer assistance program or other monitoring authority, requiring
the conditionally admitted lawyer to make periodic appearances before a monitoring agent or entity, requiring the lawyer to submit physical or written evidence
or other verification of compliance with the Consent
Agreement, and requiring the lawyer to submit to an
assessment by a medical professional.
7.13. Reporting changed circumstances or noncompliance with Consent Agreement.
7.13a. When the Administrator or the conditionally admitted lawyer identifies a change in circumstances that impacts the efficacy of the terms and
conditions of the Consent Agreement, either party
may report the change to the Court and petition
the Court to modify the terms or conditions affected by the changed circumstances.
7.13b. When a conditionally admitted lawyer fails
to comply with the Consent Agreement, the Administrator shall, where warranted, file with the
Court a report of the noncompliance and a petition
for revocation, modification, or extension of conditional admission. The petition shall be served

App. 278
upon the lawyer, who shall file a response within
21 days following service of the petition. If the
Court determines there is a material dispute of
fact, the Court shall refer the case to a panel of the
ARDC Hearing Board, which shall set the matter
for hearing on a date within 90 days of the Order
referring the case to the panel. The Administrator
must prove the violation(s) of the Consent Agreement by a preponderance of the evidence. The
Hearing Board panel shall resolve all disputes of
fact and file its findings with the Court within 45
days of the date the hearing concludes. Upon consideration of the pleadings and, where applicable,
the findings of the Hearing Board panel, the Court
shall determine whether to continue or revoke the
lawyer’s conditional admission license and, if not
revoked, whether to modify conditions or extend
the period of conditional admission.
7.14. Reapplication following revocation of conditional admission license. An applicant whose conditional admission license has been revoked may
reapply for admission to the bar, but not within two
years of the Order revoking the conditional admission
license, unless the Court orders otherwise. The applicant shall file a Character & Fitness Questionnaire together with such additional proofs and documentation
as the Board may require and his or her personal affidavit describing the extent, if any, to which he or she
has in the interim engaged in a course of treatment for,
or remediation of, the misconduct or unfitness that was
the basis of revocation of the conditional admission license. Following preparation of a character and fitness
investigation and report in accordance with these

App. 279
Rules, the reapplication and materials shall be assigned for character and fitness review directly to an
Inquiry Panel, if the original recommendation for conditional admission was made at the Inquiry Panel
level, or to a Hearing Panel, if the original recommendation for conditional admission was made by a Hearing Panel. To the extent possible, the original Inquiry
Panel or Hearing Panel shall be reconstituted; any unavailable member of the original panel shall be replaced by another member of the Committee.
7.15. Costs of conditional admission. The applicant
shall promptly pay directly or reimburse the Board for
costs incurred for evaluation and testing in connection
with Committee consideration of substance abuse or
dependency, diagnosed mental impairment, or diagnosed medical disorder prior to the submission of a recommendation for conditional admission to the Court.
The Board may agree to postpone reimbursement for
such costs on the basis of compelling evidence of inability to pay; provided, however, in that event the repayment of such costs shall be incorporated into the
Consent Agreement as a condition of compliance. Costs
incurred after the applicant is conditionally admitted
to the bar shall be defined and paid in accordance with
Supreme Court Rule 773.
7.16. Confidentiality. All information related to the
conditional admission of an applicant, including without limitation the fact of conditional admission and the
existence and terms of the written Consent Agreement, shall be confidential. An Order of the Court

App. 280
revoking a conditional admission license, however,
shall be a matter of public record.
RULE 8. CONSIDERATION OF CHARACTER
AND FITNESS REGISTRATIONS BY DIRECTOR, COMMITTEE MEMBER, AND INQUIRY
PANEL
8.1. Review by Director. At the direction of the
Board, the Director with the assistance of Board staff
shall conduct an initial review of all character and fitness registrations.
8.1a. Recommendation for certification. If the
character and fitness registration, investigation,
and report of an applicant for admission or limited
admission to the bar raise no character and fitness
concerns, as determined by the Director after review of said materials, the Director may recommend to the Board the certification of the
applicant; in this event, upon the request of any
Committee, the Director shall provide monthly notice to the Committee of all such recommendations.
8.1b. Referral to Committee. If the character
and fitness registration, investigation, and report
of an applicant for admission or limited admission
to the bar raise character and fitness concerns, as
determined by the Director after review of said
materials, the Director shall refer the applicant’s
file for evaluation in accordance with Supreme
Court Rules 708 and 709 to a member of the Committee in the District in which the applicant receives mail or as otherwise determined by the

App. 281
Board; provided, however, that a character and fitness registration falling within the purview of Supreme Court Rule 704(b) or otherwise containing
matters of significant character and fitness concern shall instead be referred directly to an Inquiry Panel, the members and Chairperson of
which may be appointed by the Committee Chairperson of that District or by the Director, for evaluation and review as provided in Rule 8.3. et seq.
Character and fitness registrations that have been
assigned to a member of the Committee or to an
Inquiry Panel in one District shall not be reassigned to another District.
8.2. Review by Committee member. Each applicant
file assigned to a Committee member shall be reviewed
by the member, and the applicant shall be required to
appear in person before the member to discuss the
character and fitness matter(s) of concern raised by the
materials submitted and/or gathered in connection
with the applicant’s character and fitness registration.
The applicant shall provide to the member any further
information or documentation requested and shall cooperate with any further investigation undertaken by
the member.
8.2a. Recommendation for certification. The
Committee member who has reviewed the character and fitness registration of an applicant may
recommend to the Board the certification of the
applicant. The applicant may thereafter be recommended by the Board for admission or limited admission to the bar if all other requirements for
admission have been met.

App. 282
8.2b. Referral to Inquiry Panel. If a Committee
member is not prepared to recommend the certification of an applicant, the Chairperson of the
Committee shall assign the applicant’s file to an
Inquiry Panel for further review and examination.
8.3. Review by Inquiry Panel. Each member of the
Inquiry Panel shall review the applicant file, and the
applicant shall be required to appear in person before
all members of the panel to discuss the character and
fitness matters of concern raised by the materials submitted and gathered in connection with the applicant’s
character and fitness registration. The applicant shall
provide to the panel any further information or documentation requested and shall cooperate with any further investigation undertaken by the panel. The
Inquiry Panel shall consist of the member to whom the
matter was originally assigned, as panel Chairperson,
and two additional Committee members appointed by
the Committee Chairperson. A majority of the Inquiry
Panel shall constitute a quorum, and the concurrence
of a majority shall be necessary to a decision.
8.3a. Declination to certify. In the event a majority of the members of an Inquiry Panel votes to
withhold the certification of an applicant, within
21 days after such vote, the Chairperson of the Inquiry Panel shall prepare and submit to the Director a written report advising of the Inquiry Panel
vote, the matters of concern, and the basis for the
declination to certify. In the event the vote is split
and the Chairperson of the Inquiry Panel is not in
the majority, then the senior member of the majority shall prepare and submit the written report.

App. 283
8.3b. Recommendation for certification to
full Committee and preparation of written
report. In the event a majority of the Inquiry
Panel votes to recommend certification of an applicant to the Board, the panel shall report the vote,
the matters of concern, and the basis for the recommendation for certification to the full Committee. The full Committee shall then determine
whether the recommendation of the Inquiry Panel
should be affirmed or denied.
8.3b.i. Vote of full Committee at meeting.
If the report is made and discussed at a meeting of the full Committee, members of the Inquiry Panel may participate in the discussion
of the matter, but shall not be entitled to vote.
Twelve members of the Committee who were
not members of the Inquiry Panel shall constitute a quorum, and the concurrence of a
majority of the members who are present and
entitled to vote shall be necessary to a decision. If the recommendation of the Inquiry
Panel is affirmed, within 21 days after such
affirmation, the Chairperson of the Inquiry
Panel shall prepare and submit to the Director a written report advising of the matters of
concern, the basis for the recommendation for
certification, and the full Committee’s affirmation of the recommendation of the panel. In
the event the vote is split and the Chairperson
of the Inquiry Panel is not in the majority,
then the senior member of the Inquiry Panel
shall prepare and submit the written report.

App. 284
8.3b.ii. Vote of full Committee without
meeting. If the report is not made and discussed at a meeting of the full Committee,
within 21 days after the vote of the Inquiry
Panel, the Chairperson of the Inquiry Panel
shall prepare and submit to the Director a
written report advising of the Inquiry Panel
vote, the matters of concern, and the basis for
the recommendation for certification. In the
event the vote is split and the Chairperson of
the Inquiry Panel is not in the majority, then
the senior member of the Inquiry Panel shall
prepare and submit the written report. The
Director shall then forward the written report
to all remaining members of the Committee,
along with a request for the vote of each member as to whether the recommendation of the
Panel should be affirmed or denied. The concurrence of a majority of the remaining members of the Committee shall be necessary to a
decision.
8.3b.iii. Affirmation of full Committee to
recommend certification. If the recommendation of an Inquiry Panel is affirmed by the
full Committee, upon receipt by the Director
of the written Inquiry Panel report recommending certification and its affirmation by
the full Committee as herein provided, the applicant may thereafter be recommended by
the Board for admission to the bar if all other
admission requirements have been met.
8.3b.iv. Declination of full Committee to
recommend certification. If the recommendation of the Inquiry Panel is denied by the

App. 285
full Committee, within 21 days after such denial, the Chairperson or Vice-Chairperson of
the Committee shall prepare and submit to
the Director a written report advising of the
matters of concern and the basis for the declination to certify.
8.3c. Notice to applicant of declination to
certify after Inquiry Panel and of right to a
hearing. Upon receipt by the Director of a written
report advising of an Inquiry Panel’s vote to withhold certification or a written report advising of a
vote of the full Committee to deny an Inquiry
Panel’s recommendation for certification, the applicant shall thereafter be notified in writing of
the Committee’s declination to certify and provided with a copy of the report of the Inquiry Panel
or of the Committee. The notice shall also advise
of the right of the applicant to submit a written
request for hearing within 21 days of the date of
the mailing of the notice and include instructions
for doing so. If the applicant fails properly to request a hearing within 21 days of the date of the
mailing of the notice, his or her application shall
be placed on inactive status and made subject to
the requirements of Rule 10.2.
RULE 9. CONSIDERATION OF CHARACTER
AND FITNESS REGISTRATIONS BY HEARING
PANEL
9.1 De novo hearing. In the event an applicant
properly requests a hearing pursuant to Rule 8.3c., he
or she will be allowed de novo review of his or her character and fitness registration before a Hearing Panel.

App. 286
9.2. Character & Fitness Update and supplemental investigation. An applicant who has
properly requested a hearing pursuant to Rule 8.3c.
shall promptly complete and file a Character & Fitness
Update pursuant to Rule 3.3c. Upon receipt of the
properly completed and filed Character & Fitness Update, the Director shall cause a supplemental character investigation and report to be prepared pursuant
to Rule 5. The Director shall then notify the Chairperson of the Committee of the request for hearing and
request the appointment of a Hearing Panel.
9.3. Appointment of Hearing Panel. The Chairperson of the Committee shall appoint a Hearing Panel
from the remaining members of the Committee, none
of whom have been members of the Inquiry Panel. A
hearing will thereafter be scheduled on a date certain
no fewer than 75 days after receipt of the properly completed and filed Character & Fitness Update. The
Chairperson of the Committee shall chair the Hearing
Panel. If unable to attend the hearing, the Chairperson
shall designate the Vice-Chairperson of the Committee
to serve as Chairperson in his or her stead. The Hearing Panel shall consist of five members of the Committee, and four members of the panel shall constitute a
quorum.
9.4. Notice of hearing. No fewer than 21 days prior
to the hearing, the Hearing Panel shall cause a Notice
to be sent to the applicant by mail containing:

App. 287
1.

the date, time, and place of such hearing;

2.

the disclosure of matters adverse to the applicant;

3.

if such matters were based in full or in part
upon statements from other persons, the
names of such persons;

4.

confirmation of the right of the applicant to be
represented by counsel, at his or her own expense, to examine and cross-examine witnesses, to adduce evidence bearing upon the
aforesaid adverse matters and upon his or her
character and fitness, and for such purposes
to make reasonable use of the Committee’s
subpoena powers under Rule 9.7;

5.

confirmation of the right of the applicant or of
his or her counsel, if any, to inspect prior to
the hearing his or her character and fitness
file; and

6.

a copy of these Rules.

9.5. Right to public hearing. The hearing shall be
private unless the applicant requests that it be public.
9.6. Counsel to present matters adverse. Subject
to the approval of the Board, the Director shall appoint
counsel from among the members of the bar to prepare
and present the matters adverse to the applicant.
9.7. Discovery. At the reasonable discretion of the
Chairperson of the Hearing Panel, the Committee
shall, upon request of any member of the Hearing
Panel or of the applicant, apply to the Clerk of the

App. 288
Supreme Court for the issuance of subpoenas or writs
for the taking of testimony at the hearing or upon evidence depositions and shall, upon like request, report
to said Court the failure or refusal of any person to attend and testify in response to any such subpoena or
writ. The taking of depositions shall be limited to evidence depositions where permitted by the Committee
under the criteria set forth in Supreme Court Rule
212(b).
9.8. Pre-hearing conference and motion practice.
The Chairperson of the Hearing Panel shall have reasonable discretion to hold a pre-hearing conference.
Any such pre-hearing conference shall be held no fewer
than seven days before the hearing. The Chairperson
shall conduct pre-hearing and post-hearing motion
practice. Motions by the applicant must be served on
the Chairperson, on Rule 9.6 Counsel, and on the
Board. Motions to quash must be served on the Chairperson, on the Board, on the person or entity whose
testimony the motion seeks to quash, on the applicant,
if the motion is not filed by the applicant, and on Rule
9.6 Counsel, if the motion is not filed by Rule 9.6 Counsel. The Chairperson shall have reasonable discretion
in serving as the adjudicator.
9.9. Evidence. A Hearing Panel shall not be bound by
the formal rules of evidence. It may in its discretion
take evidence in other than testimonial form, having
the right to rely upon records and other materials furnished in response to its requests for assistance in its
inquiries pursuant to these Rules and Supreme Court
Rule 709. It may further in its discretion determine

App. 289
whether any evidence to be taken in testimonial form
shall be taken in person at the hearing or upon deposition, but all testimonial evidence shall, in either
event, be taken under oath. The matters to be considered by a Hearing Panel need not be limited to the matters of concern set forth in the notice to the applicant
of the matters adverse to the applicant. A complete
stenographic record of the hearing shall be kept, and a
transcript may be ordered by the applicant at his or
her expense.
9.10. Post-hearing deliberations. Hearing Panel
members shall confer and deliberate among themselves at the conclusion of a hearing and subsequent
thereto as necessary. The panel may vote at the conclusion of a hearing or may defer the vote to a later date
not more than 45 days after conclusion of the hearing
or 45 days after the record of the hearing is closed,
whichever shall later occur, at which time a vote of the
Hearing Panel shall be taken. The members may vote
by mail, email, fax, or telephone. The applicant shall be
recommended for certification to the Board only upon
receiving at least three affirmative votes.
9.11. Preparation of Findings and Conclusions.
Within 45 days of the vote of a Hearing Panel, or, in the
event of special circumstances, within such additional
period of time as may be approved by the full Committee, the Chairperson of the Hearing Panel shall cause
to be prepared and submitted to the Director the Findings and Conclusions of the Committee together with
a recommendation for or against the certification of the
applicant. The Findings and Conclusions shall contain

App. 290
a synopsis of the contents of the application, a full and
fair explication of each of the matters of concern, and,
with regard to each such matter, the basis for the recommendation of certification or declination of certification. If the vote of the panel is less than unanimous,
the Findings and Conclusions shall include a clear and
concise statement of the concern(s) and conclusion(s)
of the minority.
9.11a. Non-unanimous recommendation. In
the event the vote of a Hearing Panel is less than
unanimous and the Chairperson of that Hearing
Panel is not in the majority, then the senior member of the majority shall oversee the preparation
of, and sign, the Findings and Conclusions of the
Committee.
9.11b. Preparation of minority opinion. Members of a Hearing Panel who wish to write and sign
a separate concurring or minority opinion may do
so, and the opinion will be attached to the Findings
and Conclusions of the Committee submitted
therewith.
9.12. Recommendation for certification to the
Court. If a Hearing Panel shall vote to recommend the
certification of an applicant, the Director shall thereafter transmit the prepared Findings and Conclusions of
the Committee to the Court together with any recommendation and information the Board may deem appropriate to submit. A copy of the Findings and
Conclusions of the Committee and the Board’s recommendation, if any, shall be mailed to that applicant and

App. 291
to his or her counsel, if any; a copy of any Board recommendation shall also be submitted to the Committee.
9.13. Declination to recommend certification. If
the Hearing Panel shall vote not to recommend the certification of an applicant, the Findings and Conclusions of the Committee shall thereafter be served on
that applicant by mail to the last address he or she
designated for receipt of notices, and the date of service
shall be the date of mailing; a copy of the Findings and
Conclusions of the Committee shall also be mailed to
counsel for the applicant, if any.
9.14. Confidentiality. Prior to the mailing of the written Findings and Conclusions of the Committee to an
applicant, the deliberation and decision of the Hearing
Panel shall remain confidential.
RULE 10. STATUS OF CERTAIN CHARACTER
AND FITNESS REGISTRATIONS
10.1. Failure of applicant to pass examination.
Each recommendation for the certification of an applicant for admission on examination prior to the announcement of the results of such examination shall be
a tentative recommendation. At the discretion of a
Committee, in the event an applicant for admission
upon examination has failed to pass the examination,
no further action as to such applicant need be taken
thereafter by that Committee or any Panel thereof until such time as the Committee shall be advised that
the applicant has passed a subsequent examination.

App. 292
10.2. Inactivity of applicant. The character and fitness registration of an applicant who without reasonable explanation has failed to provide requested
information or documentation for a period of more
than 90 days shall be placed on inactive status. Such
registration may be returned to active status only upon
the written request of the applicant, which request
shall attach all previously requested information and
documentation and satisfactorily address all previously outstanding matters of character and fitness concern. If nine or more months have passed since the
date an applicant filed his or her most recent Character & Fitness Questionnaire, then that applicant must
also properly complete and file a Character & Fitness
Update pursuant to Rule 3.3(b).
RULE 11. CONFIDENTIALITY
All information received by the Board or a Committee,
or any agent of the Board or Committee, pertaining to
an applicant is subject to a quasi-judicial privilege.
Such information shall be held in confidence and shall
not be disclosed except as follows: (a) information, such
as name, date of birth, and Social Security number of
an applicant and the date of his or her application, may
be made available for placement in a national data
bank operated by or on behalf of NCBE; (b) information
released in response to a subpoena from ARDC in connection with disciplinary proceedings, reinstatement
proceedings, or investigations regarding the unauthorized practice of law; (c) information in reports filed
with the Court; (d) information released in response to

App. 293
a written request from NCBE or other bar admitting
authorities when accompanied by an authorization for
the release of such information duly executed by the
person about whom such information is sought; (e) information concerning an applicant released in response to a subpoena issued in connection with the
criminal investigation or prosecution of such applicant; (f ) information in the form of the applicant’s character and fitness file disclosed to the applicant and his
or her counsel, if any, pursuant to Rule 9.4 prior to a
hearing, which documents shall thereafter become a
part of the record before the Court in the event the applicant files a petition for review pursuant to Supreme
Court Rule 708(h).
RULE 12. APPEALS
Any applicant who has received an unfavorable recommendation from a Committee may petition the Court
for review within 35 days after service of that Committee’s decision upon the applicant in accordance with
the provisions in Supreme Court Rule 708(h).

App. 294
RULE 13. NEW HEARINGS
13.1. New hearing. Any applicant who has been denied certification as hereinabove provided may petition the Committee issuing the denial for a new
hearing.
13.2. Timing of the petition. A petition for a new
hearing may not be filed within two years of the date a
Committee mailed its Findings and Conclusions to an
applicant, unless a shorter time is allowed by the decision of that Committee. If an applicant petitions the
Court for relief pursuant to Rule 12, and the Court denies the petition, the foregoing two year period commences on the date of the Order of the Court, unless a
shorter time is allowed by the Court. If a Committee
recommends the certification of an applicant who is
subsequently denied admission by the Court, the applicant may petition said Committee that conducted
the original hearing for a new hearing but not within
two years of the date of the Order of denial, unless a
shorter time is allowed by the Court.
13.3. Requirements for consideration. A petition
for a new hearing shall not be considered unless it: (1)
addresses the grounds for denial of certification in the
Findings and Conclusions of the applicant’s most recent Hearing Panel or, if applicable, in the most recent
opinion or order of the Court; (2) includes a showing of
the activities and conduct of the applicant since the
last action of the Committee or of the Court; and (3)
provides an overarching context of how the showing in
(2) informs the discourse in (1).

App. 295
13.4. Consideration of Committee. A Committee
may deny a petition for new hearing without hearing
testimony of witnesses if the petition does not meet the
foregoing requirements of this Rule nor sets forth substantial new matter that would prima facie overcome
the reasons for the previous denial and establish that
the applicant now has the good moral character and
general fitness to practice law that would justify certification. If a Committee determines that the petition
complies with this Rule and sets forth such substantial
new matter, the petition shall be granted. Such determination shall be made by majority vote of a full Committee at a meeting conducted in person or by
telephone conference at which a quorum is present
within 45 days after service of the petition for new
hearing upon that Committee. The members present
at the meeting may also vote by mail, email, fax, or telephone.
13.5. Notification, Character & Fitness Update,
and supplemental investigation. In the event a petition for new hearing is granted, the applicant shall
be so notified by mail, and he or she shall promptly
complete and file a Character & Fitness Update pursuant to Rule 3.3(d). Upon receipt of the properly completed and filed Character & Fitness Update, the
Director shall cause a supplemental character investigation and report to be prepared pursuant to Rule 5.
13.6. Appointment of new Hearing Panel. The
Chairperson of the Committee shall appoint a new
Hearing Panel; provided, however, that to the extent
possible, the original Hearing Panel shall be

App. 296
reconvened for the purpose of the new hearing. Any unavailable member of the original panel shall be replaced by another member of the Committee. A new
hearing shall thereafter be scheduled and held pursuant to the requirements of Rules 9.3 et seq.
13.7. Limitation. An applicant shall have 90 days
from the date a Committee grants his or her petition
for a new hearing to complete and file a Character &
Fitness Update, along with all other required documents, unless an extension of not more than an additional 90 days is granted by the Director. A request for
an extension of time must be made in writing, setting
forth the reasons for the request, and sent to the Director in Springfield. If an applicant fails to file a Character & Fitness Update within the prescribed time
period, the grant of his or her petition for a new hearing will be deemed null and void, and the applicant
must file a new petition for new hearing at that time.
In all events, if a new hearing fails to take place within
one year from the date a Committee grants the petition
for a new hearing, then the grant of that petition will
be deemed null and void.
RULE 14. SERVICE
All notices, reports, and other documents and items, including the Findings and Conclusions of the Committee, required to be mailed or delivered under these
Rules, may be sent by United States mail, postage prepaid, or by any private courier or delivery service approved by the Board, costs prepaid by the sender, to the

App. 297
last address provided by the intended recipient. The
date of service is the date of depositing such items in
the United States mails or tendering to the courier or
delivery service as appropriate.

